<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2018 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 115-448, Part 8]
[From the U.S. Government Publishing Office]


                                                 S. Hrg. 115-448, Pt. 8

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1519

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2018 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 8

                             CYBERSECURITY

                               __________

                              MAY 23, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
         

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


       Available via the World Wide Web: http://www.govinfo.gov/


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-762 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="284f5847684b5d5b5c404d4458064b474506">[email&#160;protected]</a>              



                     COMMITTEE ON ARMED SERVICES
                      
 JOHN McCAIN, Arizona, Chairman                            
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama              	GARY C. PETERS, Michigan
                                                          
             
                 Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff Director

                                  (ii)


_________________________________________________________________

                     Subcommittee on Cybersecurity

    MIKE ROUNDS, South Dakota, 		BILL NELSON, Florida
             Chairman
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
DAVID PERDUE, Georgia			KIRSTEN E. GILLIBRAND, New York
LINDSEY GRAHAM, South Carolina		RICHARD BLUMENTHAL, Connecticut
BEN SASSE, Nebraska               
                                   
                                  
                                     

                                  (ii)



                           C O N T E N T S

_________________________________________________________________

                              May 23, 2017

                                                                   Page

Cyber Posture of the Services....................................     1

Lytle, Vice Admiral Marshall B., III, USCG, Director, Command,        4
  Control, Communications and Computers/Cyber and Chief 
  Information Officer, Joint Staff, J-6.
Gilday, Vice Admiral Michael M., USN, Commander, United States        9
  Fleet Cyber Command and Commander, United States Tenth Fleet.
Nakasone, Lieutenant General Paul M., USA, Commanding General,       17
  United States Army Cyber Command.
Weggeman, Major General Christopher P., USAF, Commander, Twenty-     24
  Fourth Air Force and Commander, Air Forces Cyber.
Reynolds, Major General Loretta E., USMC, Commander, Marine          33
  Forces Cyberspace Command.

Questions for the Record.........................................    58

                                 (iii)

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, MAY 23, 2017

                           U.S. Senate,    
                      Subcommittee on Cybersecurity,
                       Committee on Armed Services,
                             Washington, DC.

                     CYBER POSTURE OF THE SERVICES

    The subcommittee met, pursuant to notice, at 2:29 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Mike 
Rounds (chairman) presiding.
    Subcommittee Members present: Senators Rounds, Fischer, 
Nelson, McCaskill, and Gillibrand.

            OPENING STATEMENT OF SENATOR MIKE ROUNDS

    Senator Rounds. Good afternoon. The Cybersecurity 
Subcommittee meets today to receive testimony on the cyber 
posture of the services.
    We are fortunate to be joined this afternoon by an 
impressive panel of witnesses. Let me begin by just saying 
thank you very much for your service to our country. Vice 
Admiral Marshall Lytle, Director, Joint Staff, Command, 
Control, Communications and Computers, Chief Information 
Officer; Vice Admiral Michael Gilday, Commander, Fleet Cyber 
Command; Lieutenant General Paul Nakasone, Commander, Army 
Cyber Command; Major General Christopher Weggeman, Commander, 
Air Force Cyber; and Major General Loretta Reynolds, Commander, 
Marine Forces Cyber Command.
    At the conclusion of my remarks and those of Senator 
Nelson, we will hear briefly from each of our witnesses. I ask 
our witnesses to limit their opening statements to 5 minutes in 
order to provide the maximum time for Member questions.
    We are making historic progress in the construction of our 
cyber force. There is nothing trivial about the standup of a 
6,200-person force within the timelines that each of you must 
meet. We are pleased that each of you seems to be on track to 
meet the October 2018 full operational capability, or FOC, 
deadline that the U.S. Cyber Command has established.
    Part of that progress is also evident as we start to see 
the deployment of capability and begin to get a sense of how a 
cyber force can be integrated with air, land, sea, and space.
    I want to congratulate and thank each of you for your 
leadership in building this first of its kind U.S. military 
capability.
    Despite the many successes, there are a number of 
challenges each of you are confronting. The purpose of today's 
hearing is to understand both the good and the bad, to get a 
sense of the areas where progress is sound and understand those 
challenges that are impacting you, challenges, quite frankly, 
that should be expected when undertaking the significant task 
that has been put before each of you.
    We all too often gravitate here in Congress towards 
exposing and addressing the challenges and unfortunately fail 
to applaud the successes. I specifically mentioned the progress 
made in training the force, as that is by no means a trivial 
task. I remain impressed by the progress.
    However, I remain concerned about what happens next, what 
happens after the cyber mission force reaches FOC. More 
specifically, will each of you have the bench strength 
necessary to sustain the tools, capabilities, and readiness 
levels required to be effective in the cyber domain?
    When Admiral Rogers testified before the full committee 
earlier this month, it became apparent that our ability to 
maintain training readiness will be impacted by numerous 
variables, both within and external to your control. It was 
mentioned during that hearing that out of the 127 Air Force 
cyber officers who completed their first tour on the Cyber 
Mission Force, none went back to the Cyber Mission Force. While 
reasonable people can disagree about whether the jobs they went 
to involved an aspect of cyber in one capacity or another, 
given the low density and high demand of the Cyber Mission 
Force, we must be especially vigilant in managing the few 
resources which we have.
    I am concerned that we will not generate and maintain the 
expertise we need unless we can build upon experience and 
develop the proficiencies required to stay ahead in cyberspace. 
Maintaining that expertise will require, among other things, 
the need to train personnel on new and perhaps rapidly evolving 
technology. My concerns with retention are exacerbated by the 
apparent lack of cohesive strategy for ensuring that the 
pipeline of new people will be sufficient to maintain readiness 
and keep those teams whole.
    I look forward to hearing from each of you how we can 
assure that you are able to recruit the people you need, train 
them to the level of capability required, and retain them in 
professionally viable cyber career fields. Do we need to 
rethink entirely what it means to be a cyber operator? Do they 
need to wear uniforms or meet the same physical requirements of 
other fields?
    While the initial demands for the cyber force were 
personnel and training heavy, we are getting to the point where 
unless we begin to see dramatic changes in the budget, the 
forces we have trained will lack the tools required to be 
effective. Thus far, billions of dollars have gone toward 
service-level network infrastructure but far too little has 
been requested for the mission forces themselves. I am 
concerned that unless this changes immediately, we are heading 
down the path to a hollow cyber force.
    We have been told not to expect much of a change in the 
fiscal year 2018 request which, if true, is something this 
committee will need to scrutinize in the coming weeks. Every 
service is constrained and each service has its own resourcing 
challenges. As we examine how those constraints and challenges 
impact the services' ability to resource cyber requirements, I 
believe it appropriate that we at least ask if the current man, 
train, and equip model is sufficient or if a new model should 
be considered, whether it be a hybrid of the existing structure 
or a cyber-specific service.
    Senator Nelson?

                STATEMENT OF SENATOR BILL NELSON

    Senator Nelson. Mr. Chairman, to that I would say amen.
    In the interest of time, I will insert my opening comments 
in the record, and I am going to go kick off another committee 
and I will be right back.
    [The prepared statement of Senator Nelson follows:]

               Prepared Statement by Senator Bill Nelson
    Thank you Senator Rounds, and welcome to our witnesses. Thank you 
for your service, and for the service of the men and women you 
represent here today.
    This is an important hearing. In addition to the recurring 
challenges of cyber warfare, this year we must squarely meet the 
extraordinary threat posed by Russia's cyberspace campaign to influence 
and undermine our elections.
    The Russian operation exposed a serious vulnerability on our part. 
We created a Cyber Command and built the Cyber Mission Forces to 
operate in cyberspace, but, as Admiral Rogers recently testified, we 
have not trained or tasked these forces to detect, counter, or conduct 
this kind of information operation. Our cyber forces are focused on the 
technical aspects of cyber-security--defending our networks from 
intrusions and penetrating adversary networks--and not on the content 
of the information flowing through the Internet.
    Russia and China, on the other hand, are manipulating and 
weaponizing information. They're using cyberspace to amplify age-old 
information operations to influence the perceptions and decisions of 
their adversaries--and they're suppressed peoples, too.
    The Defense Department has different organizations responsible for 
all the various elements of what is collectively called ``information 
warfare,'' but they seem to be scattered and not brought to bear in an 
integrated way. These elements include cyber operations, military 
information support operations, military deception and psychological 
operations, public affairs, electronic warfare, and operations 
security. The information operations that the Department does plan and 
conduct appear largely support the tactical or operational level 
objectives deployed forces, rather than strategic-level operations. The 
whole-of-government is poorly integrated too, including the Departments 
of Defense, State, Homeland Security, the FBI, and the Intelligence 
Community.
    Similar problems affect our interagency posture: we are very poorly 
integrated across DOD, State, the IC, Homeland Security, and the FBI, 
to detect, counter, and hopefully in the future deter Russian 
aggression.
    This brings me to the second major aspect of this problem that we 
need to talk about today--deterring information operations and 
cyberattacks conducted against us, especially our critical 
infrastructure. The Defense Science Board Task Force on Cyber 
Deterrence has urged us to develop and as necessary conduct information 
operations that are specifically designed to threaten the things that 
the leaders of adversaries value most highly. In the case of Russia, 
that might be the illicitly obtained wealth of the ruling elite, and 
the means by which they maintain power.
    I would like our witnesses' opinions about these issues and the 
role that Cyber Command could or should play in developing and 
executing these operations.
    Thank you Mr. Chairman.

    Senator Rounds. Very good. Thank you, Senator.
    Why do we not just begin with opening statements, Vice 
Admiral Lytle?

    STATEMENT OF VICE ADMIRAL MARSHALL B. LYTLE III, USCG, 
DIRECTOR, COMMAND, CONTROL, COMMUNICATIONS AND COMPUTERS/CYBER 
        AND CHIEF INFORMATION OFFICER, JOINT STAFF, J-6

    VADM Lytle. Good afternoon, Chairman Rounds. Thank you for 
inviting us to talk about the Joint Force's efforts in 
cyberspace. Vice Admiral Gilday, Lieutenant General Nakasone, 
Major General Weggeman, Major General Reynolds, and I share 
your keen interest in this topic.
    I will focus my remarks on three primary missions in 
cyberspace and describe the current approach to strengthen 
cyber warfighting capabilities of the Joint Force.
    The Joint Force executes the Department of Defense's three 
primary cyber missions in support of the national defense 
strategy: defend the DODIN [Department of Defense Information 
Network], defend the Nation, and provide integrated cyber 
capabilities in support of the combatant commands.
    Joint Force's first mission is to defend the Department's 
networks, systems, and information. The Joint Force must be 
able to secure its networks against attack and recover quickly 
if security measures fail. If our DOD [Department of Defense] 
systems are not usable, our greater defense capability will be 
diminished.
    Second, the Joint Force must be prepared to defend the 
United States and its interests against cyber attacks of 
significant consequence when directed by the President. This 
mission may be performed for significant cyber events that 
include loss of life, significant damage to property, severe 
adverse United States foreign policy consequences, or serious 
economic impact on the United States.
    Third, when directed by the President or the Secretary of 
Defense, the Joint Force must provide integrated cyber 
capabilities to support military operations and contingency 
plans. These activities are conducted by U.S. Cyber Command 
according to priorities set within the globally integrated 
combatant command plans and in direct coordination with other 
U.S. Government agencies. These activities may include actions 
to disrupt adversary networks or infrastructure and prevent use 
of force against U.S. interests.
    These primary missions are underpinned by three main 
cyberspace capability elements used to enable combatant 
commands' ability to execute their operational plans. These 
elements are defensible cyber terrain, cyber defenses, and the 
cyber forces. Together, these elements factor heavily into our 
ability to prevail against determined and capable nation-state 
actors.
    Information about offensive forces and capabilities is 
classified, but please understand that these offensive 
components are important and are coupled with our defensive 
capabilities for maximum effect.
    The first element of the Department's cyberspace 
capabilities is defensible cyber terrain. Cyberspace is a 
manmade domain and requires common standards to achieve 
defensible, effective, and efficient operations. The Joint 
Information Environment Initiative provides these common 
standards for the protection of all network systems. Over the 
past years, the Department made significant gains in hardening 
our systems focused under the Department of Defense 
Cybersecurity Scorecard effort, and we have increased endpoint 
security and access control. We must continue to train all of 
our personnel across the DOD until they have a working 
knowledge of cybersecurity practices and hold leaders 
accountable for instilling that culture of cybersecurity 
discipline.
    The second capability element dedicated to cyber defenses 
are arrayed in a defense in-depth posture with a focused level 
of tiered defenses. These defenses are broken into three tiers. 
Tier-1 is the Department's outer boundary of Internet access 
points defense suites. Tier-2 is the Joint Regional Security 
Stacks, and Tier-3 consists of endpoint security systems like 
host-based security systems on work stations. These tiered 
defenses comprise our primary defense against external threats 
in cyberspace and will be increasingly reliant on automation to 
manage the threats.
    The final element, cyber forces, are categorized in two 
ways. The first are our fixed force defenders. Those are the 
people that operate and protect assigned network enclaves and 
associated systems. They are comprised of military cyber units 
that form the backbone of secure network operations, including 
service and agency network operations in security centers, 
cybersecurity service providers, and cyber incident responders.
    The other and more often discussed category of forces, the 
Cyber Mission Force, is the Joint Forces maneuver force in 
cyberspace. The CMF [Cyber Mission Force] is composed of 133 
teams with objectives that directly align to the Department's 
three cyber missions and are directed by U.S. Cyber Command and 
its subordinate headquarters.
    The Cyber Mission Force, all 133 teams, met their initial 
operating capability milestone in October 2016. All teams are 
also on track to meet their full operating capability in 2018, 
October. More than half the teams have already met their full 
operating capability milestone, and all of the teams are 
actively performing missions defending U.S. networks, defending 
DOD U.S. networks, protecting weapons platforms, and defending 
critical infrastructure.
    Despite these successes, there are still significant 
readiness challenges that impact the cyber force. The Joint 
Force completed a Cyber Mission Force training transition plan 
in January of this year. The plan introduced the federated 
joint training model and addresses the Cyber Mission Force 
Active and a Reserve component training demand. Through the 
institution of joint training standards and standardized 
readiness reporting, the Joint Force is beginning to identify 
trends that will help us better shape service policy and 
resourcing requirements for the future. Each service is working 
their unique cyber manpower challenges as part of their man, 
train, and equip responsibilities. They have learned and 
adapted over the past years instituting a number of changes to 
ensure the success of the Cyber Mission Force and its 
associated cyber tactical mission headquarters. You will hear 
more from my colleagues on all of their efforts.
    Equally important to manning and training, equipping the 
Cyber Mission Force is evolving from the service platforms 
currently employed by cyber operators to a standardized joint 
capability that enables the force effectively and efficiently 
while integrating into existing planning and force development 
constructs. The framework for equipping the Cyber Mission Force 
for both defensive and offensive missions is built upon a 
family of interoperable systems from which the Cyber Mission 
Force can operate and synchronize operations. Prototyping and 
analysis of alternatives is underway to determine the best 
composition of these systems under the unified platform of 
effort led by the United States Air Force.
    As the Cyber Mission Force continues to grow and mature, so 
does the need to command and control and integrate the global 
efforts of this complex and geographically dispersed 
warfighting capability. The Joint Staff recently published a 
revised command and control model that streamlines the command 
relationships and synchronizes actions in support of the 
combatant command campaigns. The Office of the Secretary of 
Defense is currently working with the services to lay in 
resourcing ramps over the FYDP [Future Years Defense Program] 
for the needed manpower and O&M [Operations and Maintenance] 
costs for this C2 model.
    Thank you, Mr. Chairman and Members of the committee, for 
the opportunity to be here. I am grateful for the committee's 
interest and your support of our men and women in uniform.
    [The prepared statement of Vice Admiral Lytle follows:]

           Prepared Statement by Vice Admiral Marshall Lytle
                              introduction
    Chairman Rounds, Ranking Member Nelson, and Members of the 
Subcommittee, thank you for inviting us to discuss the Joint Force's 
efforts in cyberspace. I appreciate the opportunity to explain the 
progress made to improve America's cyber defense posture.
    I will focus my comments on three primary missions in cyberspace 
and describe the current approach to strengthening the cyber 
warfighting capabilities of the Joint Force. Toward that end, I will 
describe the state of our ongoing efforts to man, train, and equip the 
Cyber Mission Force, as well as the Joint organizations needed to 
Command and Control them. Finally, while I cannot discuss particulars 
in an unclassified statement, I will broadly describe the cyber 
capabilities needed to support both offensive and defensive teams.
                            joint staff role
    As part of my duties as the Director for Command, Control, 
Communications and Computers/Cyber, I work with our Joint Staff 
Operations, Planning and Resourcing leaders to integrate strategic 
cyberspace matters, including synchronization with national strategies, 
readiness tracking of joint cyber forces, and development of 
capabilities and concepts to support the Chairman's decision making. We 
work closely with the Principal Cyber Advisor, the Office of the 
Secretary of Defense staff and the Services to assess, address and 
advocate for the Combatant Commands' cyber mission requirements and 
priorities in support of the National Defense Strategy.
                     primary missions in cyberspace
    The Joint Force executes the Defense Department's three primary 
cyber missions in support of the National Defense Strategy. The Joint 
Force defends the Department's networks, systems, and information. The 
United States military's dependence on cyberspace for operations led 
the Secretary of Defense in 2011 to declare cyberspace an operational 
domain for purposes of organizing, training, and equipping United 
States military forces. The Joint Force must be able to secure networks 
against attack and recover quickly if security measures fail. To this 
end, network defense operations are conducted on an ongoing basis to 
securely operate the Department of Defense Information Networks. When 
indications of hostile activity are detected within networks, the Joint 
Force has capabilities to react, recover and return the networks and 
systems to a secure posture. Accordingly, network defense operations on 
Department's networks constitute the vast majority of the Joint Force's 
efforts in cyberspace.
    In addition to protecting Defense Department networks, the Joint 
Force must be prepared to defend the United States and its interests 
against cyberattacks of significant consequence when directed by the 
President or his national security team. This second cyber mission is 
performed on a case-bycase for significant cyber events that may 
include loss of life, significant damage to property, serious adverse 
United States foreign policy consequences, or serious economic impact 
on the United States.
    Third, when directed by the President or the Secretary of Defense, 
the Joint Force must provide integrated cyber capabilities to support 
military operations and contingency plans. Examples include cyber 
operations that disrupt and adversary's military related networks or 
infrastructure in order to terminate an ongoing conflict on United 
States terms, or to disrupt an adversary's military systems to prevent 
the use of force against United States interests. United States Cyber 
Command, in coordination with other United States Government agencies, 
may be directed to conduct cyber operations to deter or defeat 
strategic threats in other domains. These primary missions are 
underpinned by three main cyberspace capability elements used to assess 
Combatant Commands' ability to execute their operational plans.
                   elements of cyberspace capability
    This statement will not include information about offensive force 
or capability due to its classification, however, offensive components 
are important and are coupled with our defensive forces and 
capabilities to achieve maximum effects.
    Cyber forces, cyber defenses and defensible cyber terrain are the 
three main elements that determine the Joint Force's our ability to 
achieve the primary cyber missions. Together, these elements factor 
into our ability to prevail against determined and capable nation-state 
cyber threat actors.
    Of the cyber forces, the first line of defense--``fixed force 
defenders''--that operate and defend assigned network enclaves and 
associated defenses. Sometimes referred to as ``cyber enterprise 
defense forces'', they are composed of military cyber units that form 
the backbone of secure network operations. They include Service and 
Agency Network Operations and Security Centers, Cyber Security Service 
Providers, and Cyber Incident Response Teams, among others.
    The Cyber Mission Force (CMF) is the Joint Force's ``maneuver 
force'' in cyberspace. The CMF is composed of 133 teams with objectives 
that directly align to the Department's three cyber missions. These 
tactical teams are command and controlled by a planning and execution 
structure led by United States Cyber Command through its subordinate 
Joint Force Headquarters.
    The second capability element, dedicated cyber defenses, are 
arrayed in a defense-in-depth posture with a focused level of tiered 
defenses including the Department's Internet Access Point defense 
suites, the Joint Regional Security Stacks, and Service and Agency 
network security boundaries at the organizational and installation 
levels. These tiered defenses comprise our primary defense against 
external threats in cyberspace.
    The final main element of the Department's cyberspace capabilities 
is defensible cyber terrain. The nature of cyberspace means that 
individual enduser machines are directly susceptible to compromise, and 
that a single compromise can quickly proliferate laterally to other 
machines. This inside threat coupled with the human factor introduced 
by users necessitates the protection of all networked systems to a 
specified minimum level of cybersecurity. Over the past year, the 
Department made significant gains in hardening our systems under the 
Department Cybersecurity Scorecard effort. Coupled with increased end 
point security, we must continue to train all personnel until they have 
a working knowledge of cybersecurity practices, and hold leaders 
accountable for instilling a culture of cybersecurity discipline.
    Further improving the defensibility of cyber terrain involves 
systematically identifying ``Mission Relevant Cyberspace Terrain'' and 
obtaining situational awareness of that terrain in support of critical 
missions. Executing the DOD Cyber Strategy line of effort on mission 
assurance, the Joint Staff led a Department-wide initiative to bring 
together expert planners from the cyber defense and mission assurance 
communities to forge and codify a new approach to identifying the key 
cyber terrain that underpins the Joint Force's critical missions. This 
approach was vetted and refined during exercises. A formal Planning 
Order was sent out to all Combatant Commands last month toward that 
end, the culmination of 18 months of effort.
    As the senior Joint Staff cyber leader, my main focus is on the 
manning, training and equipping of the cyber force. The remainder of my 
statement will focus on the successes and unique challenges faced in 
building and maintaining the world's premiere cyber force.
                              cyber forces
    The Joint Force's ability to man the cyber force is predicated on 
the assumption that the force is a net exporter of cyber talent. Much 
like pilots, air traffic controllers and other highly technical 
military specialties, the Joint Force does not compete with industry, 
but rather is focused on building training programs and strategies to 
grow talent, leverage Reserve Component expertise, and retain adequate 
numbers of seasoned cyber operators to meet the growing demands in 
cyberspace. By anchoring our personnel strategies in net production 
vice competition, in addition to leveraging direct hires and native 
talent, we will be better able to produce adequate numbers of cyber 
experts while enhancing the collective cyber defense posture of our 
Nation.
    Developing a training program for cyber operators resembles the 
challenge faced in training pilots and aircrew to operate the world's 
most advanced aircraft, maintaining their skills on the latest aircraft 
systems, and sustaining their numbers to ensure a constant sufficiency 
of motivated and technically excellent personnel. Creating a 
``pipeline'' in the United States military's air components took many 
years. I am unsurprised by the challenges encountered while 
constructing the training and personnel pipeline for the Cyber Mission 
Force.
    The Joint Force completed the Cyber Mission Force Training 
Transition Plan in January of this year. The plan introduced a joint 
training model and addresses the Cyber Mission Force Reserve Component 
training demand. As part of this effort a training funding shortfall 
was identified, and the Joint Staff is working with the Office of the 
Secretary of Defense to mitigate this shortfall.
    The make-up of the cyber force is unique in warfighting because 
one-third of its composition is civilian. This poses a unique 
recruiting and retention challenge. We appreciate the committee's focus 
on this unique challenge and Congress' efforts to improve our ability 
to address this issue with section 1107 of the fiscal year 2016 
National Defense Authorization Act. The Department of Defense Chief 
Information Officer's office is pursuing a permanent fix via the 
implementation of the Department's Cyber Excepted Service program.
    Equally important to manning and training the Cyber Mission Force 
is evolving from the narrowly focused Service platforms employed by 
cyber operators to a standardized joint capability that equips the 
force effectively and efficiently with integration into existing 
planning and force development constructs. The framework for equipping 
the Cyber Mission Force for both defensive and offensive missions is 
built upon a family of interoperable systems from which the Cyber 
Mission Force can operate and synchronize operations. The Joint Force 
is conducting an Analysis of Alternatives to determine how best to 
equip the Cyber Mission Force with title 10 mission platforms.
    The Cyber Mission Force--all 133 teams--met their Initial Operating 
Capability milestone in October 2016. All teams are also on track to 
meet their Full Operating Capability milestone by October 2018. More 
than half of the teams have already met their Full Operating Capability 
milestone and all 133 teams are actively performing their assigned 
missions defending DOD networks, protecting weapons platforms, and 
defending critical infrastructure. Despite these successes, there are 
still significant readiness challenges that impact the cyber force. 
Joint training standards have been published and instituted 
standardized readiness reporting in the Defense Readiness Reporting 
System in order to track and address these challenges. This nascent 
tracking capability is beginning to identify trends that will help us 
better shape Service policy and resourcing requirements in the future.
    Each Service is working their unique cyber manpower challenges as 
part of their man, train and equip responsibilities. They have learned 
and adapted over the past four years, instituting a number of personnel 
policy changes to ensure the success of the Cyber Mission Force and its 
associated cyber tactical headquarters. For example, all of the 
Services are leveraging their Reserve Components to augment Cyber 
Mission Force teams, either in whole or in part, while adding Federal, 
state and local cyber surge capacity allowing the nation to 
collectively respond to major threat activity in cyber.
    The Navy and Marine Corps continue to utilize individual augmentees 
to fill gaps in their Active Duty Cyber Mission Force teams and are 
looking at other ways to utilize their Reserve Components to address 
critical skillsets and shortages. Also, the Air Force utilizes its 
Reserve component to present three three full teams to the Cyber 
Mission Force as part of their total force contribution. Behind these 3 
``full-time equivalent'' teams are 15 rotating reserve teams comprised 
of Air Force Reserve and Air National Guard members that provide 12 
teams of surge capacity in addition to the 3 full time teams required 
by United States Cyber Command. Finally, the Army Reserve Component 
began building an additional 21 teams to augment the original 133 Cyber 
Mission Force teams as well. Once fully built, the Reserve component 
will be providing approximately a fifth of the total Cyber Mission 
Force surge capacity of 166 teams. The build and training plan for 
these additional Reserve Component forces is included in the Cyber 
Mission Force Training Transition Plan referenced earlier should you 
wish further details.
    The Cyber Mission Force continues to grow and mature, as does the 
increasing need to Command and Control and synchronize the global 
efforts of this complex and geographically dispersed warfighting 
capability. The Joint Staff recently completed a revised Command and 
Control model that streamlines the command relationships and 
synchronizes actions in support of Combatant Command campaigns. This 
model, coupled with manpower assessments performed by a team of joint 
manpower experts last summer and fall, informed a Joint Manpower 
Validation effort completed last month. The Department is currently 
working with the Services to review resourcing requirements for the 
future.
                               conclusion
    Thank you again, Mr. Chairman, Ranking Member Nelson, and Members 
of the Committee for the opportunity to provide this statement. I am 
grateful for the Committee's oversight and your support for our men and 
woman in uniform.

    Senator Rounds. Thank you, sir.
    Vice Admiral Gilday?

 STATEMENT OF VICE ADMIRAL MICHAEL M. GILDAY, USN, COMMANDER, 
UNITED STATES FLEET CYBER COMMAND AND COMMANDER, UNITED STATES 
                          TENTH FLEET

    VADM Gilday. Chairman Rounds, Senator McCaskill, good 
afternoon.
    On behalf of the more than 16,000 sailors and civilians of 
Fleet Cyber Command, thank you for the opportunity to appear 
before the subcommittee today.
    I also want to thank you for your leadership in helping 
keep our Nation secure, particularly in the complex domain of 
cyberspace.
    It has been my privilege to command Fleet Cyber Command for 
the last 10 months. Based at Fort Meade, Fleet Cyber is the 
operational headquarters for a globally deployed cyber force 
responsible for operating and defending Navy networks, 
operating our global telecommunications architecture, including 
satellites, and providing cryptology, signals intelligence, 
space, and cyber warfighting capabilities to support fleet and 
combatant commanders.
    These are distinct but overlapping mission sets, and I wear 
three hats as the Navy cyber component to U.S. Cyber Command 
for cyberspace operations, NSA [National Security Agency] for 
cryptologic operations, and U.S. Strategic Command for space
operations.
    We are also designated as a Joint Force Headquarters-Cyber 
supporting both U.S. Pacific Command and U.S. Southern Command. 
In addition to our Cyber Mission Force teams, we ensure full-
spectrum cyber operations are considered within the joint 
planning
environment.
    In the maritime environment in which the Navy operates, it 
has become increasingly more complex, and this is due in no 
small part to the advancement and reliance on information 
technology that is tightly interwoven within the cyber domain. 
This growing integration of cyber into joint operations, as 
well as the rise in threats against our systems, are two trends 
that show no signs of slowing.
    On those two points, the increased tempo in cyber 
operations and the upward trend in malicious cyber activity, we 
view our warfighting capability through a systems of systems 
approach focusing on people, processes, and technology. Our 
investments in people, processes, and technology, as well as 
our operational focus, has been guided by three goals: first, 
to operate our Navy networks as warfighting platforms; second, 
to deliver effects through cyberspace; and third, to field and 
sustain Navy's portion of the Cyber Mission Force. As of today, 
we have 27 teams at full operational capability, and I expect 
all of our teams to meet FOC before the October 2018 deadline.
    Lastly, I still believe we have much room to grow. In 
particular, we will continue to benefit from maturing 
partnerships with the U.S. Military Services and our allies, 
U.S. Government agencies, academia, and importantly, industry. 
Greater cooperation through information sharing, whether it is 
on common threats, new technologies, or best practices, is 
critically important in this shared domain.
    Thank you again, Mr. Chairman. I look forward to taking 
your questions particularly, as you pointed out, those issues 
associated with recruiting, retaining, and sustaining our cyber 
force.
    [The prepared statement of Vice Admiral Gilday follows:]

          Prepared Statement by Vice Admiral Michael M. Gilday
    Chairman Rounds, Ranking Member Nelson and distinguished Members of 
the Subcommittee, thank you for your continued support of the men and 
women of U.S. Fleet Cyber Command, the U.S. Tenth Fleet, and the United 
States Navy. It is a privilege to represent those outstanding sailors 
and civilians who comprise our Fleet Cyber/Tenth Fleet team, and I 
appreciate this opportunity to update you on how our Navy's cyberspace 
operations are evolving to remain competitive in a changing strategic 
environment.
    U.S. Fleet Cyber Command reports directly to the Chief of Naval 
Operations as an Echelon II command and is responsible for operating 
and securing Navy Enterprise networks, defending all Navy networks, 
operating our global telecommunications architecture, and providing 
Cryptology, Signals Intelligence (SIGINT), Information Operations, 
Electronic Warfare, Cyber, and Space warfighting capabilities to 
support fleet commanders and combatant commanders. With distinct, but 
overlapping mission sets, U.S. Fleet Cyber Command serves as the Navy 
Component Command to U.S. Cyber Command for cyberspace operations, the 
Navy's Service Cryptologic Component Commander under the National 
Security Agency/Central Security Service and the Navy's component for 
space under U.S. Strategic Command.
    Headquartered in Fort Meade, MD, U.S. Fleet Cyber Command exercises 
operational control of globally-deployed forces through a task force 
structure aligned to the U.S. Tenth Fleet. U.S. Fleet Cyber Command is 
also designated as the Joint Force Headquarters-Cyber aligned to U.S. 
Pacific Command and U.S. Southern Command for the development, 
oversight, planning and command and control of full spectrum cyberspace 
operations for assigned Cyber Mission Force teams.
    U.S. Fleet Cyber Command's operational force comprises nearly 
16,500 Active Duty and Reserve component sailors and civilians 
organized into 24 Active commands and 32 Reserve commands around the 
globe. The commands are operationally organized into a Tenth Fleet-
subordinate task force structure for execution of operational mission. 
More than 35 percent of U.S. Fleet Cyber Command's operational forces 
are directly aligned to execute our cyberspace operations missions.
    In the two years since my predecessor VADM Jan Tighe last testified 
before the Emerging Threats Subcommittee in April 2015, we developed 
and released our Strategic Plan 2015-2020. This plan charts our course 
to deliver on our responsibilities by leveraging our strengths and 
shrinking the Navy's vulnerabilities to a cyber adversary, which I 
detail throughout this statement. Across the wide-ranging 
responsibilities, we identified 5 strategic goals:

    1.  Operate the Network as a Warfighting Platform: Defend Navy 
networks, communications and space systems, ensure availability and, 
when necessary, fight through them to achieve operational objectives.
    2.  Conduct Tailored Signals Intelligence: Meet the evolving SIGINT 
needs of Navy commands, including intelligence support to cyber.
    3.  Deliver Warfighting Effects Through Cyberspace: Advance our 
effects delivery capabilities to support a full spectrum of operations, 
including cyber, electromagnetic maneuver, and information operations.
    4.  Create Shared Cyber Situational Awareness: Create a shareable 
cyber common operating picture that evolves to full, immediate 
awareness of our network and everything that happens on it.
    5.  Establish and mature Navy's Cyber Mission Forces: Stand up 40 
highly expert Cyber Mission Teams and plan for the sustainability of 
these teams over time.

    Since that time, we, as a command, along with our fellow Service 
Components, U.S. Cyber Command, and the Department of Defense (DOD), 
have continued developing organizationally, as well as evolving 
cyberspace capabilities and capacity. I thank you for opportunity to 
discuss the Navy's progress in cyberspace, where we have made much 
progress and are moving out smartly on the course ahead.
Operate the Network as a Warfighting Platform
    We operate in an increasingly competitive environment where 
information is the fuel of decision making and protecting that 
information and our mechanisms for Assured Command and Control (C2) are 
critical to successful maritime operations. Loss of this information 
not only degrades our confidence and effectiveness of our C2, it also 
leads to loss of intellectual property and dulls our competitive edge. 
The margins of victory are razor thin, and we cannot afford to lose a 
step. To help ensure we retain our competitive edge, the forces of 
Fleet Cyber Command and the Tenth Fleet are highly integrated with our 
Navy's regional fleet commanders they support and are fully integrated 
to current and future Fleet operations so we may flex and adjust our 
cyberspace capabilities to maximize success of any assigned mission. 
Our leadership is fully supportive of U.S. Fleet Forces Command and 
U.S. Pacific Fleet's focus on distributed maritime operations and 
Fleet-centric warfighting.
    U.S. Fleet Cyber Command directs operations to secure, operate, and 
defend Navy networks within the Department of Defense Information 
Networks (DODIN). I can most succinctly capture our approach to 
cybersecurity by stating the Navy operates is networks as a warfighting 
platform. This concept has many facets, including as a warfighting 
platform it must be aggressively defended from intrusion, exploitation 
and attack. As a warfighting platform, the network must be agile and 
resilient and responsive to the C2, intelligence, logistics, and combat 
support functions that depend upon it. As a warfighting platform, it 
must be capable of and available to deliver warfighting effects in 
support of combatant commander operational priorities.
    The Navy Networking Environment currently consists of more than 
500,000 end user devices; an estimated 75,000 network devices (e.g., 
servers, domain controllers); and approximately 45,000 applications and 
systems across three security enclaves. Reflective of the larger 
culture, the demand for interconnectedness continues to grow and 
cybersecurity solutions must keep pace.
    Today's Navy's Enterprise Networks have benefited greatly from the 
nearly 1 billion dollar executed and proposed investments (through 
fiscal year 2020) that reduce the risk of successful cyberspace 
operations against the Navy Networking Environment.
    The Navy took such aggressive actions implementing lessons learned 
during Operation Rolling Tide, during which U.S. Fleet Cyber Command 
fought through an adversary intrusion into the Navy's unclassified 
network. Some of our best investments have not only been in technology, 
but in the development of policies and Tactics, Techniques and 
Procedures. This investment of time and focus enabled significantly 
increased visibility into and more importantly increased awareness of 
the state of Navy's Enterprise Networks.
    It was through the lens of our post-Operation Rolling Tide efforts 
that the Navy identified where immediate infusion of defensive network 
capabilities was most critical and where accelerated modernization of 
network infrastructure was most warranted.
Reducing the network intrusion attack surface
    Opportunities for malicious actors to gain access to our networks 
come from a variety of sources such as known and zero-day cyber 
security vulnerabilities, poor user behaviors, and supply chain 
anomalies. Operationally, we think of these opportunities in terms of 
the network intrusion attack surface presented to malicious cyber 
actors. The greater the size of the attack surface, the greater the 
risk to the Navy mission. The attack surface grows larger with aging 
operating systems and when security patches to known vulnerabilities 
are not rapidly deployed across our networks, systems, and 
applications. The attack surface also grows larger when network users, 
unaware of the ramifications of their on-line behavior exercise poor 
cyber hygiene and unwittingly succumb to spear phishing emails that 
link and download malicious software, or use peer-to-peer file sharing 
software that introduces malware to our networks, or simply plug their 
personal electronic device into a computer to recharge it.
    The Navy is taking positive steps in each of these areas to reduce 
the network intrusion attack surface including enhanced cyber awareness 
training for all hands, enhancements to how we monitor our networks for 
compliance and vulnerabilities, and improving the process on how we 
inspect the cyber readiness of our networks. Furthermore, we are 
bolstering our ability to manage cyber security risks in our networks 
through our certification and accreditation process, and through 
working with industry partners and academia on ways to utilize data 
analytics, machine learning, and other automation technologies. 
Additionally, the Navy is reducing the attack surface with significant 
investments and consolidation of our ashore and afloat networks with 
modernization upgrades:
    The Navy's Next Generation Enterprise Network-Recompete (NGEN-R) is 
an evolution building on the successes of the current contract. 
Incorporating lessons-learned from Operation Rolling Tide, a large-
scale network maneuver and operation to eradicate and adversary from 
the Navy's unclassified network, and combining our overseas networks 
into the Navy Marines Corps Intranet (NMCI), will offer improved 
situational awareness, ability to C2, operate and defend the network. 
Extending our CONUS NMCI to our OCONUS Network (ONE-Net) will leverage 
the operational and security capabilities of the NMCI and the unique 
requirements of our overseas warfighters, reducing the network attack 
surfaces. The improved situational awareness capability in NGEN-R will 
provide our headquarters and network defense subordinate forces the 
ability to make better informed network operational decisions, 
improving our network response actions, reducing the network intrusion 
attack surface and decreasing response time.
    Often times, people are viewed as the largest vulnerability in this 
equation--by that same logic, we believe our people, each and every 
person touching a keyboard, can make the network stronger. In addition 
to cyber awareness training for all hands, we are working closely with 
U.S. Cyber Command to develop an innovative and robust persistent 
training environment for our network defenders. We are also working 
closely with the U.S. Naval Academy, the Naval Postgraduate School, and 
the U.S. Naval War College on ways to increase the relevance and 
currency of their cybersecurity and cyberspace operations education 
programs and initiatives.
Enhance our Defense in Depth Operations
    The Navy is working closely with U.S. Cyber Command, NSA/CSS, our 
Cyber Service counterparts, DISA, Inter-Agency partners, and commercial 
cyber security providers to enhance our cyber defensive capabilities 
through layered sensors and countermeasures from the interface with the 
public internet down to the individual computers that make up the Navy 
Networking Environment. We configure these defenses by leveraging all 
source intelligence and industry cyber security products combined with 
knowledge gained from analysis of our own network sensor data. As 
information sharing improves, so does mutual defense.
    We cannot and will not assure our mission in this domain alone. We 
operate in and around an infrastructure that is largely commercially 
owned. The rise of dual-use technology has created vulnerabilities, but 
should just as well be leveraged for opportunity. Many of our 
challenges are not unique to the .mil domain. We fend off the same 
spectrum of adversaries, who are using the same playbooks against .govs 
and .coms. We work to plug and patch the same legacy networks. Industry 
is and will remain a critical mission partner through both technology 
development and responsible information sharing.
    We are also piloting and deploying new sensor capabilities to 
improve our ability to detect adversary activity as early as possible. 
This includes increasing the diversity of sensors on our networks, 
moving beyond strictly signature-based capabilities to behavioral 
sensing, and improving our ability to detect new and unknown malware. 
We also have the need to be able to analyze this sensor data at 
``machine speed,'' and are working with partners to investigate ways to 
utilize emerging data sciences technologies to help with the analysis 
of our networks.
    I firmly believe the future lies in automation and machine learning 
for defense. Not only does this change the dynamic of speed and scale, 
but it allows us to use our people where they are most needed.
    As my predecessor noted in her 2015 testimony, the Navy continues 
to support the spirit and intent of the Joint Information Environment 
(JIE), including the implementation of a single security architecture 
(SSA) that begins with the Joint Regional Security Stacks. The Navy and 
Marine Corps Intranet is our primary onramp into JIE, including 
incorporating JIE technical standards into the acquisition of the Navy 
Enterprise Networks as those standards are defined. In parallel, the 
Navy is setting internal technical standards for implementation of a 
Defense in Depth functional architecture across all our systems 
commands and networks, afloat and ashore--from standard desktop 
services to combat and industrial control systems. Additionally, the 
Navy is transitioning along with the rest of DOD to the Risk Management 
Framework, which is drawn from a solid basis using National Institute 
of Standards and Technology practices. Most importantly, we are 
integrating ways to better understand operational cybersecurity risk 
and defensive posture throughout an information system's life cycle. 
Operations in cyberspace are highly dynamic--we can only achieve a 
truly defensible architecture by investing in automation of the 
collection, integration, and presentation of data. This continuous 
monitoring is critical to our understanding of how consistently our 
systems are properly configured in accordance with standards. Only then 
can operational commanders make cyber maneuver decisions with 
confidence that they will deliver the intended results.
    Together, these actions will help us to truly build cybersecurity 
and resilience in at the beginning of system development and avoid the 
pitfalls associated with trying to bolt it on at the end.
    The Joint Information Environment's Joint Regional Security Stacks 
will become part of our future defense in depth capabilities. As 
described above, the Navy has already consolidated our networks behind 
defensive sensors and countermeasures. We expect that Joint Regional 
Security Stacks (JRSS) v2.0 will be the first increment connected to 
the Navy Enterprise Networks. Accordingly, the Department of Navy is 
planning to consolidate under JRSS 2.0 as part of the technical refresh 
cycle for NMCI when JRSS meets or exceeds existing Navy capabilities. 
Integrating the Navy Enterprise Network with the Joint Information 
Environment's Joint Regional Security Stacks will allow shared 
visibility into the boundary capabilities for Navy and DOD integrated 
DODIN.
    For our part, U.S. Fleet Cyber Command is operationally focused on 
continuously improving the Navy's cyber security posture by reducing 
the network intrusion attack surface, implementing and operating 
layered defense in depth capabilities, and expanding the Navy's 
cyberspace situational awareness.
Create Cyber Situational Awareness
    Just like any other domain, success in cyberspace requires 
awareness of both ourselves and our enemies: it requires that we 
constantly monitor and analyze Navy platforms within both the classic 
maritime system and global information system. To succeed, we must 
understand both side's vulnerabilities and the potential consequences 
within both systems. To that end, we work to mature our abilities to 
detect, analyze, report, and take action in and through our Networks. 
The Navy has started down the acquisition path to expand our Navy Cyber 
Situational Awareness (NCSA) capabilities with a more robust, globally 
populated and mission-tailorable cyber common operating picture (COP). 
Additionally, we are working with our SPAWAR and NAVSEA acquisition 
partners to improve the network sensor information we can collect 
across our platforms into a single dedicated big data analytics 
platform that will bring with it a new level of fidelity and agility to 
our warfighting. This data strategy will enable us to work seamlessly 
with all DOD network operations and maritime operations data. The 
SHARKCAGE platform will allow for better overall situational awareness 
and improved speed of response to the most dangerous malicious activity 
by leveraging the power of machine learning and artificial intelligence 
to harness existing knowledge more rapidly. Building cyber situational 
awareness from the maritime tactical edge back, will bring with it a 
superior Joint warfighting force that will be capable of maneuvering 
through the electromagnetic spectrum and fight resiliently in the age 
of informationalized warfare.
              u.s. fleet cyber command operational forces
Status of the Cyber Mission Force
    The Cyber Mission Force is designed to accomplish three primary 
missions: National Mission Teams will defend the nation against 
national level threats, Combat Mission Teams to support combatant 
commander priorities and missions, and Cyber Protection Teams to defend 
Department of Defense information networks and improve network 
security.
    Navy and other cyber service components are building these teams 
for U.S. Cyber Command by manning, training, and certifying them to the 
U.S. Cyber Command standards. Navy teams are organized into existing 
U.S. Fleet Cyber Command operational commands at cryptologic centers, 
fleet concentration areas, and Fort Meade, depending upon their 
specific mission. Navy is responsible for sourcing four National 
Mission Teams, eight Combat Mission Teams, and 20 Cyber Protection 
Teams as well as their supporting teams consisting of three National 
Support Teams and five Combat Support Teams.
    The Navy is currently on track to have full operational capability 
for all 40 Navy-sourced Cyber Mission Force Teams in 2018. As of 1 
April 2017, we had 26 teams at final operating capability. We are in 
the process of manning, training, and equipping our teams to be FOC 
ahead to the October 2018 deadline. Additionally, by October 1st of 
this year, 298 cyber reserve billets will augment the Cyber Force 
manning plan.
    Over the past year, we have focused on the integration of our 
Fleet's efforts, capacity and capabilities across the Navy and Joint 
force. In my role as the Joint Force Headquarters-Cyber commander 
aligned to U.S. Pacific Command this was an area where organizationally 
we have recently made progress. As a JFHQ-C Commander, I required an 
extension of my staff at PACOM to integrate cyberspace planning and 
force employment into Geographic Combatant Command operations alongside 
forces from other domains. So in February of this year, I organized my 
Cyber Mission Force teams in Hawaii to form an interim Cyber Forward 
Element as a one-stop-shop for full spectrum cyberspace operations in 
support of PACOM until permanent manning is available to support the 
Geographic Combatant Command. This Fleet Cyber Command-Forward Element 
is not a new command, but rather an extension of my staff to provide 
Offensive and Defensive Cyberspace planning to PACOM on a permanent 
basis. Our planning with PACOM must be robust enough to create cyber 
support plans that are integrated into their operational plans. This 
required a staff that is fully embedded into the supported daily battle 
rhythm processes while relying upon reach back to, and support from, my 
main staff at the Headquarters. This forward element has already 
improved relationship with PACOM in the short time they have been 
established, and it allows me to have the functionality and capacity I 
require to effectively C2 my operational Cyber Forces, which include 
three USAF CMF teams and two US Army CMF teams, as well as my Navy 
Cyber Mission Forces.
Reserve Cyber Mission Forces
    Through ongoing mission analysis of the Navy Total Force 
Integration Strategy, we developed a Reserve Cyber Mission Force 
Integration Strategy that leverages our Reserve sailors' military and 
civilian skills and expertise to maximize the Reserve Component's 
support to the full spectrum of cyber mission areas. Based on this 
mission analysis, we like other services see the maximum value from our 
Reserve element within the high-priority Defensive Cyber Operations 
area. Accordingly the 298 Reserve billets, of which the final phase 
will come into service in October, are being individually aligned to 
Active Duty Cyber Protection Teams and the Joint Force Headquarters-
Cyber. Each of these Navy-sourced teams will maximize its assigned 
Reserve sailors' particular expertise and skill sets to augment each 
team's mission capabilities, rather than as a one-for-one replacement 
of team workroles. In this way, we can ensure access to the unique 
skillsets our Reserve sailors bring to the fight, while at the same 
time building a cadre of highly trained personnel that can be called on 
for surge efforts now and in the future.
    As our Reserve Cyber billets are fully manned and these personnel 
trained over the next few years, we will continue to assess our Reserve 
Cyber Mission Force Integration Strategy and adapt as necessary to 
develop and maintain an indispensably viable and sustainable Navy 
Reserve Force contribution to the Cyber Mission Force.
Recruit and Retain
    In fiscal year 2016, the Navy met officer and enlisted cyber 
accession goals, and is on track to meet accession goals in fiscal year 
2017. Currently authorized special and incentive pays, such as the 
Enlistment Bonus, should provide adequate stimulus to continue 
achieving enlisted accession mission, but the Navy will continue to 
evaluate their effectiveness as the cyber mission grows.
    Today, Navy Cyber Mission Force (CMF) enlisted ratings (CTI, CTN, 
CTR, IS, IT) are meeting retention goals. Sailors in the most critical 
skill sets within each of these ratings are eligible for Selective 
Reenlistment Bonus (SRB). SRB contributes significantly to retaining 
our most talented sailors, but we must closely monitor its 
effectiveness as the civilian job market continues to improve and the 
demand for cyber professionals increases. Additionally, we have 
requested, and anticipate approval of Special Duty Assignment Pay 
(SDAP) for one of most critical skills sets, Interactive On-Net 
Operators (IONs). SDAP would provide a monthly stipend of $200-$500.
    Cyber-related officer communities are also meeting retention goals. 
While both Cryptologic Warfare (CW) and Information Professional (IP) 
communities experienced growth associated with increased cyber 
missions, we are retaining Officers in these communities at 93 percent 
overall. Both CW and IP are effectively-managing growth through direct 
accessions and through the lateral transfer process, thereby ensuring 
cyber-talented officers enter, and continue to serve.
    With respect to the civilian workforce, we currently have 91 
civilian positions within the Cyber Mission Force. Forty-seven of these 
positions are filling various workroles throughout the CMF and 44 are 
our Computer Scientists/Tool Developers. Currently we have 27 of the 47 
positions filled throughout CMF; are in the initial recruitment phase 
for our 44 Tool Developers and have made 13 other selections to date. 
We are aggressively hiring to our civilian authorizations consistent 
with our operational needs and fully supported by the Navy's priority 
to ensure health of the cyber workforce. We have also initiated a pilot 
internship program with a local university to recruit skilled civilian 
and military cyber workforce professionals. Navy will measure the 
success of this approach as a potential model to harness the nation's 
emerging cyber talent. Our primary challenges in recruiting are the 
current compensation allowable and competition with industry and other 
DOD entities. With this in mind, we are now offering various incentives 
to potential candidates which includes higher step (step 7) on the GS 
pay scale, 10 percent of salary as a one-time recruitment incentive, 10 
percent of salary for relocation expenses, and several years of 
assistance in student loan payback (5K per year). Even with these 
incentives, we are not competitive with industry or NSA.
    As the economy continues to improve, we expect to see more 
challenges in recruiting and retaining our cyber workforce.
Educate, Train, Maintain
    To develop officers to succeed in the increasingly complex 
cyberspace environment, the U.S. Naval Academy offers introductory 
cyber courses for all freshman and juniors to baseline knowledge. 
Additionally, USNA began a Cyber Operations major in the fall of 2013, 
and in 2016, 27 Midshipmen were the first to graduate with the degree. 
This year, 46 Midshipmen will graduate with the degree and 72 have 
entered the major. Furthermore, the Center for Cyber Security Studies 
harmonizes cyber efforts across the Naval Academy.
    Our Naval Reserve Officer Training Corps' (NROTC) program maintains 
affiliations at 51 of the 180 National Security Agency (NSA) Centers of 
Academic Excellence (CAE) at colleges around the country. Qualified and 
selected graduates can commission as Cryptologic Warfare Officers, 
Information Professional Officers, or Intelligence Officers within the 
Information Warfare Community.
    For graduate-level education, the Naval Postgraduate School offers 
several outstanding graduate degree programs that directly underpin 
cyberspace operations and greatly contribute to the development of 
officers and select enlisted personnel who have already earned a 
Bachelor's Degree. These degree programs include Electrical and 
Computer Engineering, Computer Science, Cyber Systems Operations, 
Network Operations and Technology, and Applied Mathematics, Operations 
Analysis, and Defense Analysis. Naval War College is incorporating 
cyber into its strategic and operational level war courses, at both 
intermediate and senior graduate-course levels. The College also 
integrates strategic cyber research into focused Information Operations 
(IO)/Cybersecurity courses, hosts a Center for Cyber Conflict Studies 
(C3S) to support wider cyber integration across the College, and has 
placed special emphasis on Cyber in its war gaming role, including a 
whole-of-government Cyber war game under Active consideration for this 
coming summer or fall.
    With respect to training of the Cyber Mission Force, U.S. Cyber 
Command mandates Joint Cyberspace Training & Certification Standards, 
which encompass procedures, guidelines, and qualifications for 
individual and collective training. U.S. Cyber Command with the Service 
Cyber Components has identified the advanced training required to 
fulfill specialized work-roles in the Cyber Mission Force. Most of the 
training today is delivered by U.S. Cyber Command and the National 
Security Agency in a federated but integrated approach that utilizes 
existing schoolhouses and sharing of resources. The Navy is unified in 
efforts with the other Services to build Joint Cyber training 
capability, leveraging Joint training opportunities, and driving 
towards a common standard. These training events are not only aimed at 
the individual sailors, but also provide operational team 
certifications and sustainment training. Once certified, our team 
training is maintained throughout the year via several key unit level 
exercise events which allow individuals and the collective team to 
demonstrate required skills against simulated adversaries.
Future Cyber Workforce Needs
    The Navy's operational need for a well-trained and motivated cyber 
workforce (Active, Reserve and civilian) will continue to grow in the 
coming years as we build out the balance of Cyber Mission Force.
    We will depend upon commands across the Navy to recruit, train, 
educate, retain and maintain this workforce including the Chief of 
Naval Personnel, Navy Recruiting Command, Naval Education and Training 
Command and Navy's Institutions of Higher Education (United States 
Naval Academy, Naval Postgraduate School, and Naval War College.) 
Additionally, the establishment of Naval Information Forces (NAVIFOR) 
in 2014 as a type commander has made a significant impact in generating 
readiness for cyber mission requirements. NAVIFOR works closely with 
the Man, Train, and Equip organizations across the Navy to ensure that 
U.S. Fleet Cyber Command and other Information Warfare operational 
commands achieve proper readiness to meet mission requirements. Navy is 
now enhancing the NAVIFOR capability with the establishment of the 
Naval Information Warfare Development Command (NIWDC), newly 
established in 2017, to advance the maturing of Information Warfare, 
including cyberspace operations, doctrine, training, Tactics, 
Techniques & Procedures (TT&P).
Fleet Readiness
    The Navy's 2018 budget continues to prioritize readiness alongside 
the investments necessary to sustain an advantage in advanced 
technologies and weapons systems. Ensuring the cyber resiliency of 
networks is part of maintaining the readiness of warfighting platforms.
    The budget continues funding to train and equip Cyber Mission 
Forces, provides investments in Science and Technology and information 
assurance activities to strengthen our ability to defend the network. 
To maintain our advantage in advanced technologies and weapons, funding 
is provided for engineering to improve control points and boundary 
defense across Hull, Machinery & Electrical, Navigation and Combat 
Control Systems and for Cyber Situational Awareness.
    The Navy is requesting increased investment in Defensive Cyber 
Operations forces ability to detect adversary activities and analyze 
cyber attacks against Maritime Cyber Key Terrain (CKT) and to integrate 
all-source intelligence and Navy data to assess adversary capabilities. 
The goal of the investments are to improve the Navy's capacity to 
deliver to operational commanders, cyber situational awareness at all 
layers of the IT infrastructure and provide a cyber common operational 
picture (COP) at our Fleet Maritime Operations Centers.
    Funding for training is necessary to ensure operator proficiency as 
Fleet systems are modernized and become more complex. I believe the 
Navy's ability to appropriately fund training of our operators in these 
new technologies will improve operational readiness.
Summary
    Your Navy has recognized that we have not only witnessed a changing 
and evolving cast of competitors, but the very nature of our strategic 
environment has changed. We are witnessing a return to great power 
competition. In the Chief of Naval Operations' Campaign Design for 
Maritime Superiority, he points to the rise of the global information 
system and the rate of technological creation and adoption as two of 
the dominant global forces shaping the maritime environment our Navy 
must operate, and if called upon, fight in. Cyberspace will be a 
contested environment and we cannot take freedom of maneuver for 
granted. It is clear that our reliance on our networks will not 
diminish as we push toward distributed maritime operations.
    U.S. Navy freedom of action in cyberspace is necessary for all 
missions that our nation expects us to be capable of carrying out 
including winning wars, deterring aggression and maintaining freedom of 
the seas.
    There is no individual success, at least not in the long term. We 
will succeed by leveraging our strengths and shrinking our 
vulnerabilities. Operational success will be built upon a strong 
network of partners (DOD, Interagency, Industry and Academia), a 
resilient, defensible infrastructure, and complemented by our greatest 
resource and asymmetric advantage--our people.
    Thank you again for this opportunity to update you on great work 
being done by the men and women of Fleet Cyber Command, Tenth Fleet and 
the U.S. Navy. I look forward to working closely with Members of the 
subcommittee on cybersecurity and appreciate your support of these 
cyber investments included in the Navy's 2018 budget request. I'm happy 
to take your questions.

    Senator Rounds. Thank you, sir.
    Lieutenant General Nakasone?

    STATEMENT OF LIEUTENANT GENERAL PAUL M. NAKASONE, USA, 
      COMMANDING GENERAL, UNITED STATES ARMY CYBER COMMAND

    LTG Nakasone. Chairman Rounds, Senator McCaskill, good 
afternoon. It is an honor to appear today on behalf of the men 
and women of U.S. Army Cyber Command and alongside Vice Admiral 
Lytle and my fellow service commanders.
    My testimony today will focus on five different areas: 
first of all, the Army's progress in operations; its progress 
in readiness; its progress in resourcing; its progress in 
training; and its progress in partnering.
    Three key priorities are guiding our operations.
    First, we are aggressively operating and defending our 
networks, data, and weapon systems through network hardening, 
modernization, and Active defense of Army networks.
    Second, we are delivering effects against our adversaries, 
as illustrated by Joint Task Force Aries, which is contributing 
to the success of coalition forces against ISIS [Islamic State 
of Iraq and Syria].
    Third, we are designing, building, and delivering 
integrated capabilities for the future fight, focusing on 
defensive and offensive cyberspace operations.
    Supporting readiness, the Army is building 62 total force 
cyber mission teams. The 41 Active component teams are built 
and supporting real-world operations today. The Army's Reserve 
component is building 21 cyber protection teams, 11 in the Army 
National Guard and 10 in the U.S. Army Reserve. The Army will 
integrate the Reserve component teams into our Cyber Mission 
Force.
    The Army has also made strides improving network readiness. 
As the recent ransomware/malware incident has demonstrated, 
ensuring the security of our network must remain our number one 
priority requiring constant vigilance.
    In the area of resources, the Army is implementing two 
talent management initiatives: first, a direct commissioning 
program to bring talented and experienced individuals on board 
at higher levels of responsibility and pay; secondly, a 
civilian cyber effects career program to unify multiple 
occupational specialties into one cross-disciplinary model for 
training and management.
    In regards to training, since September 2014, the Cyber 
Center of Excellence has trained 1,500 soldiers. To ensure our 
teams are trained to USCYBERCOM [U.S. Cyber Command] standards, 
we will conduct approximately 80 collector training events and 
48 internal mission rehearsals type training events during 
fiscal year 2017 to build proficiency and prepare teams for 
recertification, revalidation, and mission support operations.
    To support training, DOD designated the Army as the 
acquisition authority for a joint cyber range, which will 
provide high quality scenarios for individual and team and 
collective and mission rehearsal training for the joint cyber 
force.
    Finally, partnerships are integral to our efforts. Army 
Cyber Command leverages the private sector and academic 
partnerships under various DOD umbrella programs to collaborate 
across the cybersecurity community.
    Chairman Rounds, Ranking Member Nelson, Senators Fischer 
and McCaskill, thank you very much today. Your Army teams are 
actively protecting and defending Army and DOD networks, 
securing Army weapons platforms, protecting critical 
infrastructure, and conducting operations against global cyber 
threats. With the continued support of Congress, the Army will 
maintain its tremendous momentum building a more capable, 
modern, ready force that is prepared to meet any adversary in 
cyberspace today and tomorrow. Thank you.
    [The prepared statement of General Nakasone follows:]

               Prepared Statement by LTG Paul M. Nakasone
                              introduction
    Chairman Rounds, Ranking Member Nelson, and Members of the 
Subcommittee, thank you for your continued support of U.S. Army Cyber 
Command (ARCYBER) and our efforts to operationalize cyberspace for our 
Army. It is an honor to address this subcommittee on behalf of the 
dedicated soldiers and Army Civilians of ARCYBER who work every day 
defending the Nation in cyberspace. This testimony focuses on ARCYBER's 
ongoing progress in the areas of Operations, Readiness, Resources, 
Training, and Partnering,
    The Army Cyber Enterprise has made significant progress 
operationalizing cyberspace since my predecessor's testimony before the 
Subcommittee on Emerging Threats and Capabilities in April 2015. Since 
then, Army Cyber Command has completed the initial build of the Army's 
Cyber Mission Force (CMF). All 41 Active Component Army teams are at 
Initial Operational Capability or better and all are on track to be at 
Full Operational Capability by the end of September 2017, a year ahead 
of U.S. Cyber Command's (USCYBERCOM's) mandated timeline. The Army is 
now building an additional 21 Reserve Component (RC) Cyber Protections 
Teams (CPTs), trained to the same Joint standards as the Active 
Component teams, which will be integrated into the Army's Total Cyber 
Mission Force.
    Additionally, the Cyber Center of Excellence (Cyber CoE) graduated 
its first class of Cyber Branch Lieutenants in May 2016; its first 
class of Cyber Warrant Officers in March 2017; and began training its 
first class of new cyber enlisted recruits also in March 2017. The 
Cyber CoE trained a total of 582 Cyber Branch Soldiers during fiscal 
year (FY) 2016 and is scheduled to train another 1,200 soldiers during 
fiscal year 2017. The Army cyber force now includes 2,331 soldiers with 
career fields that include Cyberspace and Electronic Warfare 
operations. (557 Officers, 305 Warrant Officers, and 1,469 Enlisted). 
Furthermore, the Cyber Center of Excellence recently published Field 
Manual (FM) 3-12, Cyberspace and Electronic Warfare Operations, which 
provides overarching doctrinal guidance and direction to the Army for 
conducting cyberspace and electronic warfare (EW) operations in unified 
land operations. Army Cyber Command is continuing its Cyber 
Electromagnetic Activity (CEMA) Support to Corps and Below pilot 
program and is now working with our Army partners to determine enduring 
support requirements at the combat training centers and ultimately, 
cyber force structure and requirements at the tactical level within the 
Army.
    The Army also recently made several important organizational 
changes to the Army Cyber Enterprise to improve our ability to conduct 
cyberspace operations and support Joint and Army commanders. First, the 
Army elevated ARCYBER to an Army Service Component Command (ASCC) 
ensuring ARCYBER receives the same level of resourcing as other ASCCs 
supporting combatant commanders. Second, the Army reassigned the 
Network Enterprise Technology Command to ARCYBER to better align 
responsibilities and authorities to support USCYBERCOM and Army 
requirements and to better align roles and responsibilities for the 
Army's portion of Department of Defense Information Network (DODIN). 
Third, the Army established an Army Cyber Directorate within the 
Headquarters Department of the Army (DAMO-CY), to advocate and 
coordinate cyberspace doctrine, policy, organization, and resourcing 
issues within the Pentagon. The DAMO-CY Directorate joins the Army's 
Cyberspace Tetrad that includes the Army Cyber Institute, the Cyber 
Center of Excellence, and ARCYBER. Finally, the Army broke ground for 
the new Army Cyber Headquarters Complex at Fort Gordon, Georgia in 
November 2016, and has committed to future investments in new Cyber 
Center of Excellence facilities in which to train our soldiers.
    Army Cyber Command is building on the Army's past progress while 
focusing on three key priorities: Aggressively Operating and Defending 
Our Networks, Data, and Weapons Systems; Delivering Effects Against Our 
Adversaries; and Designing, Building and Delivering Integrated 
Capabilities for the Future Fight. Today, Army cyberspace forces, 
including Reserve Component forces, are improving the Army's 
cybersecurity posture; protecting and defending Army and DOD networks, 
systems, and critical infrastructure; supporting Joint and Army 
commanders; and engaging our adversaries in cyberspace every day.
    While ARCYBER has made significant advances building the Army's 
cyberspace capacity and capabilities over the past six years, our 
progress will be overshadowed by the inability to maintain overmatch 
against near-peer competitors due to a lack of sustained, long-term, 
and predictable funding. As evidenced by the recent threat of a year-
long continuing resolution, the Army would have been forced to stop 
funding for Army National Guard Cyber Protection Teams. This would have 
slowed the Army's ability to fulfill the congressional mandate to 
integrate Army Reserve Component Cyber Protection Teams into the Cyber 
Mission Force. The Continuing Resolution delayed the fielding of the 
Joint Persistent Cyber Training Environment leading to greater costs 
and delays in building DOD cyber capability and capacity. Further, a 
major impediment to improving Army cybersecurity through network 
modernization has been a lack of predictable funding. The Army needs an 
end to the year-after-year continuing resolutions and relief from the 
Budget Control Act of 2011 to help restore readiness levels and build 
force capacity and capabilities to counter emerging threats, including 
those in cyberspace.
Operations
    Cyberspace operations encompass three interrelated areas: 
Department of Defense Information Network (DODIN) operations, Defensive 
Cyberspace Operations (DCO), and Offensive Cyberspace Operations (OCO). 
Army DODIN operations are the most complex, most important mission 
ARCYBER conducts. They include building, operating, defending, and 
maintaining the Army's portion of the DODIN. Our five Regional Cyber 
Centers conduct DODIN operations around-the-clock, serving as the 
Army's Cybersecurity Service Providers (CSSP). The Army continues to 
work with U.S. Strategic Command and the Joint Chiefs of Staff to 
realign our DODIN force structure in accordance with the 2017 NDAA and 
to gain better command and control over the global cyber theater.
    To support DODIN operations and improve cybersecurity, the Army is 
building a more reliable, secure and ready network through system 
hardening and modernization. A new effort between ARCYBER and the 
Army's Chief Information Officer/G6 (CIO/G-6), called the ``DODIN 
Initiatives'' is key to our system hardening efforts. This initiative 
focuses on information sharing to include tracking progress, 
identifying gaps and issues with policies or resources to unify the way 
ahead for the Army.
    The greatest challenge and most critical aspect of a ready, secure, 
and available network is a modern and resilient infrastructure. In the 
Army we refer to our efforts to achieve this as Network Modernization 
(NETMOD). The Army's NETMOD efforts include: Joint Regional Security 
Stack (JRSS) migration, Multiprotocol Label Switching upgrades, and 
Installation Campus Area Network upgrades. The Army is partnering with 
the U.S. Air Force and the Defense Information Systems Agency (DISA) in 
deploying JRSS to centralize the Army's existing perimeter security 
infrastructure. The Army has completed the upgrade of 22 of its 
installation's network infrastructure and migrated them to the JRSS. 
The Army continues to upgrade its installation's network infrastructure 
and migrate within the JRSS. The current plan is a phased approach 
upgrading installations within CONUS, Southwest Asia and European 
Theater, followed by the Pacific Theater, to include Korea and Alaska, 
with main installations being complete by fourth quarter fiscal year 
2019. At the next layer of Network Modernization, DISA has completed 
upgrading the Army's fiber optics and Multiprotocol Label Switching 
circuits of 18 installations and is focused on completing seven more 
sites this year. These initiatives, in combination with the increased 
capabilities of our operational force, will enable stronger cyber 
protection, detection, and response to cyber threats across the DODIN.
    In order to take advantage of these DOD network improvements at the 
Army Base/Post/Camp/Station level, we must modernize our own 
infrastructure through Installation Campus Area Network upgrades. This 
is an enduring effort to stay current with technological advances. A 
top DOD and Army priority, aimed at hardening our endpoints and 
infrastructure, is the implementation of assuring appropriate upgrades 
to our operating system and applications. The DOD-managed common secure 
host baseline will allow the Army to strengthen our cybersecurity 
posture while concurrently streamlining the IT operating environment. 
Additional end-point efforts include one focused on security and one on 
management. All these efforts combined enable us to provide the Army 
with a ready, secure, and available network that supports Mission 
Command and supports the projection of combat power. While the Army's 
investment in network hardening and modernization has paid dividends, 
ARCYBER would benefit from predictable funding for DODIN operations. A 
lack of predictable funding is the major impediment to improving Army 
cybersecurity through network hardening and modernization.
    In addition to building a more defendable network, ARCYBER conducts 
both passive and Active Defensive Cyberspace Operations to protect and 
defend the Army portion of the DODIN. Defensive Cyberspace operations 
are mission focused, prioritized on critical assets, and threat 
specific. Our Cyber Protection Brigade, (CPB) and its Cyber Protection 
Teams, conduct critical Active defense of the DODIN. The CPB's ability 
to conduct Active recon for advanced persistent threats distinguishes 
them from the functions of a CSSP that is dedicated to protecting our 
network against known threats. Our CPTs are a maneuver element in 
cyberspace that reinforce the protection mission of a CSSP based on 
analysis of the mission relevant cyber terrain and threats provided by 
national intelligence and our own internally-collected cyber 
intelligence. The CPB also helps protect and defend the Army's critical 
infrastructure and support both national requirements and Joint and 
Army commanders around the globe. The Brigade includes 900 soldiers and 
Civilians who make up 20 Active Component Cyber Protection Teams.
    Importantly, our Cyber Protection Brigade supports Army Mission 
Assurance, providing Critical Infrastructure Risk Management 
assessments to identify potential vulnerabilities and threats. The CPB 
works with Department of the Army, Army Material Command, U.S. Army 
Corps of Engineers (USACE), and other stakeholders in an Army-wide 
approach to ensuring the cybersecurity of critical Army systems and 
infrastructure, including the Nation-wide systems of dams and 
hydroelectric plants USACE manages. Our CPTs deploy worldwide 
(including austere environments) with mobile capabilities within hours 
of notification, employing platforms and tools across the breadth and 
depth of our network. Our teams also provide ``reach-back'' support to 
deployed forces that allows us to put the right person on the right 
task at the right time.
    The pace of operations and dynamic nature of the threats means our 
cyberspace forces engage with our adversaries in cyberspace as they are 
being built, usually before they achieve full operational capability. 
Both defensive and offensive Army cyber forces are rapidly maturing and 
building credibility with our combatant commanders in warfighting 
operations every day; continually learning and innovating their 
tactics, techniques, and procedures against determined, adaptive and 
aggressive adversaries.
    Our Army Cyber Mission Forces execute Offensive Cyberspace 
Operations, to project power by the application of force in or through 
cyberspace, under the authorities of combatant commanders and 
USCYBERCOM. Established by USCYBERCOM in June 2016 and commanded by the 
ARCYBER Commander, JTF-ARES is a Joint cyber operational headquarters 
providing cyber capabilities in support of US Central Command's 
counter-ISIS operations. The Task Force has brought cyber out of the 
shadows and successfully demonstrated the value and capabilities of 
cyberspace operations to the Joint Force when integrated as part of 
broader coordinated military effort.
Readiness
    Readiness is the Army's overriding priority. To support readiness, 
the Army is building 62 Total Force CMF teams, all trained to the same 
joint standards, to support Joint and Army commanders. The 41 Active 
Component (AC) teams are built and conducting cyberspace operations 
supporting real world operations today. They are also defending DOD 
networks, protecting Army weapons systems, and defending critical 
infrastructure. Currently, 33 of the Army's 41 AC teams are at full 
operational capability, while eight teams remain at initial operating 
capability. By 30 September 2017, all 41 teams will be fully 
operational. With the completion of the CMF build, the Army is now 
progressing from building its cyber force to measuring the readiness of 
this force. Army Cyber Command is working with USCYBERCOM to implement 
metrics to measure CMF readiness through the Defense Readiness 
Reporting System.
                reserve component cyber protection teams
    The Army's Reserve Component (RC), comprised of the Army National 
Guard (ARNG) and U.S. Army Reserve (USAR), is critical to Army 
readiness. The RC is building 21 Cyber Protection Teams (11 ARNG, 10 
USAR) creating a Total Force solution, all trained to the same Joint 
standards as the Active Component. As required under section 1651 of 
the National Defense Authorization Act of fiscal year 2017, the Army is 
implementing a Total Army RC cyber strategy to integrate the 21 RC CPTs 
into the Army's Cyber Mission Force to support Joint and Army 
cyberspace requirements.
                           network readiness
    Network readiness is a component of Army readiness. Today the Army 
and the Joint Force depend on unimpeded access to the DODIN for 
everything from business operations to missile defense. The network is 
now not only a critical enabler, but also an operational capability for 
cyberspace operations, vital to our operational readiness, and 
therefore important to measure. The Army currently measures network 
compliance with policy, regulation, and law through the Cybersecurity 
Scorecard, Command Cyber Readiness Inspections, and Command Cyber 
Operational Readiness Inspections.
    Army Cyber Command partnered with JFHQ-DODIN to execute the next 
evolution of Cybersecurity inspections under the Command Cybersecurity 
Operational Readiness Inspection (CCORI), to replace the Command Cyber 
Readiness Inspection. The CCORI moves cybersecurity inspections from a 
compliance-based systems inspection to a risk-based Operational 
Commander's Mission focused inspection. The CCORI highlights the risks 
to operational missions within a Command by employing Active external 
and internal threat actors against a commander's mission critical 
systems. The CCORI outcome provides an operational risk measurement to 
mission by mission critical task and a system to assist commanders in 
prioritizing cybersecurity resources.
    The DOD Cybersecurity Scorecard has brought basic cybersecurity 
hygiene to the forefront at the DOD level and has forced the Army to 
prioritize basic cybersecurity requirements. The Army has made strides 
towards remediating identified critical vulnerabilities across the 
enterprise and capturing the effectiveness of remediation efforts. The 
Army continues to work with DOD CIO to refine the Scorecard metrics to 
move from cybersecurity compliance to risk-based scorecard measurements 
to provide a mission assurance focus.
Training
    Army Cyber Mission Force training has three key components: 
individual, collective, and mission rehearsal. Individual training is 
focused on formal training, work role specific training, and job-
specific qualification and certification training conducted at the work 
center. Individual training focuses on building individual core 
competencies, proficiencies, skills and knowledge necessary to 
accomplish assigned tasks.
    During collective training, team members train in realistic 
environments and to relevant threats. Army CMF teams will conduct 
approximately 80 collective training events, throughout fiscal year 
2017 to ensure they are fully trained to USCYBERCOM joint standards. 
Live, virtual, and constructive scenarios are used to ensure that 
training is holistic, repeatable, and measureable. Collective training 
is used to increase team proficiency, certify teams for operations, and 
allow leaders to build trust and confidence within their teams. 
Participation in USCYBERCOM exercises, CYBER GUARD and CYBER FLAG, 
helps achieve certification or revalidation.
    Mission rehearsal training events are conducted to ensure that 
leaders understand their missions, the threats and risks they will 
face, and are prepared for contingencies. Army CMF teams are scheduled 
to conduct 48 internal mission rehearsal type training events during 
fiscal year 17 in order to build team proficiency, preparation for 
recertification/revalidation and mission preparations to support 
operations. These events occur at home station, training centers, and 
in deployed areas. Army Cyber Command teams also participate with 
Joint, interagency and coalition partners through Combatant Command 
training exercises for operational mission sets.
    The Cyber Center of Excellence (CCoE) located at Fort Gordon, 
Georgia, operates the Army's Cyber School and trains Army Cyber Branch 
Soldiers and members of the other Services. All three cohorts, officer, 
warrant officer and enlisted, conclude their training by participating 
in Joint exercises ensuring they are well prepared to support Army 
units at all levels.
    The CCoE is explicitly charged with incorporating Joint standards 
into the curriculum. The Joint Cyber Training and Certification 
Standards set work roles and training to a single joint standard 
applied across multiple Services building like teams. It unites the 
Services' efforts to train and certify their respective CMFs to perform 
in a joint environment. The CCoE focuses on individual training and has 
begun training key USCYBERCOM J7 pipeline courses including Cyber 
Common Technical Core (equivalent to Intermediate Cyber Core), CPT Core 
Methodologies, Cyber Operations Planner Course, and the Joint Advanced 
Cyber Warfare Course. Since the Army established the Army Cyber Branch, 
Career Field 17 in September 2014, the CCoE has trained 1,500 Cyber 
Branch Soldiers. Fiscal year 2018 will see more soldiers trained in the 
Army 17-series pipeline, and soldiers will continue to attend Military 
Occupation Specialty qualification courses. Graduates of these courses 
will provide a steady stream of trained 17-series soldiers, thus 
decreasing the individual training burden on units and improving force 
readiness.
    Establishing a Persistent Cyber Training Environment (PCTE) is 
central to training the Joint Cyber Mission Force and maintaining high 
levels of proficiency. In support of section 1645 of the fiscal year 16 
National Defense Authorization Act, DOD designated the Army as the 
acquisition authority for the PCTE. The PCTE will provide high quality 
scenarios and event management for individual, team/collective, and 
mission rehearsal training for all four Services and USCYBERCOM. At 
maturity, we envision the DOD Joint PCTE platform as a constellation of 
federated, interoperable common training capabilities--enabling 
training from individual competencies at the team, unit, group and 
force training levels; including exercises, tactics, techniques, and 
procedures development, up to mission rehearsal.
                    cema support to corps and below
    In 2015 the Army initiated a Cyber Electromagnetic Activities 
(CEMA) Support to Corps and Below (CSCB) pilot program. The CSCB effort 
serves four primary purposes: Define what offensive and defensive cyber 
effects to integrate at the echelon Corps and below; Determine 
expeditionary Defensive Cyberspace Operations, Offensive Cyberspace 
Operations, Electronic Warfare, and Information Operations capability 
for deployed tactical forces; Leverage Combat Training Centers (CTCs) 
and operational deployments to inform CEMA Doctrine, Organization, 
Training, Materiel, Leadership and Education, Personnel, and Facilities 
development (DOTMLPF); and Determine the enduring CEMA environment at 
CTCs.
    Army Cyber Command recently completed its sixth iteration of the 
CSCB pilot and will conduct another one in June 2017. Lessons learned 
from the pilot program are helping to inform CEMA requirements across 
the Army's DOTMLPF and Policy development. Army Cyber Command is now 
working with DAMO-CY to determine enduring support requirements at the 
CTCs that would routinely embed cyber teams in combat brigades during 
their CTC rotations to continue providing realistic training for our 
cyber operators, Army units, and commanders.
    The Cyber Center of Excellence published the Army's first 
Cyberspace and Electronic Warfare doctrine in April 2017, FM 3-12, 
Cyberspace and Electronic Warfare Operations. Army FM 3-12 is nested in 
joint cyberspace and EW doctrine and provides the doctrinal context to 
understand the fundamentals of integrating and synchronizing cyberspace 
and EW operations. Through the planning and synchronization of 
cyberspace and EW operations, Army cyberspace forces integrate CEMA 
functions and capabilities across warfighting functions, defend the 
network, and provide critical capabilities for commanders at all levels 
during unified land operations.
Resources
    People are the most important resource in cyberspace. To ensure we 
will prevail over all adversaries in the cyber domain, the Army is 
committed to executing a vigorous cyber talent management program built 
on four talent management pillars: recruit, develop, employ, and retain 
talent. The Army achieved a major milestone in cyber talent management 
in 2014 when it became the first service to launch a dedicated career 
field (Career Field 17) to centrally manage soldiers throughout a 
career in cyberspace operations. This allows the Army to recruit, 
develop, employ and retain soldiers specific to cyber skills and 
operations.
    To ensure we continue to maintain high levels of end strength in 
the cyberspace force, the Army is now implementing several key talent 
management initiatives to improve recruitment, training, and retention 
across all components and all soldier and employee cohorts. First, the 
Army is developing a direct commissioning program to find highly 
talented individuals with industry experience and laterally enter them 
into the force. Second, the Army has initiated a Civilian Cyber-effects 
Career program. Additionally, ARCYBER is offering opportunities to many 
members of our force, including the chance to train with industry and 
opportunities for academic degrees through our Advanced Civil Schooling 
program. Finally, we are partnering with the U.S. Digital Service and 
the Defense Digital Service to help us look internally at our processes 
and provide an outside perspective from a group of technical experts.
    The Army direct commissioning program, authorized under section 509 
of the National Defense Authorization Act for Fiscal Year 2017, will 
bring in talented individuals with highly technical skills at ranks of 
increased pay and responsibility. The Army hopes to attract individuals 
with skills that include computer programming, mathematics, network 
operations, cryptology, data science, or nanotechnology. Beyond 
technical knowledge, we're looking for people with aptitude, 
dedication, and desire for mission- and team-oriented problem solving.
    The Army recently approved the new Civilian Cyberspace-effects 
Career Program which will unify all Cyberspace Effects civilian 
employees into a single cross-disciplinary model for training and 
management of multiple Occupational Specialties This new career program 
will align Army Civilians performing Cyberspace Effects with their 
soldier counterparts in Cyber (17 series). The Cyberspace Effects work 
role qualifications will be governed by USCYBERCOM Joint training 
requirements. The Department of Defense is also finalizing work on a 
new title 10 excepted service civilian cyber program similar to the 
civilian intelligence career program.
                   integration of electronic warfare
    To better manage its Electronic Warfare Soldiers, in 2014, the Army 
approved the integration of cyber effects and electromagnetic spectrum 
operations into the Army's new Cyber Branch. The Army Cyber Center of 
Excellence is developing a phased approach to convert soldiers in the 
Army Electronic Warfare Military Occupational Specialty, Functional 
Area 29, into the Cyber Branch beginning in fiscal year 2018. 
Concurrently, the Army is analyzing and developing an integrated 
Electronic Warfare, Cyber, and Signals Intelligence capability that 
will be capable of sensing and disrupting adversary systems that 
operate within the electromagnetic spectrum while providing Electronic 
Protection to Army systems.
                           equipping the cmf
    Army Cyber Command is focused on equipping the Cyber Mission force 
with integrated capabilities and organic development environments. To 
ensure that our capabilities are dynamic and evolving to counter future 
threats we are focusing on two mission areas of development: Defensive 
Cyberspace Operations and Offensive Cyberspace Operations. These two 
areas include the development of a scalable Big Data platform, building 
advanced cyber analytics, development operations support for payload 
development, malware analysis, threat detection, and infrastructure.
    The Army has also invested in developing home station and 
deployable platforms that will provide our Defensive Cyber Operations 
CPTs with systems to support the defensive force with tools to prevent, 
mitigate, and recover systems at risk from cyber threats at near real-
time speed. We are sprinting to build and institute a complete OCO 
architecture purpose built to enable operational agility, reduce 
training complexity, and maximize our ability to present multiple 
dilemmas to our adversaries. This effort includes the integrated build 
of a tool developer environment, operational infrastructures and 
foundational tools that support current and future mission requirements 
for the Army's Total Cyber Mission Force.
                      road to fort gordon, georgia
    Army Cyber Command Headquarters is currently split-based at Fort 
Belvoir, Virginia, Fort Meade, Maryland, and Fort Gordon, Georgia, in 
overcrowded and inadequate facilities. The Army has begun building a 
$180 million, state-of-the-art Army Cyber Headquarters Complex 
alongside National Security Agency-Georgia at Fort Gordon, Georgia. 
Occupation of the new facility is planned to begin in 2020 with the 
full transition of ARCYBER Headquarters to Fort Gordon expected no 
later than 2022. The colocation of these operational forces with the 
Cyber Center of Excellence at Fort Gordon, will create significant 
synergy, allowing for the immediate incorporation of lessons learned 
and operational knowledge into our training curriculum.
Partnering
    Partnerships are crucial to staying ahead of our adversaries in 
cyberspace. The Army Cyber Enterprise partners with industry, academia, 
the intelligence community, and our interagency partners to share 
information and find solutions to cybersecurity challenges. The Army is 
also adapting its acquisitions systems and reaching out to smaller 
``non-traditional'' companies on the cutting edge of technology to keep 
pace with cyber threats.
    To better leverage private sector and academic partnerships the 
Army has undertaken initiatives under DOD umbrella programs such as 
Defense Innovation Unit Experimental, or DIUX, the Defense Digital 
Service, and ``Hacking 4 Defense'' efforts to further reach-out and 
collaborate with non-traditional partners. Through DIUX, Active and 
Reserve soldiers collaborate with private industry in Silicon Valley to 
quickly leverage commercial innovations into acquisition solutions.
    During November-December 2016, working with a private sector 
partner, the Army launched the ``Hack the Army'' initiative, to 
crowdsource cyber vulnerabilities of selected Army websites and 
databases. The Army paid a modest ``bug bounty'' to selected ethical 
hackers which helped the Army discover dozens of vulnerabilities. Army 
Cyber Command subsequently shared these vulnerabilities with the 
Intelligence Community.
    To help foster innovation and partnerships between the Army Cyber 
Enterprise and the greater cybersecurity community, the Army Cyber 
Institute (ACI) at West Point serves as the Army's bridge to academia, 
government, and the private sector. The ACI facilitates state, local, 
public, and private partnerships in the cyber domain across the United 
States and Internationally. The ACI creates relationships that build 
capacity within major metropolitan centers and through exercises 
designed to integrate all levels of national cyber response. For 
example, in October 2016, ACI partnered with the NATO Cooperative Cyber 
Defence Centre of Excellence to develop a robust international 
conference on cyber conflict that will be repeated in November 2017.
    In all partnering activities, the Army Cyber Enterprise is 
preparing for a future that includes machine learning, intelligent 
systems, virtual/augmented reality, and Big Data; in conjunction with 
ubiquitous computing, autonomous, and semi-autonomous robotic systems. 
The Army's partnering activities help prepare forces that bridge the 
military-civilian and peacetime-wartime boundaries needed to deal with 
the gray space nature of cyber conflict.
                               conclusion
    The Army has made significant progress operationalizing cyberspace 
since it established Army Cyber Command a little more than six and a 
half years ago. The Army now has 41 Cyber Mission Force teams and is 
building an additional 21 RC teams. The Army also has a Cyber Branch to 
support Cyber Soldiers throughout their careers and will soon have a 
Civilian Cyberspace Effects Career Program, tailored to our unique 
mission. The CyberCoE is training Cyber Soldiers and preparing to 
integrate the Electronic Warfare force into the cyber career field. We 
have broken ground on the Army Cyber Headquarters Complex on Fort 
Gordon, Georgia which will transform the Fort Gordon region into a 
cyberspace hub for the Army and the Nation. The Army has also 
implemented important organizational changes to the Army Cyber 
Enterprise that enhance our ability to conduct cyberspace operations 
and support Combatant and Army commanders. These accomplishments have 
happened because the Army, with the support of Congress, has made 
protecting and defending the Nation in cyberspace a priority.
    Our investments in the soldiers and civilians who carry out our 
critical mission are paying off. Today our teams are actively 
protecting and defending Army and DOD networks; securing Army weapons 
platforms; protecting critical infrastructure; and conducting 
operations against global cyber threats. These teams are delivering 
effects against our adversaries, giving our ground commanders and the 
Joint force the competitive advantage they need to win. With the 
continued support of Congress, the Army will maintain its tremendous 
momentum in cyberspace, building a more capable, modern, ready force 
that is prepared to meet any adversary in cyberspace, today and 
tomorrow.

    Senator Rounds. Thank you, General.
    Major General Weggeman?

   STATEMENT OF MAJOR GENERAL CHRISTOPHER P. WEGGEMAN, USAF, 
 COMMANDER, TWENTY-FOURTH AIR FORCE AND COMMANDER, AIR FORCES 
                             CYBER

    Maj. Gen. Weggeman. Chairman Rounds, Ranking Member Nelson, 
and distinguished Members of the subcommittee, thank you again 
on behalf of the men and women and the audacious men and women 
of 24th Air Force and Air Forces Cyber for the opportunity to 
appear before you today, alongside all my esteemed cyber 
colleagues. I look forward to discussing the Air Force's 
progress in advancing full-spectrum cyberspace operations and 
our contributions to joint operations globally.
    Our headquarters is located at Joint Base San Antonio-
Lackland, Texas, and we have airmen on mission around the 
world. Our warriors are operating globally as a maneuver and 
effects force in a contested domain delivering cyberspace 
superiority for our service and our joint partners.
    Our forces exist to preserve our freedom of maneuver in, 
through, and from cyberspace while denying our adversaries the 
same. Our command places significant emphasis on 
operationalizing cyberspace as a warfighting domain across the 
range of military operations and continues to evolve our 
tradecraft to provide ready cyber forces to combatant and Air 
Force commanders across the globe.
    Defense is our number one mission. We build, operate, 
secure, and defend the Air Force networks every day to ensure 
these networks remain secure and available in total providing 
on-demand capabilities to approximately one million users 
worldwide.
    In collaboration with our service staff and our major 
commands, we developed and have begun implementation of three 
transformational efforts transitioning our cyber workforce 
posture towards a 21st century commander and cyberspace 
operator-driven cyber ecosystem centered on mission assurance.
    The totality of these major Air Force efforts, plus our 
ongoing cybersecurity campaign plan, provides the Air Force 
with a full-spectrum framework for generating threat and risk-
based mission assurance across the totality of our cyber 
terrain.
    The Air Force is on track to achieve full operational 
capability for all service Cyber Mission Force teams by the end 
of fiscal year 2018. As of 1 May 2017, we have all teams at IOC 
[Initial Operating Capability] and over 50 percent at full 
operational capability.
    While we remain laser-focused on building and delivering 
our service teams to FOC, we have begun in earnest, along with 
all the other service components, to focus on team readiness, 
leveraging the Department of Defense's established 
institutional readiness program and standards.
    Our forces also support assigned combatant or joint force 
commanders by providing full-spectrum, all-domain-integrated 
cyberspace maneuver and effects in support of their assigned 
missions around the globe.
    We train and fight as one team or one force, as we like to 
say, with all components: regular Air Force, Air National 
Guard, and Air Force Reserve. We are delivering cyber forces 
fully integrated with our total force partners in the Air 
National Guard and Air Force Reserve. The Air Force total force 
contribution to the cyber mission is comprehensive and 
impressive.
    As a new and rapidly maturing warfighting domain, 
cyberspace operations continues to make huge advancements in 
the operationalization of missions and forces. However, there 
are challenges in our critical path. At the macro level, these 
challenges fall into four broad categories: manpower and 
training, cybersecurity of weapons systems, key enablers to 
cyberspace operations, and professionalization of our 
workforce.
    I am proud of the tremendous strides made to operationalize 
cyber capabilities in support of joint warfighters in defense 
of the Nation. Despite the challenges of maturing and operating 
in stride across the contested and diverse mission set, it is 
clear Air Force networks are better defended, combatant 
commanders are receiving more of the critical cyber effects 
they require, and our Department's critical infrastructure is 
more secure due to our cyber warriors' tireless efforts. They 
truly are professionals in every sense of the word.
    Congressional support was essential to the substantial 
operational progress made and will only increase in importance 
as we move forward. I am very glad to see the formation of this 
subcommittee to help us along the way. Resource stability and a 
formal national cyberspace strategy to guide force planning, 
resources, and prioritization of effort within DOD in the years 
ahead best enables our continued success in developing airmen 
and maturing our capabilities to operate in, through, and from 
the cyberspace domain.
    I am honored and humbled to command this magnanimous 
organization, and I look forward to your questions. Thank you.
    [The prepared statement of Major General Weggeman follows:]

         Prepared Statement by Major General Chris P. Weggeman
                              introduction
    Chairman Rounds, Ranking Member Nelson, and distinguished Members 
of the Subcommittee, thank you for the opportunity to appear before you 
today, along with Vice Admiral Marshall Lytle from the Joint Staff and 
my fellow Service Cyber Component Commanders. I look forward to 
discussing the Air Force's progress in advancing full-spectrum 
cyberspace operations and our contributions to joint operations 
globally. I have the distinct honor to lead a triple-hatted 
organization; 24th Air Force, Air Forces Cyber (AFCYBER), and Joint 
Forces Headquarters (JFHQ)--Cyber AFCYBER. These three-hats encompass 
service, component, and functional roles, responsibilities, and 
authorities which I will expand upon shortly. Our headquarters is 
located at Joint Base San Antonio-Lackland, Texas and we have airmen 
and civilians on-mission around the world, diligently increasing our 
capability to deliver full spectrum cyber effects in support of our 
joint warfighters.
    AFCYBER warriors are operating globally as a maneuver and effects 
force in a contested domain, delivering cyber superiority for our 
Service and our joint partners. Our forces exist to preserve our 
freedom of maneuver in, through, and from cyberspace while denying our 
adversaries the same. Our Command places significant emphasis on 
operationalizing cyberspace as a warfighting domain across the range of 
military operations and continues to evolve our tradecraft to provide 
ready cyber forces to combatant and Air Force commanders across the 
globe.
    As Commander, 24th Air Force, I report directly to the Commander of 
Air Force Space Command and am responsible within the Air Force for 
classic title 10 organize, train, and equip functions. 24th Air Force 
also serves as the Cyber Security Service Provider (CSSP) for our Air 
Force networks and other designated key cyber terrain. Under the 
AFCYBER hat, I am the Air Force's Cyber Component Commander who 
presents and employs Air Force cyber forces to United States Strategic 
Command, delegated to United States Cyber Command. These ready forces 
plan and execute full-spectrum cyberspace operations across the Air 
Force portions of the DOD Information Network (DODIN), and other cyber 
key-terrain as directed. Finally, under my third hat, as Commander, 
Joint Forces Headquarters (JFHQ)--Cyber AFCYBER, I lead a United States 
Cyber Command subordinate headquarters with delegated Operational 
Control of assigned cyber combat mission forces employed in a general 
support role to both United States Strategic Command and United States 
European Command. We execute assigned cyberspace operations missions 
through six distinct but inter-related lines of effort--Build, Operate, 
Secure, Defend, Extend, and Engage, or what we refer to as ``BOSDEE''.
                       defense is our #1 mission
    In our 24th Air Force and AFCYBER roles, we build, operate, secure, 
and defend the Air Force networks every day to ensure these networks 
remain available and secure for assigned missions, functions, and 
tasks. The broader mission includes base infrastructure, business, and 
logistics systems, as well as mission and weapon systems; in total, 
providing on-demand capabilities to approximately one million users 
worldwide. The Air Force CIO designated 24th Air Force as the CSSP for 
all systems within the Air Force enterprise. In this capacity we are 
responsible for protecting, monitoring, analyzing, detecting, and 
responding to malicious cyber activity across the Air Force network. We 
are working with our Service Staff and Air Force Space Command, to 
determine resource and manpower requirements to execute this expansive 
mission-set. Earlier this year, we partnered with the United States 
Army Research Lab to contract and provide a fee-for-service cyber 
security framework for system cybersecurity similar to what they are 
providing the United States Army. This partnership and approach aligns 
the Air Force CIO delegated cybersecurity responsibilities with our 
AFCYBER defensive mission forces and capabilities, generating coherent 
mission coordination and integration across the enterprise.
             cyber security and defense in the 21st century
    The 24th Air Force, in collaboration with our Service staff and 
Major Commands, developed and began implementation of three 
transformational efforts which transition our force and Information 
Technology posture towards a 21st century, commander and cyberspace 
operator driven, threat and risk-based mission assurance cyber 
ecosystem. These three major efforts include; 1) evolving towards the 
Air Force Information Dominance Platform (AFIDP), 2) maturing and 
resourcing our Air Force CIO Cyber Squadron Initiative and inherent 
Mission Defense Teams, and finally 3) the development and fielding of 
Air Force Material Command's Cyber Resiliency of Weapons Systems 
(CROWS) Office capabilities. This last initiative was developed to 
address last year's NDAA section 1647 weapon system cyber security 
mandate. These three major endeavors, deliver a coherent approach to 
cyber security, cyber defense, weapon system resiliency, and the ever 
critical ``every airmen a sentry'' cyber hygiene culture across our Air 
Force.
    The AFIDP is a network reference architecture designed to smartly 
divest the costly and manpower intensive network operations, 
maintenance, and customer-service support demands of our Service's 
dated, Information Technology infrastructure via outsourcing to 
commercial and industry partners. This strategy allows us to improve 
our network while repurposing portions of our legacy Information 
Technology workforce to deliver essential services, data security, and 
cyber-based mission assurance. The AFIDP moves the Air Force towards a 
risk-managed, Network and/or Infrastructure as a Service model (NaaS/
IaaS). AFIDP, with Cloud Hosted Enterprise Services, which is currently 
in operation under the moniker ``Collaboration Pathfinder'', is 
securely hosting over 60,000 user accounts across ten bases. This 
service delivery model will enable improved network performance, 
reliability and scalability. It also fuels superior cyber security and 
defense, while generating superior speed, agility and precision of 
maneuver in, through, and from cyberspace.
    The AFIDP roadmap leverages on-going Joint Information Environment 
(JIE), Joint Regional Security Stack (JRSS) migrations and fielding in 
close partnership with the United States Army and the Defense 
Information Services Agency (DISA). All DOD components will ultimately 
utilize JRRS with the United States Air Force and Army currently 
undergoing migration. Combatant commands, Coast Guard, and other 
Defense Agencies are scheduled to begin JRRS migrations later in fiscal 
year 2017 and into fiscal year 2018. To date we have successfully 
migrated two CONUS regions, to include 170,334 users across 32 bases. 
JRSS provides state of the art security stacks and capabilities at our 
Tier-2 gateway boundaries. AFIDP also employs the Automated Remediation 
and Asset Discovery (ARAD) capability suite.
    ARAD is an instantiation of the commercial Tanium product, enabling 
operators to perform vulnerability management, incident response, 
system health diagnostics, as well as asset identification and 
optimization in a matter of seconds to minutes vice days to weeks using 
current capabilities. ARAD achieved Initial Operational Capability on 
the Air Force Network in December 2016, installed on nearly 600,000 
end-points with powerful results and exceeding all expectations. The 
ARAD team drove an unprecedented eight-month acquisition schedule to 
deliver tools that enable operators to identify and fix network 
vulnerabilities in seconds instead of weeks, and it provides the 
ability to detect, track, target, engage, and mitigate adversarial 
activities in near real time. The 24th Air Force ARAD team was awarded 
the 2016 Department of Defense Chief Information Officer Award for 
Cyber and Information Technology Excellence for their pioneering 
innovation. The demonstrated potential of ARAD is truly revolutionary, 
and we are diligently experimenting, evolving, and developing 
operational concepts and applications to close key mission capability 
gaps in close partnership with the Tanium experts. The intrinsic 
operational value and potential of ARAD/Tanium was formally acknowledge 
by the Air Force CIO, Lieutenant General William Bender, who recently 
directed ARAD implementation across the Air Force network to include 
mission systems and enclaves.
    The second transformational effort is the Air Force Cyber Squadron 
Initiative (CSI). It is centered on an Active cyber defense model 
across all echelons of Air Force organizations, designed to deliver 
enterprise mission assurance in a contested domain, in the presence of 
a maneuvering adversary. Cyber Mission Defense Teams (MDTs), the 
primary unit of action, are tailored, trained, equipped and task-
organized to survey, secure, and protect key cyber terrain in order to 
deliver mission assurance. The Cyber Squadron Initiative is a commander 
and mission-driven force employment model. Mission Defense Teams employ 
a spectrum of cyber security and defense tactics, techniques, and 
procedures in addition to their own suite of tailored cyber defense 
sensors and tools to provide Active defense at the base level. In 
fiscal year 2016 the Air Force executed fifteen Mission Defense Team 
``pathfinder'' initiatives across a diverse set of Air Force missions 
and organizations to test and validate the operational concept and tool 
requirements. These designated units focused on functional mission 
analysis, planning, and network characterization. fiscal year 2017 
programming designates another fifteen Service-funded initiatives, as 
well as sixteen Major Command-funded initiatives. Although the Mission 
Defense Team concept is a nascent cyberspace defense capability, these 
teams are already proving their worth; providing mission assurance for 
operational commanders' priority missions and mission systems. Laying 
the foundation, the 50th Space Communications Squadron's Mission 
Defense Team provided the wing commander with an understanding of cyber 
risk being accepted on the Air Force Space Control Network. The 52nd 
Communication Squadron Mission Defense Team integrated with AFCYBER 
Cyber Protection Teams to resolve a Combat Air Force cyber incident, 
defending commander's key cyber terrain and allowing wing commanders to 
understand the operational risk if cyber hygiene is not a priority.
    The third transformational effort is Air Force Materiel Command's 
Cyber Resiliency of Weapons Systems, or CROWS office. Their mission is 
to increase cyber resiliency of Air Force weapon systems across our 
acquisition and life cycle management processes to maintain mission 
effective capability under adverse conditions. CROWS have two primary 
objectives; first, to ``bake-in'' cybersecurity into developmental and 
future mission and weapons systems, and second; to employ a prioritized 
threat- and risk-based, cyber vulnerability assessment of existing 
systems to best mitigate risk to missions and forces. Their roadmap to 
cyber resiliency advances from systems assurance to the 
institutionalization of cyber security, cyber hygiene, and resiliency 
across all Air Force weapons systems. Their comprehensive strategy 
includes sustainable and programmable tools, infrastructure, and a 
skilled cyber workforce of operators, system engineers, and acquisition 
professionals to deliver end-to-end mission and weapon system cyber 
security.
    The combined effects and capabilities of these three major Air 
Force transformational efforts, plus our ongoing AFCYBER cyber security 
campaign plan leveraging signals intelligence (SIGINT) and all-source 
intelligence, industry, National Institute of Standards and Technology, 
and DISA best practices, provides the Air Force with a full-spectrum, 
coherent framework for generating threat- and risk-based mission 
assurance from networks and infrastructure. This mission assurance 
strategy is girded by an acquisition and life-cycle sustainment 
enterprise empowered, organized, and resourced to deliver cyber 
security and resilience for our Air Force.
       cyber mission force: transitioning from build to readiness
    The Air Force is on track to achieve Full Operational Capability 
(FOC) for all Service CMF teams by the end of fiscal year 2018. As of 1 
May 2017 we have all teams at Initial Operational Capability and over 
fifty percent at FOC. The FOC criteria are designed to ensure 
construction of all teams to a common standard and set of work roles. 
While we remain laser-focused on building and delivering our Service 
teams to FOC, we have begun, in earnest, to measure and review team 
readiness across well-established institutional standards such as 
Personnel, Training, Equipment and Supply. This ongoing road to formal 
CMF Defense Readiness Reporting System (DRRS) integration will 
normalize CMF force presentation and force management while generating 
critical mission capability and capacity gap analysis needed for 
commanders to drive force readiness.
    At 24th Air Force we know the most critical element in cyberspace 
operations is not copper or silicon, it's carbon. Our innovative and 
audacious airmen are the centerpiece to our AFCYBER capabilities; they 
have demonstrated time and again their agility and dedication towards 
generating mission outcomes for our Service, the Joint Force and our 
Nation. We have thrust them directly from build to battle throughout 
the CMF build evolutions. Therefore, we remain committed to recruiting, 
training, developing, and retaining the right cyber talent. We owe it 
to the incredible men and women that make-up these teams to see they 
are properly trained, equipped, and prepared for all assigned missions. 
There must be an evolving dialogue centered on resourcing and procuring 
the capabilities and capacity required for our CMF to be properly 
postured for success beyond the build.
                        ``one force'' in afcyber
    In cyber, we train and fight as one team with all components; 
Regular Air Force, Air National Guard, and Air Force Reserve. We are 
delivering cyber forces in support of the Department's CMF framework 
fully integrated with our Total Force partners in the Air National 
Guard and Air Force Reserves. These ``One-Force'' teams are providing 
United States Cyber Command with capabilities to defend the nation, 
support combatant commanders, and defend the DODIN. The Air Force's 
Total Force cyber mission contribution is impressive. They are 
providing both National and Cyber Protection Teams, Cyberspace Command 
and Control and a separate Continuity of Operations Ops Center 
facility, a Cyberspace workforce training and skills validation course, 
and niche Industrial Control System cyber-security and defense teams.
    The Air National Guard has already completed two extremely 
successful Cyber Protection Team six month mobilizations in support of 
United States Northern Command air defense missions and associated key 
cyber terrain security and defense.
    These Total Force professionals bring a unique blend of experience 
and expertise to the full spectrum of cyberspace missions. Many work in 
prominent civilian positions within the Information Technology 
industry, which bolsters our mission effectiveness. A prime example 
from the Washington State Air National Guard is their ability to 
harness their expertise to establish unique Industrial Control Systems 
(ICS) and Supervisory Control and Data Acquisition (SCADA) threat 
prevention and response packages or Unit Type Codes (UTCs) for 
mobilization and deployment. These ten-person UTCs provide a capability 
to detect, deter, degrade, and deny an adversary freedom of action 
within Cyber Physical Systems, Industrial Control Systems, and Critical 
Infrastructure and Key Resources Networks. Further, the Air National 
Guard established two units to provide resident initial assessment and 
cyber skills training as well as delivering on-line cyber training to 
the Air Force. These vital capabilities allow us to refine training 
capability requirements that drive future training curriculum design. 
In addition, the Air Force Reserves, in coordination with our formal 
cyber school house are focused on development of advanced resident and 
distributed learning for the CMF.
    Operational awareness focused on the mission, commanders' 
priorities, and resources are key to forging a lasting partnership with 
our Total Force brethren. On 26 April, 24th Air Force hosted 27 states 
Adjutants General, Assistant Adjutants General, and wing commanders for 
the first-ever TAG Cyber Symposium. This historical gathering enabled 
critical collaboration and information flow regarding personnel, 
equipment, requirements, and authorities and generated insights into 
optimizing force presentation and harnessing our citizen airmen's 
industry expertise to solve tough cyber operations problems.
    Cyberspace operations are a ``team sport'' and 24th Air Force/
AFCYBER is wholly committed to strengthening our relationships with 
other Air Force partners, our sister Services, interagency 
counterparts, combatant commanders, coalition allies, as well as 
civilian industry partners. Given the proximity of our headquarters and 
close mission alignment, 25th Air Force continues to be a critical 
strategic partner across all of our missions. The 25th Air Force 
Commander, Major General B.J. Shwedo, has been a vital force provider 
and steadfast supporter of the CMF build and operationalization of the 
cyber domain.
            joint forces headquarters-cyber (jfhq-c afcyber)
    Cyberspace is an inherently global domain that impacts every 
function of our Joint Force. This force is increasingly dependent upon 
cyber capabilities to conduct modern military operations. JFHQ-C 
AFCYBER supports assigned Combatant or Joint Force Commanders by 
providing full-spectrum, all domain integrated cyberspace maneuver and 
effects in support of their assigned missions. JFHQ-C AFCYBER delivers 
Cyber IN War, not Cyber War, for our combatant commanders. As 
commander, I retain Operational Control of assigned Service and joint 
Cyber Mission Forces providing general support to both United States 
European Command and United States Strategic Command. We recently 
concluded a combined Joint, Tier-1 Combatant Command Exercise, Austere 
Challenge/ Global Lightning 2017, supporting both of these Combatant 
Commands. United States Cyber Command designated JFHQ-C AFCYBER as the 
Cyber Component to the Joint Task Force Commander, enabling fully 
integrated joint planning, maneuver, targeting and fires coordination 
for cyberspace maneuver and effects operations. Our team effectively 
integrated within existing, institutional planning, targeting and fires 
processes to provide cyber effects across the full range of military 
operations within the exercise. Our capabilities and effects were fully 
synchronized with the timing and tempo dictated by the supported 
commander. Cyberspace domain operations were employed using extant 
processes, fully integrated with all other classic warfighting domains 
propagating force awareness, comprehension and intrinsic value across 
all participants, agnostic of professional pedigree or experience.
                              partnerships
    The 24th Air Force also understands the cyberspace domain is 
primarily provisioned by private industry and our ability to 
collaborate with our industry partners benefits the nation's 
cybersecurity posture. We have developed Cooperative Research and 
Development Agreements with 25 industry leaders in Information 
Technology, Defense, and Banking to share and collaborate on innovative 
technologies and concepts. These collaborative efforts allow us to 
advance science and technology in support of cyberspace operations, as 
well as share best practices with industry partners. We continue to 
leverage this program and are currently in the process of enhancing our 
partnerships with academia.
    In July 2015 the Cyberspace Multi-Domain Innovation Team (CMIT) was 
established as a partnership between 24th and 25th Air Forces to meet 
the CSAF's intent to optimize the rapid and cost effective generation 
of operational all domain integrated effects. CMIT achieves this 
through the integration and convergence of Cyberspace Operations; 
Intelligence, Surveillance, and Reconnaissance; and Electronic Warfare 
capabilities to deliver innovative multi-domain planning support and 
capabilities. To date, this team has planned and delivered multiple 
cyber capabilities to ongoing operations and has a number of multi-
domain initiatives underway to better enable operations in an Anti-
Access/Area Denial (A2/AD) environment.
    We are also fortunate to have a long-standing close relationship 
with San Antonio, Texas, also referred to as ``Cyber City USA.'' The 
local community has committed significant resources to support the 
growth of cybersecurity both locally and nationally. Our leadership 
team participates in a variety of civic leader engagements to share 
lessons related to cybersecurity. By partnering together, 24th Air 
Force supports a broad array of programs designed to reach young 
students, essential to our nation's success in this arena. A good 
example is the Air Force Association's ``CyberPatriot'' STEM initiative 
in which our airmen mentor cyber teams as part of a nationwide 
competition involving nearly 10,000 high school and middle school 
students.
    We are also making gains in improving our acquisitions process to 
support the ever changing technology of cyberspace. The Air Force Life 
Cycle Management Center has worked diligently to streamline our ability 
to provide solutions to support our cyber missions through ``Rapid 
Cyber Acquisition (RCA)'' and ``Real Time Operations and Innovation 
(RTOI)'' initiatives. RCA is part of Air Force Space Command's 
Integrated Agile Acquisition Construct applied to meeting cyber needs 
by providing faster solutions to cyberspace needs through traditional 
acquisition channels. RTOI are activities that produce critical cyber 
weapons system and platform modifications, capability improvements, and 
related changes to operational procedures at the ``speed of need.''
    To enable the execution of these efforts, in April 2016, in 
partnership with the Air Force Lifecycle Management Center, we 
established the Cyber Proving Ground (CPG). Its mission is to identify, 
enable, and accelerate the fielding of innovative, operationally-
relevant concepts to improve Air Force, Joint, and Coalition cyberspace 
operations capabilities. The CPG leverages 24th Air Force's innovation 
and development capabilities and the existing cyber acquisition 
capabilities of Air Force Lifecycle Management Center's Crypto and 
Cyber Systems Division. The CPG is a foundry which brings together 
cyber operators, air force acquisition and engineering professionals, 
and private sector vendors with potential solutions to close capability 
gaps. While CPG projects are small in scope and timeframe, they 
comprise a broad spectrum of challenges, from complex development and 
testing efforts, to simple technical evaluations of existing 
technologies.
    I want to highlight two recent efforts from the CPG. First, in just 
six weeks the CPG developed and fielded the Service's first defensive 
Solaris capability which enabled our Cyber Protection Teams to secure 
and defend the Air Force Satellite Control Network. Second, the CPG 
recently completed development, testing, and fielding of two unique 
capabilities to support United States Cyber Command's ongoing Joint 
Task Force Ares operations. Other CPG efforts fielded capabilities that 
thwarted adversary exploitation of user authentication certificates, 
the unauthorized release of personally identifiable information, and 
the blocking of sophisticated intrusion attempts by advance persistent 
threat actors. These technical solutions were forged, tested and 
fielded in weeks to months, versus years.
                      challenges and opportunities
    As a new and rapidly maturing warfighting domain, cyberspace 
operations continues to make huge advancements in the 
operationalization of missions and forces. However, there are 
significant challenges in our critical path towards delivering required 
capability and capacity for assigned missions. At the macro-level, 
these challenges fall into four broad categories; manpower and 
training, cybersecurity of weapons systems, key enablers to cyberspace 
operations, and professionalization of cyberspace domain workforce. 
These broad categories closely mirror Admiral Rogers' focus areas for 
United States Cyber Command and the Service Cyber Components. His 
charges direct us to secure and defend weapons and mission systems and 
the data that resides on them, as well as increase speed, agility, 
precision, readiness and lethality of an effectively manned and trained 
cyber workforce in coordination with Guard and Reserve forces to 
deliver all domain integrated effects across all phases of operations 
that support DOD strategy and priorities.
Manpower and Training
    Significant manpower shortages across our C2 elements at all 
echelons hampers our ability to support geographic and functional 
commands. Manpower deficiencies in our units that operate, secure, and 
defend our networks force a constant high-pressure, deployed in place 
operating environment of competing priorities and risk decisions with 
insufficient force structure to meet critical operational demands. We 
are actively examining our training pipeline to find smarter more agile 
methods which get our operators to their units and on mission faster. 
In 2015 we added a local San Antonio detachment to our cyber school 
house to increase training capacity. The detachment is crucial in 
enhancing formal training throughput and efficacy due to the proximity 
to the majority of Air Force CMF units and their cyber weapon systems. 
Since June 2015, the detachment has graduated 518 CMF operators and 
saved one million dollars per year in TDY costs by collocating the 
training with the operational units. Formal cyberspace operations 
training must remain rigorous and comprehensive enough to meet 
operational requirements but also agile and responsive enough to 
accommodate the pace of change in the cyber domain.
    The Service Staff in conjunction with Air Education and Training 
Command are currently developing custom Air Force Specialty Code 
training tracks based on a modular syllabus that utilizes the latest 
training assessment innovations and provides placement flexibility 
through the training pipeline. The concept allows airmen to ``test-
out'' of portions or modules of the curriculum. This methodology 
provides incentives and opportunities to our airmen who possess an 
advanced cyber aptitude, whether via formal or informal training or 
education, to advance through the pipeline and arrive on station at an 
operational unit in a significantly shorter time frame. In order for 
this concept to be effective, resourcing is required to design and 
validate assessment tools and develop an agile and responsive 
curriculum development framework that keeps pace with the advancement 
of technology, tradecraft, and our adversaries.
Cybersecurity of Weapons Systems
    There are insufficient weapons system sustainment dollars going 
towards system cyber security and defense. The majority of all 
sustainment dollars today goes toward functional capability upgrades in 
any mission or weapons system program. Our current process of ``bolting 
on'' weapons system cyber security after the fact, levies excessive 
mission-risk and is extremely manpower and resource intensive to 
properly secure and defend the system. It is more complex and expensive 
to defend mission systems where there is no inherent or ``baked in'' 
cybersecurity framework. As previously mentioned, the CROWS office is 
getting after this today as directed by the NDAA, but much more needs 
to be done from a resource and execution perspective.
Key Enablers
    The Department has begun planning for and resourcing a multiple 
phenomenology approach to access. Each Service is exploring multiple 
pathways to get to the target and deliver effects against our 
adversaries in cyberspace. The Air Force is also planning and 
provisioning for its own organic platform and tool development 
capabilities, separate and distinct from NSA. This will ensure assigned 
cyberspace mission priorities and requirements are being met. Critical 
to accessing the target with the appropriate tools to deliver the 
desired effect is timely, relevant, domain specific, all-source 
intelligence.
    While achieving and maintaining a depth of knowledge in cyberspace 
is technically challenging, all source Target System Analysis (TSA)s 
that are domain agnostic is a proven approach to providing timely, 
relevant intelligence support to operations. The Intelligence Community 
(IC) must perform this function due to the vast amount of resources and 
the ability to leverage existing partnerships outside the Department 
and the United States Government. The methodology employed purposely 
resembles target development in any other warfighting domain. A 
thorough understanding of the commander's intent, specifically the 
objectives and effect desired for a particular target set is required. 
Center of Gravity analysis is conducted to analyze the functions and 
interconnectivity of those components critical to the target. Systems 
engineering and network analysis is developed to map out the key 
terrain within the target, to enable operators to conduct Intelligence 
Preparation of Environment (IPOE) and refined Target Development. Based 
on the analysis and reporting from the IPOE, the operators develop a 
strike package based on an understanding of the target environment and 
the tools and capabilities they have developed in order to deliver the 
desired effects. The current approach of contracting these cyber TSAs 
has been successful, but we view it as a temporary solution until the 
IC transforms their on-going intelligence support to cyber analysis and 
resourcing challenges and takes on this critical intelligence 
requirement in earnest.
Professionalization of the workforce
    The Air Force established a Cyber Project Task Force to monitor 
progress, identify challenges, and collaborate on manpower and 
personnel efforts to ``get after'' building the Air Force portion of 
the CMF. The Air Force also instituted a Service-wide policy to 
encourage back-to-back CMF tours for our CMF-trained personnel, thereby 
ensuring proper return on investment. Furthermore, the Air Force 
recognized the positive value of embedding limited CMF-trained 
personnel back into Service non-CMF cyber positions, in order to better 
operationalize the total Service cyber enterprise. Although, these 
cross-pollinated CMF-trained personnel may not have specific CMF-
related or associated jobs, they are assigned to cyberspace-related 
positions growing their depth and breadth of operational expertise. 
Finally, the Air Force also has the responsibility to develop our 
portion of the CMF to meet Operational Commanders' requirements in a 
method that also ensures Air Force Cyber Airmen stay competitive with 
long-term career projections and a ``Path to Greatness'' for cyberspace 
airmen. In addition, cyber airmen may attend professional developmental 
opportunities such as Air Force Institute of Technology, Computer 
Network Operations Development Program, or the Air Force Weapons 
School, all of which will positively impact the operationalization of 
the cyberspace domain within the Air Force and in turn, the future of 
the CMF.
                               conclusion
    I am proud of the tremendous strides made to operationalize cyber 
capabilities in support of joint warfighters and defense of the nation. 
Despite the challenges of growing and operating across a contested and 
diverse mission set with a rapidly maturing work force, it is clear Air 
Force networks are better defended, combatant commanders are receiving 
more of the critical cyber effects they require, and our departments' 
critical infrastructure is more secure due to our cyber warriors' 
tireless efforts. They truly are professionals in every sense of the 
word.
    Congressional support was essential to the substantial operational 
progress made and will only increase in importance as we move forward. 
Without question, resource stability in the years ahead will best 
enable our continued success in developing airmen and maturing our 
capabilities to operate in, through and from the cyberspace domain. 
Resource stability will also foster the innovation and creativity 
required to face the emerging threats ahead while maintaining a capable 
cyber force ready to act if our nation calls upon it.
    I am honored and humbled to command this magnanimous organization 
and look forward to a thorough and continuing dialogue.

    Senator Rounds. Thank you, General.
    Major General Reynolds?

     STATEMENT OF MAJOR GENERAL LORETTA E. REYNOLDS, USMC, 
          COMMANDER, MARINE FORCES CYBERSPACE COMMAND

    MajGen Reynolds. Chairman Rounds, Ranking Member Nelson, 
Senators McCaskill and Fischer, on behalf of the marines, 
civilian marines, and their families of U.S. Marine Corps 
Forces Cyberspace Command, I thank you for your support to the 
work that we are doing, and I welcome this opportunity to 
highlight for you today what our marines are doing in 
cyberspace as we shift our focus from building this command to 
operationalizing, sustaining, and expanding capabilities in 
this warfighting domain.
    I am humbled every day by the tenacity, professionalism, 
and commitment to mission success displayed by my team.
    As the Commander of Marine Forces Cyber, I wear two hats. I 
am the Commander of Marine Forces Cyber and I am the Commander 
of Joint Force Headquarters-Cyber Marines. In these roles, I 
command about 1,700 marines. We are a small force. Our force 
includes civilian marines and contractors across our 
headquarters and subordinate units. I organize operations along 
three lines of effort that I will briefly highlight for you 
today, and I use this framework to organize activities, 
allocate resources, grow capabilities, and measure our 
progress.
    My first priority is to secure, operate, and defend the 
Marine Corps portion of the DODIN, which we refer to as the 
Marine Corps Enterprise Network, or the MCEN. The Marine Corps 
views the MCEN as a warfighting platform, as you have heard 
from my fellow commanders today. We must aggressively defend 
this network from intrusion, exploitation, and attack.
    Our priorities this year for improving our defenses include 
actions to flatten the MCEN by collapsing domains and improving 
our ability to sense the environment. We want to harden the 
network through increased endpoint security, principally 
through WIN 10 [Windows 10] deployment, and we want to 
implement a comply to connect capability. Finally, we are 
looking for ways to dramatically improve our continuity of 
operations capability of our cybersecurity service provider in 
Quantico.
    My second priority is fulfilling our responsibility to 
provide ready, capable cyber forces to U.S. Cyber Command. We 
are on track to provide 13 fully operational capable Cyber 
Mission Force teams to meet U.S. Cyber Command requirements.
    We have experienced tremendous growth in operational 
capability over the past year and have fully supported the 
delivery of operational cyberspace effects within named 
operations. I provide direct cyber support to U.S. Special 
Operations Command, and we are actively beginning actions to 
hire manpower in my Joint Force headquarters and in a forward 
element embedded in SOCOM [Special Operations Command], 
organizations which will directly support SOCOM and their 
subordinate elements with cyber planning integration.
    Across U.S. Cyber Command, marines are at the point of 
friction, increasingly relevant, and eager to contribute to the 
fight.
    My third priority is to add cyberspace warfighting 
expertise to the Marine Air Ground Task Force. Our Commandant, 
General Neller, understands the necessity to move forward 
quickly to build MAGTF [Marine Air-Ground Task Force] 
capability to operate in all five domains. The first time this 
fiscal year, we have supported a training exercise within every 
Marine expeditionary force, which are our major warfighting 
commands, as you know.
    In addition, we recently concluded a mission in support of 
a special purpose MAGTF in the CENTCOM [Central Command] AOR 
[Area of Responsibility].
    Across the board, the demand signal for marine cyber 
operators and capability is very high, and it increases with 
each successful mission.
    Also this year we have participated in our service efforts 
to improve our information warfare capabilities that are 
organic to the MAGTF. Cyber will play a relevant part in that.
    For all these missions, this year we are building a 
cyberspace MOS [Military Occupational Specialty] to improve 
readiness and retention of our operators, and we are also 
participating in the cyber excepted service for our civilian 
operators.
    We have accomplished much in a short period working within 
the construct of these three lines of effort, but we still have 
a lot of work to do.
    Thank you again, Mr. Chairman, Members of the committee, 
for inviting me to testify before you today and for the support 
that you and this new committee have provided our marines and 
their families. I look forward to taking your questions and to 
maintaining an open dialogue with you in the future. Thank you.
    [The prepared statement of Major General Reynolds follows:]

        Prepared Statement by Major General Loretta E. Reynolds
                              introduction
    Chairman Rounds, Ranking Member Nelson, and distinguished Members 
of this Committee, on behalf of the marines, civilian marines, and the 
families of U.S. Marine Corps Forces Cyberspace Command (MARFORCYBER), 
I thank you for your continued support of the important work we are 
doing to secure, operate, and defend the Marine Corps Enterprise 
Network (MCEN) and defend the nation in cyberspace. I welcome this 
opportunity to highlight what our marines are doing in the cyberspace 
domain and how we are shifting our focus from building the command to 
operationalizing, sustaining, and expanding capabilities in this 
warfighting domain. I am pleased to be sitting alongside my colleagues 
from the other Service Cyber Components of the United States Cyber 
Command (USCYBERCOM).
    I am humbled everyday by the tenacity, professionalism, and 
commitment to mission success displayed by my team. It gives me great 
pride to highlight the many accomplishments of the marines and civilian 
marines of MARFORCYBER, and the work they are doing in support of 
warfighting and in defense of our nation.
    It will come as no surprise to the Members of this committee that 
we face a growing cyber threat--one that is increasingly persistent, 
diverse, and dangerous. Malicious cyber activity from both state and 
non-state actors continues to intensify and every conflict around the 
world includes a cyber dimension. The traditional fight we have 
envisioned across the domains of air, land, sea, and space has expanded 
to the cyber domain. The United States' technical superiority is not 
yet established in this domain: we have to earn superiority in each 
fight. We can never take our superiority for granted. Our enemies will 
test us.
    This year we established MARFORCYBER's motto--Semper in Proelio. It 
is Latin for ``Always in Battle.'' This is the reality of cyberspace. 
The American people rightfully expect their marines to fight our 
Nation's battles and win--always, including in the domain of cyber. We 
work hard each and every day to ensure we are prepared to fulfill this 
expectation.
                        mission and organization
    As the marine service component to U.S. Cyber Command, MARFORCYBER 
conducts full spectrum cyberspace operations. That includes operating 
and defending the MCEN, DOD Information Networks (DODIN) operations, 
conducting Defensive Cyberspace Operations (DCO) within the MCEN and 
Joint Force networks, and when directed, conducting Offensive 
Cyberspace Operations (OCO) in support of Joint and Coalition Forces. 
We do this to enable freedom of action in cyberspace and across all 
warfighting domains, and deny the same to our adversaries.
    As the Commander, MARFORCYBER, I wear two hats. I am Commander, 
MARFORCYBER, and I am the Commander of Joint Force Headquarters--Cyber 
(JFHQ-C) Marines. In these roles, I command about 1,700 marines, 
civilian marines, and contractors across our headquarters and 
subordinate units. MARFORCYBER is comprised of a headquarters 
organization, a JFHQ-C, and two colonel led subordinate commands: 
Marine Corps Cyberspace Warfare Group (MCCYWG) and Marine Corps 
Cyberspace Operations Group (MCCOG). Through the JFHQ-C construct, we 
provide direct cyber operations support to U.S. Special Operations 
Command (USSOCOM). We are currently in the process of developing and 
manning a Joint Force Headquarters--Forward, which is part of an effort 
to meet the growing demand of cyber operations throughout USSOCOM's 
global operations.
    Within the MARFORCYBER headquarters, we currently have 189 
authorized billets for marines and 32 authorized billets for Government 
civilians. We have an additional 65 authorized billets for contract 
employees. In a field where technology is paramount, our people 
continue to be our most valuable resource and greatest strength. Simply 
put, they represent the very best our nation has to offer--they are 
patriots, who are doing the arduous and necessary work to defend 
against increasingly capable adversaries.
    I organize operations along three lines of effort that I will 
highlight for you today. I use this framework to organize activities, 
allocate resources, grow capability, and measure our progress.
                  secure, operate, and defend the mcen
    My first priority is to secure, operate, and defend the Marine 
Corps' portion of the DODIN, the MCEN.
    We accomplish this mainly through one of the two subordinate 
commands mentioned previously--the MCCOG. The MCCOG is responsible for 
directing global network operations and computer network defense of the 
MCEN. It executes DODIN Operations and DCO in order to assure freedom 
of action in cyberspace and across warfighting domains, while denying 
the efforts of adversaries to degrade or disrupt our command and 
control.
    This past December, the MCCOG was activated during a re-designation 
ceremony from the former Marine Corps Network and Operations Security 
Center (MCNOSC). This re-designation was not simply a name change. The 
missions and roles assigned to the MCNOSC transitioned from that of a 
Supporting Establishment command to that of an Operational Force 
command apportioned to U.S. Strategic Command (USSTRATCOM).
    The Marine Corps views the MCEN as a warfighting platform, which we 
must aggressively defend from intrusion, exploitation, and attack. 
Cyberspace operations favor the attacker, and our operational 
dependencies require us to conduct a formidable, continuous defense. 
Real-world defensive cyberspace operations have informed and sharpened 
our ability to detect and expel threats on the MCEN. Since May 2016, 
the MCCOG has responded to 4,050 events on the MCEN. These events 
include unsuccessful attempts to access the network, non-compliance 
with security standards, reconnaissance of the network, and explained 
anomalies (configuration errors). This number encompasses only the 
events that require our attention and further analysis. There are 
thousands of events that occur on the network daily that are blocked 
and contained by our network defenses and filters.
    Our priorities for improving our defenses this year include actions 
to flatten the Marine Corps network and improve our ability to sense 
the environment, harden the network through increased endpoint 
security, and decrease incident response time. To do this, we are 
aggressively seeking to consolidate legacy domains, implement a comply 
to connect capability and the WIN 10-operating system, and collapse 
regional service desks to an enterprise service desk. Each of these 
priorities are described briefly below.
    Network Access Control, Compliance, and Remediation (NACCR). NACCR 
provides defense in depth by positively identifying devices that 
attempt to connect to our networks, ensuring the device is compliant 
with the latest set of security updates, and, if non-compliant, NACCR 
initiates quarantine and remediation actions.
    Enterprise Service Desk. We are transitioning eight regional 
service desks into a central, standardized Enterprise Service Desk 
(ESD) in Kansas City, Missouri. The ESD will be under the operational 
control of MARFORCYBER. Users' requests for IT support and incident 
response, once centrally managed, will provide valuable insights into 
trends on the network. Long term benefits will include supporting a top 
down governance structure, increased efficiency in supporting the 
warfighter, and providing a holistic view of the network that informs 
and complements defensive actions on the MCEN.
    Domain Consolidation. In order to flatten, harden, and secure the 
network, we must have full visibility of all networked assets. We are 
undertaking efforts to bring remaining disparate legacy networks into a 
homogenous and secure network. Legacy networks contribute to the Marine 
Corps' cyber footprint and unnecessarily increase attack surfaces for 
adversaries. This deliberate effort for domain consolidation will 
provide much needed standardization and increase the cybersecurity 
posture of the MCEN.
    Windows 10. The Marine Corps is transitioning its Microsoft Windows 
end user devices to the Windows 10 (WIN 10) operating system (OS). WIN 
10 OS will improve the Marine Corps' cybersecurity posture, lower the 
cost of information technology (IT), and standardize the Marine Corps' 
IT operating environment. The WIN 10 OS has numerous embedded security 
features that earlier Windows OS's lack. These features include 
protection such as encrypting hard drive data while powered off or 
preventing the execution of unknown system commands.
    Like the Internet itself, many of our Programs of Record and 
warfighting systems were not built with security in mind. To combat 
these vulnerabilities, we are reviewing each one to determine how we 
can improve security. We have also conducted a review of all vulnerable 
end of life hardware and software on the network and developed 
expedited strategies to upgrade, consolidate or remove systems that 
cannot be adequately hardened. Projects that focus on auditing, 
analysis and tracking of cyber events and anomalous activity have been 
developed and implemented to improve our situational awareness of 
system status and cyber monitoring capabilities. Programs that test and 
audit our defensive posture are continuously reviewed for relevance and 
improvement to address the changing cyber threat environment and 
support the intelligence operations cycle on a shortened timeline. 
Cyber is a dynamic, competitive environment, and we are continually 
responding to the increasing capability and capacity of our 
adversaries.
    As we have built Cyber Protection Teams (CPT), we have employed 
them across the MCEN. This year, our CPTs have conducted named cyber 
operations to include focused internal defensive maneuver missions 
(IDM), ensured security of Personally Identifiable Information (PII) 
repositories, and completed security enhancement missions for cyber key 
terrain, countering known threats to the network. In all DCO 
activities, the Marine Corps consolidates findings and actionable 
lessons for dissemination to the broader operational community.
    We are making efforts to better understand system data, and have 
employed Service aligned CPTs to harden Service PII repositories. In 
2015, MARFORCYBER began efforts to secure PII repositories across the 
service. The MCCOG and Service CPTs assessed the security posture of 
our 40 largest PII repositories. While the overall security posture of 
our systems was within established standards, we identified areas for 
improvement we needed to address. Our Service aligned CPTs conducted 
on-site visits to several repositories that were deemed critical high 
risk. There, we identified and remediated vulnerabilities and trained 
system owners and administrators. We continue efforts to ensure these 
systems maintain the highest levels of security.
    We have identified a requirement for a more robust MCCOG Continuity 
of Operations (COOP) capability. The MCCOG COOP is effectively a MCEN 
COOP capability. MCCOG lacks the ability to comply with DOD Directive 
3020.26 of 9 Jan 2007 requiring up to 30 days Mission Essential 
Services and Functions performance for no-notice events. The Marine 
Corps IT Center (MCITC), located in Kansas City, Missouri, is the 
recommended COOP site, allowing us to leverage available space and 
integrate with other MCCOG operations already at MCITC. We have 
conducted thorough analysis and research to develop an effective COOP 
capability, but currently lack the financial resources to put our plan 
into action.
    We are participating in efforts to shape our battle space by 
designing a more defensible architecture. As we move toward 
implementing the Joint Information Environment, we are also working to 
unify and centralize our network to better see, understand, and defend 
the MCEN. We are integrating and standardizing cyberspace threat 
reporting, intelligence production and analysis to better inform 
commander's situational awareness and decision making. Our network must 
be resilient, redundant and interoperable, and extend from garrison to 
the tactical edge of battle. In other words, we need a seamless MCEN 
that provides a defensible capability providing enterprise services 
from ``fighting hole to flagpole.'' We are moving out in this 
direction.
              provide a cyberspace warfighting capability
    My second priority supports our responsibility to provide ready, 
capable cyber forces to USCYBERCOM. Creating this capability in a new 
command is a tremendous undertaking. We are on track to provide our 
Combat Mission, Cyber Protection, National Mission, and Combat Support 
teams in time to meet USCYBERCOM Full Operational Capability (FOC) 
requirements.
    The Marine Corps is responsible for 13 of USCYBERCOM's 133 Cyber 
Mission Force (CMF) teams: one National Mission Team (NMT), eight Cyber 
Protection Teams (CPTs), three Combat Mission Teams (CMT), and one 
Cyber Support Team (CST). These 13 teams are aligned against USCYBERCOM 
(Cyber National Mission Force), USSOCOM, and Marine Corps missions. 
Three of the eight CPTs are service retained and oriented to service 
missions, (23 percent of the total Marine Corps CMF).
    Of our 13 teams, nine teams have reached and four teams remain at 
Initial Operating Capability (IOC). All 13 teams are scheduled to reach 
FOC in fiscal year 2018. It's important to note, that all 13 teams 
designated as having reached IOC are employed against real-world 
problem sets and are fully engaged in supporting the mission. It is 
also important to note that achieving FOC is also not an indication 
that work is done. We must continually ensure we are training and 
sustaining the force to ensure we remain agile, adaptable, and ready to 
defeat all enemies.
    To that end, we are moving forward with the creation of a 
cyberspace occupational field. We have learned a great deal in the past 
several years about the training, clearance, and experience 
requirements across the cyber mission force. We know that in order to 
be effective, we must retain a professional cadre of cyberspace 
warriors who are skilled in critical work roles, and we know that many 
of our marines desire to remain part of the cyber work force. The 
Commandant has told us to move out, and we are planning with 
Headquarters, Marine Corps (HQMC) to design a cyberspace occupational 
field to address offensive and defensive team readiness requirements. 
We intend to begin assigning marines to the cyberspace MOS in fiscal 
year 2018. This will significantly improve both readiness and retention 
of the force.
    In the spring of 2016, we activated the MCCYWG. This new command is 
a colonel led command with the responsibility for identifying 
capability requirements, training, certifying, and sustaining readiness 
for our CMF teams. In the future, my vision for this command is to 
develop it into one of service as the Cyber Warfighting Center for the 
Marine Corps, where it will provide standardized advanced cyber 
training and certifications that support marine cyber training and 
readiness across the Corps.
    While building the CMF, members of MARFORCYBER were dual-hatted as 
the Joint Force Headquarters staff. This year, the pace of cyber 
operations demanded that we begin to man a standing JFHQ-C. The JFHQ-C 
provides the planning, targeting, intelligence and cyber execution 
support to supported commanders, and provides command and control for 
CMTs and CST. This summer, we will begin hiring JFHQ staff who will be 
positioned forward and integrated into USSOCOM planning and 
intelligence processes in Tampa, Fort Bragg, and across Theater Special 
Operations Commands.
    This year the Marine Corps continued its initial investment in 
specialized tools for defensive cyberspace operations. The Deployable 
Mission Support System (DMSS) hardware and software tools comprise the 
weapons system CPTs use to meet any mission they may be assigned, from 
readiness and compliance visits to incident response or Quick Reaction 
Force missions. This year, we championed an ability to conduct split 
based operations with the DMSS, enabling the CPT lead to forward deploy 
a small element and push information back to a home station ``war 
room'' for remote analysis and remediation. This initiative and concept 
of employment will reduce deployed time and costs and increase our 
ability to collaborate more freely with other CPTs or across the 
mission force.
    We are rapidly establishing relevant operational capability in 
support of the warfighter. We have experienced tremendous growth in 
operational capability over the past year as we have fully supported 
the delivery of operational cyberspace effects under Joint Task Force 
Ares, a USCYBERCOM led effort designed to support C-ISIS efforts in 
U.S. Central Command (USCENTCOM). Our Joint Force Headquarters is 
providing relevant support to more fully integrate planning cyber 
operations, intelligence and fires, and we continue to refine 
procedures with each exercise and operation we support. On the defense, 
our CPTs are contributing to Cyber National Mission Force priorities 
around the globe, and at USSOCOM. Across USCYBERCOM, marines are at the 
point of friction, increasingly relevant and eager to contribute to the 
fight.
    We are also Active participants with other Service components and 
USCYBERCOM in a variety of new processes, infrastructure and tool 
development, acquisition initiatives, training transition, and Tactics, 
Techniques and Procedures (TTP) development for the CMF. We know we 
must continually adapt, innovate, and change to meet future threats.
                         add value to the magtf
    My third priority is to add cyberspace warfighting expertise to the 
Marine Air Ground Task Force (MAGTF). Our Commandant, General Neller, 
understands the necessity to move forward quickly to build MAGTF 
capability to operate in all five domains. This is not the fight of the 
future, but the current fight we are in right now. Consistent with our 
Commandant's guidance, we want to develop the Marine Corps' cyber 
capacity at the tactical level of war, so that in the future the Marine 
Corps will more effectively preserve the ability to fight and win in a 
contested environment and deliver effects in cyberspace.
    Since our establishment in 2009, our marines and civilians have 
implicitly understood the need to provide a high return on the Marine 
Corps' investment in cyber. In 2010, we began participating in Service 
training, exercises and concept development to institutionalize cyber 
across the Service, and have built momentum ever since. Cyberspace 
operations are now codified in scenarios at Marine Corps Tactics and 
Operations Group, Marine Corps Logistics Operations Group, and Marine 
Aviation Weapons and Tactics School, and the Marine Expeditionary 
Forces (MEFs) better understand the integration of cyber through our 
participation in MEF Large Scale Exercises. For the first time, this 
Fiscal Year we will have supported a training exercise within each MEF, 
our major warfighting commands. In addition, we recently concluded a 
mission in support of a Special Purpose MAGTF in the USCENTCOM AOR. 
Commanders across the Marine Corps and combat commands have seen the 
capability our defensive teams bring to the fight. Across the board, 
the demand signal for Marine Corps cyber operators and capability is 
high, and increases with each successful mission.
    The Marine Corps Operating Concept (MOC) describes a future 
operating environment where marines will fight with and for 
information, engage in a battle of signatures and be required to 
maneuver throughout networks even as we design networks that are 
maneuverable themselves. Last year, the Marine Corps developed a new 
force design to meet the needs of the MOC. This effort, called Force 
Design 2025, includes Defensive Cyber Operations-Internal Defensive 
Measures (DCO-IDM) companies and electronic warfare companies for each 
MEF. The DCO companies will provide MAGTF commanders with a trained and 
organized capability to conduct activities as maneuver elements for 
deployed networks, data stores and weapons system. As an element of the 
MEF Communication Battalion, the DCO-IDM Companies will support the 
defense of MAGTF communication networks and maintain a commander's 
ability to command and control. Their primary function will be mission 
assurance actions such as actively hunting for advanced internal 
threats that evade routine security measures, performing incident 
response actions, and performing digital forensics. MARFORCYBER is 
leading the DCO-IDM Training Pilot Program this month, which will 
inform the DCO-IDM Company concept of employment.
    The Electronic Warfare companies, built inside our Radio 
Battalions, will employ similar intelligence, targeting and effects 
generation TTPs as offensive teams and will provide full spectrum 
electromagnetic support capability to the MEF commander.
    To increase cyber readiness across the Service, we have emphasized 
the role of the commander in the security and defense of the MCEN, and 
are conducting Cyber Readiness Visits at commands throughout the Marine 
Corps to identify cyber key terrain, assess readiness and culture, and 
bolster our defenses. As the Marine Corps establishes the cyber career 
field for marines, we will aggressively build cyber operators to ensure 
the MAGTFs, bases and stations have the expertise and capacity to 
enhance cyber readiness not only at MARFORCYBER, but across the Marine 
Corps.
    As we have transitioned from building the CMF to sustain readiness 
of the CMF, we are looking more carefully at how we retain manpower, 
prioritize training, ensure that our tools are current and sufficient 
to counter the growing threat, and whether we will have sufficient 
infrastructure, tools and facilities available for the force. We look 
forward to working more closely with Congress to address needs as we 
identify them.
    We have accomplished much in a short period working within the 
construct of these lines of effort, but still have a lot of work to do.
                       cyber workforce management
    MARFORCYBER is conducting a multi-year, Service-integrated, bottom-
up approach to grow both our headquarters element and the MCCYWG 
headquarters, which includes growth within manpower, training, 
facilities and equipment. Our growth is in-line with the Commandant's 
vision and Future Force 2025.
    Since our last testimony before the House Armed Services Committee 
in March of 2015, we have initiated plans to significantly increase our 
headquarters staff. While MARFORCYBER has seen manpower growth in 
support of our CMF, as directed by the Secretary of Defense, we have 
not seen growth for the headquarters element that supports the CMF. 
Growth will require resources to hire personnel for the enabling 
operational and strategic headquarters staff, and for facilities where 
we can train and employ them.
    MARFORCYBER was established with an initial staff of eight 
personnel. In 2011, we received additional personnel when the Service 
conducted a Force Structure Review. Since that time, the mission of 
MARFORCYBER has changed several times, including the requirement to 
grow a JFHQ-C, and our alignment to support USSOCOM. Concurrently, 
USCYBERCOM has developed new processes, working groups and planning 
teams to address the growing mission and relevance of cyberspace, while 
we have seen a steady increase in capability of adversary nations. In 
short, the scope of our mission has increased substantially, exceeding 
our existing capacity, and we have identified significant growth 
requirements to HQMC. One of the key requirements to grow and maintain 
an effective CMF is our ability to hire and retain the highest quality 
cyberspace professionals.
    In workforce management, we are being challenged by the policy 
issues discussed below as well as the increasing demand for workers 
with cyber experience in industry and government. Private industry 
remains an attractive prospect for our cyber personnel with salaries 
and incentives we cannot compete with. On the uniformed side, we are 
successfully leveraging our Reserve forces to help close manpower gaps. 
This capability has given us a tremendous boost, with Reservists 
agreeing to come on orders for anywhere from one to three years.
    The establishment of the cyber career field outlined earlier is one 
way we are addressing this challenge. We surveyed a sample of our CMF 
and found that 54 percent of respondents indicated that his or her work 
role was the most important consideration concerning re-enlistment with 
only 38 percent of respondents indicating pay was the most important (8 
percent were undecided). Marines want to stay cyber marines, and we 
will soon allow them the opportunity to do that.
    The Marine Corps also has other initiatives underway to help 
address the manpower challenges identified above. We are scheduled to 
brief HQMC in early June on manpower growth requirements for both the 
MARFORCYBER and MCCYWG Headquarters. Our requirement is for additional 
intelligence professionals, logistics and administration personnel, 
network experts, acquisition and contract management teams and tool 
development experts. The Service is conducting a holistic analysis to 
ensure our growth is realistic, valid and complete.
    On the civilian side, policy that exempted cyberspace positions 
during the recent hiring freeze was helpful in supporting our civilian 
workforce growth. However, the recruitment of recently retired or 
separated servicemembers that are cleared and fully trained has become 
substantially more difficult after the expiration of policy suspending 
the 180-day cooling off period required before taking a government 
position.
    We are well into the development of a new headquarters building for 
MARFORCYBER designed to meet the demands of our increased mission. I 
want to thank you for the Military Construction funding that enabled 
the East Campus Building--Marine Corps (ECB-MC) project. ECB-MC is a 
148,000 square foot, 550 seat building that will provide full spectrum 
cyber operation capabilities. The project broke ground in October 2015 
and the steel work ``topped out'' in November 2016. MARFORCYBER and our 
partners have developed a phased turnover plan to facilitate the fit-up 
of the building's complex systems and we expect the final turnover of 
spaces in December 2017. Assuming the construction and fit-up schedule 
is maintained, we expect to move MARFORCYBER into the new building 
during the 4th quarter of fiscal year 2018. This space is much more 
than administrative offices. It will serve as the Marine Corps' premier 
cyber warfighting platform.
                               conclusion
    Thank you again, Mr. Chairman and Members of the Committee, for 
inviting me to testify before you today, and for the support that you 
and this Committee have provided our marines and their families.
    I have outlined just a handful of examples that share how our 
marines are leaning in to increase cyber capability and capacity across 
this command and the Marine Corp through our lines of effort to secure, 
operate, and defend the MCEN, provide a warfighting capability, and 
provide value to the MAGTF. The success of these efforts depend on our 
Marine Corps cyber team--a team made up of warfighters, who are 
dedicated to their warrior craft. They are professional, competent, and 
committed to mission success. Simply put, they represent the very best.
    I look forward to continuing this dialogue in the future and would 
be happy to take your questions.

    Senator Rounds. Thank you, General Reynolds.
    I would note that all of your written statements will be 
included for the record of this meeting today.
    Let me begin by addressing to all of you. According to 
testimony we received from the Defense Science Board earlier 
this year, for at least the next decade, the offensive cyber 
capabilities of our most capable adversaries are likely to far 
exceed the United States' ability to defend key critical 
infrastructures. Do you agree with the Defense Science Board's 
assessment, and do you agree that because of that imbalance, we 
must have an effective cyber deterrence policy?
    VADM Lytle. I believe that statement is based on if we do 
not continue to invest in our cyber defensive capabilities of 
our country, and that could come true. What we need to do is 
really focus on increasing our capabilities to defend against 
those adversaries because unlike the other domains, in the 
cyber domain, there is a lot steeper learning curve for 
adversaries to gain capability. It takes a long time to build 
an army. It takes a long time to build an air force. It only 
takes about 6 months or less to hire some contractors and get 
capable as a cyber adversary in this domain. We need to be on 
our game. We need to continue to look at ways to up the United 
States' game and the DOD's game in the cyber defense capability 
area.
    VADM Gilday. Sir, thank you for the question.
    So a couple of comments. I think broadly we are concerned 
about the U.S. broad attack surface across a number of critical 
sectors that cover 16 in total.
    I do think a good first step is the EO [Executive Order] 
that was just signed out a week or 2 ago that essentially gives 
focus to those areas of critical infrastructure, the area of 
federal networks in terms of resiliency, and lastly the piece 
about cybersecurity for the Nation in terms of deterrence. I 
think collectively the EO sets us off on a course of taking a 
deeper look in many different areas to come up with a 
collective strategy.
    LTG Nakasone. Chairman, you know, as we have seen in this 
domain of cyberspace, the advantage is with the attacker 
obviously.
    In terms of what I think we need to do in looking at this, 
I do believe that there are three elements that we have to 
consider. First of all, our Nation needs, obviously, strong 
denial capabilities for its networks, its data, and its weapons 
systems. Secondly, there needs to be a series of response 
actions that we need to be able to provide to decision-makers 
and the President if required. Thirdly, I think it is the idea 
of resiliency. You cannot stop everything. You cannot defend 
against everything. You have to have a degree of resiliency 
that is built into your networks for this.
    Senator Rounds. Any other thoughts?
    MajGen Reynolds. Sir, I would just completely agree with 
General Nakasone. I think what you heard all of us say is that 
our number one priority is the defense of our networks. From a 
deterrence perspective, ensuring that no matter what they send 
our way, we can deter and, if necessary, build a new network 
somewhere else when we need to. Resilience I think is what we 
are all seeking.
    Senator Rounds. I think the Defense Science Board made it 
clear that at this stage of the game, as General Nakasone 
indicated, the attacker has the advantage, furthermore that we 
should be prepared here to make it as expensive as possible for 
them to make that attack. Second of all, based upon having an 
attack being successful, that we have to be able to rebuild and 
that we have to have resiliency. Would anyone like to comment 
on that and our capabilities today to provide that resiliency? 
Where are we at with regard to resiliency within our systems 
today?
    Maj. Gen. Weggeman. I will dive into this one.
    I think what I would like to see and where I think we are 
going is we are focusing a lot more today than we were in the 
past on mission system resilience. We are focusing on both risk 
and threat-based resilience. Our commanders are now involved in 
making sure that they can fight hurt, as we like to say in the 
Department of Defense. All the things that all the services are 
working on are those PACE [Primary, Alternate, Contingency, and 
Emergency] plans to make sure that we have a primary and 
alternate, contingency, and emergency capability on those key 
systems. We are going to commanders first and helping them 
translate their missions into the IT [Information Technology] 
systems so that we can get a key functional analysis of what 
cyber mission systems we need to prioritize our defenses 
against.
    I think that transformation of getting away from networks 
in a COM [Command] focus to resiliency based upon commanders' 
missions and the key things we have to do as the Department of 
Defense for our Nation is paying huge dividends. Obviously, 
there is a lot of ground ahead to hoe but I think we are making 
the investments. I am seeing the commanders talk about 
cybersecurity defense and resiliency far more now than they did 
3 years ago.
    Senator Rounds. Thank you.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    So you know, the Russian operation created or showed--
``exposed'' is the word--a serious vulnerability on our part. 
As you all have testified, we have created a Cyber Command and 
built the Cyber Mission Forces to operate in cyberspace, but as 
Admiral Rogers, the Commander, has recently testified, we have 
not trained or tasked these forces to detect, to counter, and 
to go on offense to conduct this kind of information operation 
that the Russians did. Our cyber forces are focused on the 
technical aspects of cybersecurity, defending our networks from 
intrusions, as you all have stated that you are tasked to do, 
and in some cases, penetrating adversary networks. We are not 
focused on the content of the information flowing through the 
Internet.
    You know what Putin is up to. The Chinese are up to it as 
well. What can we do to make Putin feel enough pain to cease 
his aggression in cyberspace?
    VADM Lytle. Sir, there are a lot of things we could do, and 
it gets back to the deterrence topic we were talking about 
earlier. We need to be able to make all of our systems--and 
this is not just the DOD system, but across the Nation, 
government systems--more defensible and more resistant to this 
type of activity to keep the easy way in out of our systems. 
Right now, we do not have that level of cybersecurity awareness 
across the world.
    We do have a number of efforts. We do not, obviously, focus 
just on the defensive side from the Cyber Mission Force point 
of view. There is a whole offensive capability that we could 
talk about in a classified environment that looks for 
activities, looks for ways, and sets up options for the 
President to take in case he wants to do something about things 
like this.
    Senator Nelson. Describe in this open session what you can 
about some of those offensive capabilities.
    VADM Lytle. The capabilities that can be prepared to deny 
adversary access, to manage adversary systems, to cause havoc 
amongst adversary systems--those are a number of things you may 
be able to do within cyber using cyber techniques that cause 
kinetic effects on the other end of the wire.
    Senator Nelson. Do you all see any natural specialization 
in each of your forces, natural roles that you would play?
    Maj. Gen. Weggeman. Senator, I cannot answer on behalf of 
all of my colleagues. I think as an airman--and I hope I speak 
on behalf of my colleagues. We have the air domain and the 
space domain. We are air-minded. We are space-minded. I think 
what we bring is the unique perspective in terms of the 
application of cyber maneuver and effects related to air 
systems and maneuver in, from, and through the air domain as 
well. I think that air-mindedness on both our offensive and 
defensive teams certainly supports very well our air component 
commanders around the world, but also offers air-mindedness to 
land, maritime, and space component commanders as well. I think 
the Army does the same.
    If you look across the totality of the Cyber Mission Force, 
there is a service team represented in each of the combatant 
commands there. We have air-minded teams representing every 
combatant command in support of them with the exception, of 
course, of Special Operations Command because the Marine Corps 
has them all to themselves. I think that diversity of what each 
service brings is actually being in play as the teams have a 
diverse presentation to the combatant commands.
    LTG Nakasone. Senator, if I might. The Department has been 
open in terms of our actions against ISIS in cyberspace. We 
have Joint Task Force Aries, which I command, stood up to take 
on ISIS in a manner that Vice Admiral Lytle recently described.
    To the point of your question, I think what we are learning 
is the importance of being able to counter our message, being 
able to attack a brand, in this case, attack the brand of ISIS. 
Then the other thing is how do we do this with the speed and 
accuracy that is able to get at an adversary that 6 months ago 
was moving uncontested in cyberspace. I think we have learned 
those things over the past 6 months, and I think that we as a 
Department have done that much better.
    Senator Nelson. Have you all thought, since you need a lot 
of cyber talent, of putting Reserve cyber units located in 
places like Silicon Valley, Boston, and Austin?
    VADM Gilday. Yes, sir. In fact, we have that presence now 
and continue to make additional investments through DIUx 
[Defense Innovation Unit Experimental], which I know you are 
familiar with, in terms of helping the acquisition process get 
new technologies into the hands of the warfighters around those 
typically slow moving acquisition processes that currently 
exist. We do have a presence in those areas.
    Senator Nelson. A Reserve presence?
    VADM Gilday. Yes, sir. Navy has a Reserve presence.
    LTG Nakasone. Senator, if I might add to that. The Army is 
building 21 cyber protection teams, and what we have learned 
and what we are attempting to do is to take places like 
Adelphi, Maryland, take places like Boston, take places like 
Pittsburgh and not only build teams there but bring the 
training to them. This is a new, I think, lesson that we have 
learned as the Services. We have to do training a little bit 
differently for our Reserve component. Not everyone can take 
off from their homes and leave for 6 months to do training in a 
place like Fort Gordon, but if we can bring the training in a 
mobile aspect to places like Maryland, places like Pittsburgh, 
places like Massachusetts, we found it to have some success.
    Senator Rounds. Senator McCaskill?
    Senator McCaskill. I might add on that topic that we have 
some really terrific National Guard cyber units. We have one in 
Missouri that is now training across the country, a toolkit 
that they developed. The guy who runs that unit does the 
cybersecurity for Monsanto on a full-time basis. He really 
knows what he is doing. I think we need to build on that.
    On that topic, General Weggeman, at the full committee 
hearing, Senator McCain brought up with Admiral Rogers his 
concern that--and he confirmed this, by the way--that out of 
127 Air Force cyber officers that completed their first tour on 
CYBERCOM Cyber Mission Force, none went back to a cyber-related 
job. Now, that is an alarm bell as far as I am concerned. Would 
you address that briefly?
    Maj. Gen. Weggeman. Yes, Senator, absolutely, and I was 
expecting the question. I appreciate Senator McCain's inquiry 
because it gets to a really, really important problem, which is 
how do all the services effectively manage force management and 
balance the weight of effort we have between growing and 
specializing a Cyber Mission Force, which is in its growth 
spurt right now, and balancing that against the broader 
enterprise needs of our services for a cyber IT [Information 
Technology] workforce in our cybersecurity service provider 
roles, our cyber schoolhouses, and also balancing with the 
professional development of our airmen and civilians that need 
to attend professional military education, to go to advanced 
cyber schools like the Cyber Network Operations Defense Program 
at NSA and also our Cyber Weapons Instructor courses, two great 
examples, which pays huge dividends when they come back. Those 
are the cyber jedis when they get back. How do you properly 
manage that balance?
    I do not have a lot of insights into the number without all 
the math that went into it, but I can tell you where we are at 
now, and that is we have the policies and the strategic 
framework in place where we are looking at two general officer-
led bodies that manage our force down to the airmen. What I can 
tell you and what I know to be true now is about one-third of 
the force is going from CMF to CMF each year, which is about 
where we need to be to balance build in the broader operational 
needs. If you think about a 3-year rotation, that is about all 
you really want to do is one-third, one-third, one-third a 
year. That allows us also then to get the rest of the bench in 
cyber, across the enterprise, talent and experience so when 
they come back, we have the force that we need on the CMF.
    I do believe starting in fiscal year 2013, fiscal year 
2014, we may have had our eye off the ball a little bit, I 
think all the Services were just kind of sorting out how do we 
stand up the enterprise that does the organize, train, and 
equip.
    Now the first thing I did when I took command, as an 
example, is I put a directive in place that said every person 
that is going to PCS [Permanent Change of Station] off a Cyber 
Mission Force team that is not going to another Cyber Mission 
Force team now comes to me personally for review and approval.
    Senator McCaskill. Well, I am glad that you are aware of it 
and working on it.
    I got to tell you we are always blessed around here by our 
military fellows, and that is for all the military fellows that 
are in the room. I have got a really good one back here behind 
me. He tried to chart the national cybersecurity structure. 
Yikes. I mean, I have been studying it now for several 
hearings, and every time I have to start over again.
    Here is what I am really worried about. I am also worried 
about how many vacancies we have in the sector-specific agency 
structure. If you look at USD [Under Secretary of Defense] 
policy, vacant. We have an acting. A principal USD policy, 
vacant. Acting, none. You know, Principal Deputy ASD-HDGS 
[Assistant Secretary of Defense-Homeland Defense and Global 
Security], vacant. Acting, none. There are a lot of problems 
with nobody home in a lot of these jobs.
    What I am really worried about is where we are plugging in 
the private sector. The only place we can find that the private 
sector gets plugged in is this unified coordination group. Now, 
I guess you guys are all familiar with that? Yes? No? Okay.
    What is weird about that is we all know how we got to plug 
in the private sector because we are likely to be attacked in 
the private sector, not necessarily your all's networks. I 
mean, that is the cyber warfare that I think probably keeps 
some of you up at night in terms of the vulnerabilities in the 
private sector.
    The only way it gets stood up is if directed by the NSC 
[National Security Council] or requested by two agencies. In 
other words, it is kind of ad hoc. Well, that is not the way 
they do it in the UK [United Kingdom], especially in light of 
what we have seen in the last 24 hours. Obviously, we need to 
be really on guard against what is going on cyber in terms of 
preparing for even lone wolf attacks that the UK just suffered.
    Can any of you address this structure where we do not have 
a standing group where we get plug-in from the private sector 
in terms of our cyber national security structure?
    VADM Lytle. Senator, the DHS is really the responsible 
player in that game through the end kick and their connections 
with all the sector-specific agencies and managing that, 
monitoring that. What we do is we work through DHS to the 
private sector for the most part except for the defense 
industrial base area for that particular sector. DHS has the 
end kick, has the connections with all the major sectors of the 
private sector, and that is the primary way to go through that.
    Senator McCaskill. Okay. According to the NCIRP [National 
Cyber Incident Response Plan], when a cyber incident affects a 
private entity, the Federal Government typically will not play 
a role in this line of effort, but will remain cognizant of the 
affected entity's response activities.
    I am ranking on Homeland Security. I get the different hats 
here.
    You know, you guys have a reputation of being rather 
siloed. I know that is a shocking revelation to you in this 
hearing. I am just worried about how siloed these charts are, 
and that is the only alarm bell I am trying to sound today. It 
is pretty siloed. I just worry that in this particular area of 
defense and danger, that being siloed is really, really a 
problem, much more so than in other areas where we have been 
traditionally siloed. I am hoping that you all will take that 
back and look at it and make sure that we are having even from 
our military industrial base, if we have enough buy-in on 
something other than an ad hoc basis.
    Thank you, Mr. Chairman.
    Senator Rounds. Senator McCaskill, before you leave, I just 
wanted to make one--after we are done with the first round, I 
am going to ask General Nakasone or one of the others to 
explain how they are coordinating among themselves in terms of 
that flow chart. It made sense when each of them has had a 
chance to visit with me. I would like to have them share it 
with the entire committee. If you have got the opportunity to 
stay for a few minutes, when Senator Gillibrand has completed--
thank you. We will have them share it for the record for sure. 
Okay?
    Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    Admiral Lytle and General Nakasone, what is the status of 
the inclusion of the Army National Guard cyber protection teams 
in the Cyber Mission Force? My understanding is that the Army 
and CYBERCOM have signed off on this. If so, what is the 
holdup?
    VADM Lytle. I will just do a quick start-off. The National 
Guard, Air Force and Army, and the Reserve teams are being 
fully integrated into the Cyber Mission Force. We talk about 
the 133 teams. Actually on top of that, there is the Guard and 
Reserve that are added to that skill set.
    You kind of alluded to earlier in a previous question the 
Guard and Reserve folks bring some incredible talent to the 
game. A lot of these folks are doing this in their civilian 
jobs, and they are looking for a way to do it in their military 
hat. From the Guard side, they offer that capability to not 
only do it under their State authorities, but also, when called 
up, to do it under the title 10 authorities of the DOD.
    Paul, would you like to add?
    LTG Nakasone. Senator, in terms of the 11 Guard teams that 
the Army is building now, the Army has approved the request to 
make them part of the Cyber Mission Force. It is our 
understanding that the Department of Defense will meet on that 
and likely approve that in the very near future.
    In terms of the man, train, and equip piece, which I think 
is even more important that you are asking about, so right now, 
we have met with the Guard on several occasions. The last week 
of January was our last total Army cyber summit. The next one 
will be on the 5th of June. We have three National Guard teams 
right now on Active Duty, 170, 171, and 172. They are training 
for the next 400 days with us. We have already begun to build 
teams such as 173, which you are very familiar with--that is 
from the State of New York--will be next on that. We have a way 
ahead for the training where we will have all the Guard teams 
trained by the end of fiscal year 2022. We will have them all 
to full operational capability by 2024. We have the ability to 
man them. We have the ability now to train them, and now we are 
working on the equipping piece as well, Senator.
    Senator Gillibrand. They are officially part of the Cyber 
Mission Force.
    LTG Nakasone. They are officially part of the Army's 
contribution to it. We are waiting for the Department of 
Defense to give that okay.
    Senator Gillibrand. Because is that not important so they 
can receive their own equipment and they will be offered 
training spots if there is availability? Is that not required 
to like move them forward?
    LTG Nakasone. No, ma'am. We have already started with the 
training. We have the training there. We have training seats at 
Fort Gordon. We are working the equipping piece of it. It is 
more in terms of making them part of the broader force. Again, 
we will continue to move forward with that.
    Senator Gillibrand. Do you think we are using them to their 
fullest potential right now? Do you feel like we are 
integrating on a level that we ultimately want to be?
    LTG Nakasone. I think there is always room for improvement, 
Senator.
    Let me go back to Joint Task Force Aries, which I command. 
Ten percent of that force today is a Reserve component. Among 
our best tool developers is from the U.S. Army Reserve. As we 
take a look at the National Guard teams that we brought onto 
mobilization today, some very high talent. The things that we 
have to do is we have to capture that talent. Being able to 
build a database, of which we are doing right now with the 
leading university, very important. I think the last piece of 
it is are we able to recognize the very unique skills that we 
may need in our Nation's crisis.
    Senator Gillibrand. Do you think that the Guard could ever 
serve as a conduit on cyber between state, local, and Federal 
Government, as well as the private sector, because of their 
unique authorities?
    LTG Nakasone. Senator, that is an excellent point, and I 
certainly believe that. They have long-term presence in 
communities. When you take a look at something like critical 
infrastructure, who better than someone that lives in the 
community to have an understanding of that? Who better to 
understand the state? Who better to have the relationships that 
have been developing there?
    Senator Gillibrand. I want to ask you a bigger question 
because I have been asking this in all our cyber hearings. I 
asked it earlier today. We now believe our election 
infrastructure is critical infrastructure. We were just hacked 
by the Russians with the intent to undermine our democracy. I 
believe there has to be a federal component for elections 
moving forward. I believe although elections are run by states 
and are part of the purview of states' rights, there needs to 
be at least some level of certification that each state has a 
capability and technological expertise to guarantee they cannot 
be hacked.
    Do you see the National Guard perhaps fitting in this role? 
Because, obviously, this will be something you can consider 
being under Homeland Security, but the capabilities in cyber 
are really housed in DOD. We have the state of the art 
technology. This is a foreign power trying to attack us. Some 
believe, including Chairman McCain, that it is on par to a 
declaration of war.
    Would it be feasible or interesting or beneficial if 
perhaps the Guard would be that conduit to being able to have 
the most state of the art cyber defenses capable and available 
to it to be able to use that expertise in each state?
    LTG Nakasone. Senator, if the Nation was to decide that 
there was a 17th sector for critical infrastructure, I think 
that obviously the means are in place for the Department of 
Homeland Security to request support from the Department of 
Defense through the means that are there such as defense 
support of civil authorities. I am sure that with that, that 
would be considered at the time.
    Senator Gillibrand. Would you specifically look to the 
Guard maybe to perform that role?
    LTG Nakasone. Again, I would leave that to the 
policymakers. I think my role as the operational commander is 
to make sure that whatever decision is made to the utilization 
of the Guard, the Guard is very well trained and very well 
equipped and ready to meet those needs.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Senator Rounds. Thank you.
    Let us go back a little bit. It seems to me that there may 
be perhaps a lack of understanding in terms of how the entire 
force is set up. When we are training 133 different teams and 
we are doing it across the different forces, could you share 
with us how they share, coordinate, work together side by side, 
how the teams are made up, and how you are utilizing them and 
the reasons for it?
    Maj. Gen. Weggeman. Senator, I will take a stab at that.
    I think we talked about it briefly in your chambers.
    Senator Rounds. Yes.
    Maj. Gen. Weggeman. I do not want to go too deep, but just 
to set the stage, the three unified command planned missions 
that we have in the Department of Defense for cyber that were 
mentioned by all of our opening statements are to defend the 
Nation in, from, and through cyber against an attack of 
strategic consequence, to provide all-domain-integrated effects 
in support of our combatant commanders, and then to defend our 
networks but also to have defensive forces that defend our 
mission systems and our own space against adversaries in our 
own terrain.
    The three cyber mission team types were then designed 
against each of the mission types. You have national mission 
teams, which are the cyber and cyberspace forces. If the 
Russians, as an example, have a cyber force that are looking to 
impose costs on us, like we have been talking about, then our 
national mission team's job is to go into red space and cause 
effects and impose costs against that force. Cyber v. cyber in 
cyberspace.
    The combat mission forces, the CMTs, are designed to 
provide all-domain integrated effects for what the combatant 
commands' problems are in their battlespace. A great example is 
General Votel in the ongoing campaign in Joint Task Force OIR 
[Operation Inherent Resolve] against things he needs to do in 
Mosul and Iraq, et cetera. Aligned with his scheme of maneuver, 
whatever we can do in cyber to help him achieve his objectives, 
that is what the combat mission teams do. They are an offensive 
force.
    The last force and the majority of the force is our cyber 
protection forces. They are an Active force that is designed 
for Active defense to operate in our weapons systems and our 
networks to pursue and hunt for adversary presence and then 
clear and remediate that terrain and hold it so that they 
cannot get back in. That is what those defensive forces do.
    What we did back in 2013 is we said we are going to train 
all three team types using people from all four services in the 
standardized set of joint work roles and standards. Every team 
has a standard unit of action and a standard unit of employment 
that looks exactly the same whether it is manned by marines, 
airmen, soldiers, or sailors. That is how they are--they are 
fungible in terms of they are the exact same thing. If you have 
a combat mission team, it is 68 people in the same work roles 
doing the same things. That allows us to have the 
interoperability amongst the soldiers, sailors, airmen, and 
marines on the teams. They are all doing the same things. They 
have been through similar schoolhouses, all trained and 
certified to the same standards.
    Senator Rounds. What is the benefit of having multiple 
forces on the same team? What benefits does that bring?
    VADM Lytle. It is the joint force concept, Senator. Having 
all the services represented on the same team or have teams 
made up of an entire service that are interchangeable, as with 
our other joint forces, it brings the particular nature of the 
service involved. We have Navy teams that could--we have the 
same skill set built, but they apply that skill set to 
different systems. The Navy teams may understand naval systems 
better. The Air Force teams may understand Air Force systems 
better. Even though the skill set and the makeup of the team 
are designed to be exactly the same so they are interchangeable 
and the initial training is the same, they can then branch off 
and get specialized in particular systems because as with any 
cyber defensive team, you start off with the basic level of 
training. You start off looking the same. You start off being 
able to defend whichever. Then you need to learn the system 
that you are defending and know that system inside and out. 
Having the ability of those people to move about--this also 
creates a better career path for cyber warriors so that as they 
move between service jobs and joint jobs, they can continue to 
stay in that cyber field, and there is a broader space they can 
work in.
    Senator Rounds. You have to put together almost--well, more 
than 6,000 members of these teams and you are going to do it in 
a very short period of time. Part of that requires security 
clearances. Can you share with us where you are at in terms of 
getting security clearances? I know contractors are telling us 
right now that there is a significant backlog for them. If we 
are going to have them deliver work on a timely basis, they 
have to have individuals who have security clearances. Do you 
have that same challenge? Can you share that with us, please?
    MajGen Reynolds. Sir, yes, we do. We are actually having to 
adjust service manpower processes so that we can identify folks 
who are coming to the Cyber Mission Force early enough so that 
we can get them the top secret clearance and the poly and the 
access that they need. It has been a challenge in growing the 
force rapidly.
    The other thing that I would just add to the previous 
question, sir, is that part of our responsibility--I think all 
of us--is that aside from what we contribute to the Joint 
Force, we have a responsibility to teach cyber inside of our 
service. It is not a small mission. Bringing that skill set 
back, in my case, into the MAGTF--nobody is going to do that 
better than another marine. That should not be lost because we 
are only 133 teams, but we really need other folks throughout 
the rest of the service to understand cyber in order to 
properly integrate it, sir.
    Senator Rounds. Senator Gillibrand?
    Senator Gillibrand. I have no questions.
    Senator Rounds. Let me just continue on for just a minute 
here. I am just curious. Can you quantify the time which is 
lost or the delay for bringing people on the team, allowing 
them to move forward with their competencies based upon not 
being able to get a security clearance in a timely fashion? Or 
if you would like, I would take that for the record.
    VADM Gilday. Sir, I think it depends on each person in 
terms of whether there are complicating factors like foreign 
contacts, for example, that lengthens the security process. 
What we are trying to do is begin that clearance process as 
early as we can, as soon as we bring those people on board in 
the Services so we can get that lengthy process moving quickly.
    The trades with that lengthy process, of course, are the 
insider threat that we want to avoid. There is a balance there 
that this process is methodical and it is deliberate for a 
reason. It is just something that we have to deal with and 
factor into our team growth.
    Senator Rounds. Senator Gillibrand?
    Senator Gillibrand. I do have one extra question for 
Generals Nakasone and Weggeman.
    Congress gave you authorization to direct commission 
servicemembers with cyber experience. I understand that both of 
your services are now using this authority. Please tell me 
about how you are using this authority. It has come to my 
attention that the Reserve components are not included in these 
efforts perhaps because section 502 of the fiscal year 2014 
NDAA [National Defense Authorization Act] regarding 
constructive service credit for cyber warriors did not include 
the Reserve component. Is that the case?
    Maj. Gen. Weggeman. Ma'am, the first question is, yes, we 
are working constructive service credit or what we call direct 
accessions in the Air Force. Again, from what I know to be 
true--it is a little outside of my lane as the operational 
commander--I do not think we have a direct accession yet, but 
we have an Air Force cyber talent management that is in work 
with our headquarters Air Force A-1 and our SAFs [Assistant 
Secretary of the Air Force], chief information officer, SAF-CIO 
[Assistant Secretary of the Air Force-Chief Information 
Officer]. That is in work.
    I do not know the answer to your second question about the 
reserve----
    Senator Gillibrand. Why they were left out. Okay.
    LTG Nakasone. Senator, in terms of the direct commission 
program, so we have put a program together. It will be 
announced later this summer. We anticipate our first direct 
commission needs being announced this fall and into the force 
by the spring.
    As far as your second part of your question, I would like 
to take that for the record just to come back.
    Senator Gillibrand. That is fine.
    [The information referred to follows:]

    The NDAA for fiscal year 2017 granted the Service Secretaries the 
authority to conduct a direct commissioning pilot program in order to 
recruit unique talent and specialties into our cyber formations. Under 
existing law (10 USC 533, as modified by section 502 of the NDAA for 
fiscal year 2014, and 10 USC 12207), however, only Active component 
officers with cyberspace related experience or advanced education are 
eligible for constructive credit (up to three years). Thus, an 
individual directly commissioned into the Reserves under the pilot 
program would enter the service as a Second Lieutenant. We are working 
closely with the Office of the Secretary of Defense in an effort to 
extend constructive credit to the Reserve component.

    Senator Gillibrand. I had a third related--was the 
authorization issue resolved, and would you include them in 
your direct commissioning efforts? Do you have the 
authorization that you need to do this?
    LTG Nakasone. Again, if I might, if I can take that for the 
record.
    Senator Gillibrand. You will do that. That will be helpful.
    [The information referred to follows:]

    The authorization issue was not resolved and the Office of the 
Secretary of Defense is currently working with Congress to include 
language in the NDAA for FY18 to address the issue.

    Senator Gillibrand. Thank you, Mr. Chairman.
    Senator Rounds. Thank you.
    I want to just touch on something which several of these 
Senators have brought up, and I just want to clarify it and 
give you the opportunity to differentiate. Let us just take the 
difference between infrastructure and identify election 
infrastructure, which is out there, versus an electric grid 
infrastructure. Homeland Security clearly would take the lead 
with regard to an electrical grid, which is identified as a 
critical infrastructure. Where would the DOD fit in with regard 
to responding to an attack on an electrical grid as part of our 
Nation's critical infrastructure versus Homeland Security?
    VADM Lytle. The PPD-41 process for the Homeland Security 
aspect would cover that initially. If the DHS or DOJ 
[Department of Justice] required assistance from DOD, then they 
can make their assistance up through the DSCO process and the 
President would make the call as to whether the DOD responds 
and assists in that.
    Senator Rounds. You basically, under today's policy, would 
not respond on a critical infrastructure attack unless 
requested back up through the manual channels. There is no 
preset, technically designed system which would automate a 
response or a protection mechanism.
    VADM Lytle. Correct, sir.
    Senator Rounds. Is that a seam in the system which has to 
be explored further or more deeply?
    VADM Lytle. Yes, it could. Part of a cyber strategy to be 
laid out could address that. Looking at the process to decrease 
the cycle time to any response, if necessary, could be looked 
at. There is a lot of process we have to go through to respond.
    There are a lot of other issues that would need to be 
addressed with the legality of DOD operating on a private 
entity or the private entity would even allow the Department of 
Defense to work on its network. There is a number of issues 
that the administration should work out.
    Senator Rounds. Once again, you are talking about a policy 
which has to be developed yet.
    There was a question earlier that I guess I was going to 
talk about, and that is with regard to weapons systems 
vulnerability. Section 1647 of the fiscal year 2016 NDAA had 
required a cyber vulnerability assessment of all major weapons 
systems by the end of 2019. I am just curious how each of your 
commands are supporting those assessments, if you are, and if 
you are not, are you aware of them and who is?
    Maj. Gen. Weggeman. From the Air Force perspective, we have 
begun in earnest on the cyber vulnerability assessments. Air 
Force Materiel Command has stood up an office called Cyber 
Resiliency of Weapons Systems, or the CROWS office. They are 
what I would call our execution arm for the NDAA 1647 
requirements. As Air Force cyber what we have done working with 
the CROWS office is we kind of train the trainers. Our cyber 
protection forces and our cyber service security protection 
forces have begun training and educating them on how to do a 
proper mission-based systems translation for what is key 
terrain on a weapons system and how to do a vulnerability 
assessment.
    The CROWS office has two primary missions, which were in my 
written submission. The first thing we want to do is they want 
to figure out how to bake in cybersecurity and defense bolted 
on an ongoing acquisition and future acquisition programs and 
systems that they manage, our systems of record. The second 
thing is they want to do a mission and threat-based 
prioritization of shutting the doors and windows that are open 
in existing mission systems in partnership with us and our 
Service reallocated cyber protection teams. I believe the 
number that we have in execution for fiscal year 2017 is 50 
systems we are doing vulnerability assessments on in fiscal 
year 2017, Senator.
    LTG Nakasone. Senator, the Army is very aware of 1647. We 
have moved out in terms of looking at our key weapons systems. 
This is a point where I guess I would say we have also learned 
a lot from looking at our service cyber components that are to 
our left and our right, particularly the Navy where we have 
looked at how the Navy has done this, their methodology, the 
way that they have a governance structure set up because it is 
more than just looking at the vulnerabilities. It is how do you 
have a governance structure. How do you write the contracts? 
How do you ensure that what you do identify is actually 
mitigated in the future? This is one where I would say we have 
tried to get out of our silo and look to our left and our right 
to see what the other services are doing and share some 
information.
    Senator Rounds. Let me just move on. I am just going to ask 
another one. Section 1650 of the fiscal year 2017 NDAA required 
the cyber vulnerability assessment of the Department of Defense 
critical infrastructure by the end of 2020. How are each of 
your commands supporting those assessments, if you are, and is 
there anything that you can share with us in this unclassified 
forum?
    VADM Lytle. Senator, I would add 1650--that is actively 
being engaged with the OSD, AT&L [Aquisition, Technology, and 
Logistics], and the Joint Staff, and the Services in terms of 
identifying those installations as required by 1650, and that 
process is definitely in play. It is being worked on.
    Senator Rounds. Let me finish with this. I think sometimes 
when we get together, you are expecting that there are certain 
questions which are being asked. Are there certain points that 
you would love to get across and sometimes in the forms that we 
are using, particularly in these subcommittees, you do not have 
that opportunity. I would like to take just a few minutes right 
now, and if you have the specifics that either you feel need to 
be addressed that have not been addressed with questions that 
have occurred here, areas which you want to reemphasize or you 
believe that should be emphasized that we have not taken into 
account, this is an opportunity for each of you to--let me just 
say--freelance somewhat. If you would care to, in terms of 
additions to your statements and so forth, this would be the 
opportunity for you to do so.
    VADM Lytle. I will take an initial step.
    Senator, one thing is on our Cyber Mission Force readiness, 
we have initially been using measures of IOC and FOC based on 
some percentages that we cannot get into in this forum. As we 
mature that cyber force readiness measure, we are going to move 
from just kind of a rote measure of people and training to 
actual readiness. Our concern is as we get those initial forces 
in place in the Cyber Mission Force and the rotations start to 
occur, that we transition that from a full-out effort to get to 
that first level to a level that we could sustain and maintain. 
We do that by measuring readiness through the Defense Readiness 
Reporting System, and it is based more on their mission roles 
and their capability to do the mission than actually having 
bodies in seats.
    As we transition to that--and we just finished the cyber 
training transition plan that moves the training responsibility 
for the Cyber Mission Force over the next 2 years from U.S. 
Cyber Command to the Services--we get into the more normalized 
mode of man, train, and equip by the Services to provide for 
the Joint Force. We need to make sure the services are online 
and resourced and capable to keep that pipeline rolling on the 
Cyber Mission Force, to keep that readiness up.
    Senator Rounds. Anyone else?
    VADM Gilday. Sir, I will make a few points.
    Three points from my view what is going very well. I think 
personally I would say in terms of standardization across the 
force, in terms of cooperation across the Joint Force, and the 
synergy of the Joint Force, I think we are headed in the right 
direction and have been for a period of time.
    I think in terms of the second point, the maturation of the 
force, I think on the defensive side, 2 years ago we could not 
stand on our own two legs to take on defensive incident 
response missions on our own without significant help from, let 
us say, NSA. We are now doing those missions on our own and 
some pretty significant problem sets. I think that belies the 
fact that we have been headed in the right direction.
    Lastly, I would make a point about partnerships. I think 
across the U.S. Government I think with industry and I think 
across the services and again with allies and partners, we have 
made significant gains in terms of leveraging those 
relationships and improving the force.
    Senator Rounds. Anyone else?
    LTG Nakasone. Senator, I would offer, particularly as 
Admiral Gilday said, a lot of progress. I would say within my 
own service, a lot of momentum. Some decisions that were made 
by my predecessors and by senior Army leaders that stood up a 
branch, established a schoolhouse, invested in infrastructure 
and capabilities, and also put money towards people--that has 
really paid off for us.
    The key piece at the end of the day for me is being able to 
ensure that we do talent management right with all of that. 
Foundational to us is to be able to keep our best people--not 
all of our people, but our best people. That is where I think 
that myself and all of the commanders are going to be held to 
make sure that we continue to make this an attractive place for 
our young people to continue to grow and contribute to this.
    Maj. Gen. Weggeman. Just to pile onto that, Senator, I will 
say it a little bit differently. The most critical element in 
successful cyberspace operations is not copper or silicon. It 
is carbon. We have to be really, really focused on the human 
capital that it takes. We need manpower. We are fielding 6,000-
plus for a maneuver and effects force, but there are 
operational levels of command and control. There are those that 
do other security and defense operations. There are all of the 
other carbon DNA [deoxyribonucleic acid] footprint we need 
around that to make it work. If we do not have the proper 
manpower at all echelons of a command and control framework, 
then it is only as strong as its weakest link. I echo what 
General Nakasone just said.
    One other thing, just to highlight Senator Gillibrand's 
point about the Guard, I want to give an example. You have been 
talking about how do we do discovery learning on the role of 
DOD and specifically our citizen airmen, citizen soldiers to 
help in the private sector SCIR support. I will give you an 
example that we can provide you some further information on.
    The 262 cyber operations squadron of the Washington Air 
National Guard has done discovery learning and has a process 
for how they can do security and defense, partnering with their 
domestic electric power companies, and they are now working 
their way through how they do it with a private sector company 
in the same state, working with a band of lawyers, of course, 
and the title 32 status and what we are offering. I think that 
is a great exemplar of the power to be.
    I would offer a slide for the committee that I had printed 
out. It is a slide that just shows--one of our cyber protection 
teams is a Guard team already in the Active build, and they 
have already been on two rotations. I had the team lead build a 
slide of where all the citizen airmen came from in their 
private sector jobs on that mission. The slide is pretty 
powerful when you see the 18 to 21 cyber and IT companies and 
power companies that are on it. I would just offer it to you. 
It is kind of an inspirational slide.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Rounds. Thank you. Very good.
    MajGen Reynolds. Senator, thank you for the question.
    I think so much of this has already been said, but I think 
that it has been important for us to realize that cyberspace is 
a brand new warfighting domain. To General Weggeman's point, 
starting with that 6,000-plus number was really just a start. I 
want to thank the Congress for--some of the growth that we 
recently got this year in the Marine Corps is going to fighting 
in the information domain. It is information warfare. Some of 
those are going to be cyber protectors in the MAGTF that I 
would coordinate very, very closely with as Marine Forces 
Cyber. Those are also offensive forces in electronic warfare. 
How do you bring together electronic warfare, cyberspace, 
information operations, fighting in the information domain? We 
are investing in that in the Marine Corps, and I want to thank 
you for the end strength that we got.
    Inside Marine Forces Cyber, I was just thinking the agility 
that we need to retain these very, very talented people--we 
have to think of new ways to do that. It is very, very 
difficult to compete with industry on this. We send these kids 
to--I call them kids. They are a lot younger than I am. We give 
them the best training. We give them top secret clearances, and 
importantly, we give them phenomenal experience and they are 
very, very highly recruited. Having the retention incentives 
and not just for the uniformed but for the civilian marines as 
well--so having more flexibility in retention incentives for 
these folks is important to us because I think most of them, in 
my experience--they want to stay a marine. Hence, the 
cyberspace MOS I think is going to improve a lot for us in the 
Marine Corps.
    One of the things that we are dealing with right now is we 
have to compete. There is no more direct hire of retired 
marines. In the Department of the Navy, I got to compete. I 
have to compete a job before I can direct hire somebody that I 
know already has the clearance, already has the skill set, 
already has the experience. I have to compete that job before I 
can direct hire. We are working that. We have to work that in 
the Department. It is a policy issue for us.
    Then finally, sir, just contracting agility, being able to 
quickly employ a tool on the network that we know is going to 
provide us the greatest defense is so important.
    Thank you, sir.
    Senator Rounds. I appreciate all of your thoughts on this. 
This is one step forward as we move not just into the oversight 
but also into the legislative side of our responsibilities. I 
understand the need that you have expressed with regard to 
being able to move with agility with regard to contracting for 
services and products.
    We have got a small university in South Dakota, Dakota 
State University at Madison. Several years ago, they began a 
process that was specific to what they thought would be a 
limited amount of interest in, which was Internet security for 
financial institutions, which now has morphed into something 
with basically 1,000 different students that have an interest 
in that, but also with regard to cybersecurity itself and with 
relationships with the government today, will continue to grow.
    It is fascinating to see how these young people have an 
interest not just in the private entity side of things, but 
they do feel a sense of patriotism and a sense of desire to 
learn and to move forward. If we can make something like that 
happen, whether it be on Reserve component or on a National 
Guard component, I think we should be exploring that as well as 
an additive to the ongoing full-time force as well.
    I most certainly appreciate your time today. Your service 
to our country once again is greatly appreciated. I do not 
think we can say that enough times.
    Unless someone has anything to add at this point--yes, sir, 
Admiral?
    VADM Lytle. Senator, just one more add, just an offer. I 
think it is already being worked, but this kind of relates to 
how we do operations and how the National Guard operates is our 
cyber guard exercise coming up. It is a day that we can bring 
you all down and have the entire subcommittee or as many as 
possible come down and actually see how the DOD works with DHS 
and DOJ and the Guard and Reserve units in a large exercise 
environment. I really look forward to having you down there, 
sir.
    Senator Rounds. We have been advised of that, and we are 
looking forward to it. Thank you.
    With that, I want to thank all of our individuals that are 
here with us today. Thank you once again for your service, and 
thanks for taking the time to come here prepared to answer our 
questions.
    At this time, we will adjourn this committee meeting.
    [Whereupon, at 3:46 p.m., the subcommittee was adjourned.]

    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Michael Rounds
                       security clearance backlog
    1. Senator Rounds. For the Department of Defense: What is the 
current estimate of the average backlog time for the following three 
categories of personnel who have applied for an initial Top Secret 
security clearance: military, government civilian, and contractors?
    Mr. Robert Work*.

                                                                    Current Inventory
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                    Contractor                       Civilian                        Military
                                                         -----------------------------------------------------------------------------------------------
                   Initial Top Secret                                       Avg. Days                       Avg. Days                       Avg. Days
                                                            # Pending        Pending        # Pending        Pending        # Pending        Pending
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total...................................................       29,804          255 days         7,886          259 days        56,953          288 days
--------------------------------------------------------------------------------------------------------------------------------------------------------
Timeliness measured from Received Date to Current Day (29 Nov)


                                                              Fiscal Year 2017 Closed Cases
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                    Contractor                       Civilian                        Military
                                                         -----------------------------------------------------------------------------------------------
                   Initial Top Secret                                       Avg. Days                       Avg. Days                       Avg. Days
                                                            # Pending        Pending        # Pending        Pending        # Pending        Pending
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total...................................................       11,565          413 days         4,327          384 days        31,700          333 days
--------------------------------------------------------------------------------------------------------------------------------------------------------
Timeliness measured from Received Date to Agency Delivery Date


                                                              Fiscal Year 2018 Closed Cases
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                    Contractor                       Civilian                        Military
                                                         -----------------------------------------------------------------------------------------------
                   Initial Top Secret                                       Avg. Days                       Avg. Days                       Avg. Days
                                                            # Pending        Pending        # Pending        Pending        # Pending        Pending
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total...................................................        1,990          488 days           713          458 days         5,230          436 days
--------------------------------------------------------------------------------------------------------------------------------------------------------
Timeliness measured from Received Date to Agency Delivery Date

    *  The Department of Defense determined that the Honorable Robert 
O. Work, Deputy Secretary of Defense, was best qualified to respond to 
this question. Data provided by NBIB 12/1/2017.
                               __________
           Questions Submitted by Senator Richard Blumenthal
  cybersecurity subcommittee hearing on cyber posture of the services
    2. Senator Blumenthal. VADM Lytle, VADM Gilday, LTG Nakasone, Maj. 
Gen. Weggeman, and MajGen Reynolds, former Director of National 
Intelligence James Clapper has stated that he believes the biggest 
threat to national security is cyber. The OPM hacks, 2016 election 
interference, and WannaCry virus that impacted at least 200,000 
computers this month demonstrate our weakness in this realm. As the 
internet touches more and more aspects of our daily lives, the ways in 
which a cyberattack can harm American citizens are growing. In 
addition, our adversaries have repeatedly demonstrated a desire and 
willingness to conduct offensive cyber operations. How do you define a 
cyber-attack? What constitutes an act of war in the cyber realm?
    VADM Lytle. At this time, there is no universally accepted 
definition of cyber attack. Joint Publication 3-12 (Cyberspace 
Operations) defines a cyber attack as ``Cyberspace actions that create 
various direct effects in cyberspace (i.e., degradation, disruption, or 
destruction) and manipulation that leads to denial that is hidden or 
that manifests in the physical domains.'' In the February 2017 final 
report of the Defense Science Board (DSB) Task Force on Cyber 
Deterrence, cyber attack is defined as ``any deliberate action that 
affects the desired availability and/or integrity of data or 
information systems integral to operational outcomes of a given 
organization'' These differing views--whether the loss of integrity of 
data constitutes a cyber attack or whether a cyber attack must result 
in a kinetic effect in the physical domain--highlight the disparity in 
current definitions. Whether a particular attack is considered an ``act 
of war,'' in or out of cyberspace, requires determination on a case-by-
case and fact-specific basis. Malicious cyber activities could result 
in death, injury or significant destruction, and any such activities 
would be regarded with the utmost concern and could well be considered 
``acts of war''. The President retains discretion in this area and 
reserves the right to use all appropriate means to protect the Nation 
and its interests.
    VADM Gilday. The term ``cyberspace attack'' is loosely defined in 
our society. However, I am in agreement with the Department of Defense 
joint doctrine definition for the term ``cyberspace attack,'' which is 
described as ``cyberspace actions that create various direct denial 
effects in cyberspace (i.e., degradation, disruption, or destruction) 
and manipulation that leads to denial that is hidden or that manifests 
in the physical domains.'' To better illustrate cyberspace attack 
activities, it is helpful to contrast them with cyber collection 
activities or espionage. Whereas cyber collection may degrade the 
confidentiality of information, a cyberspace attack is intended to 
remove the integrity and availability of relevant military information, 
warfighting capabilities, networks, or support systems. A cyberspace 
attack may manifest itself in degradation of operations on one end of 
the attack spectrum and actual physical destruction on the other end of 
the attack spectrum. Although the law of armed conflict applies to 
cybersecurity, there remains a lack of international consensus over key 
concepts such as what constitutes an armed attack, act of aggression, 
or use of force in cyberspace. I believe it is important to consider 
each event on a case-by-case basis, in the context of a variety of 
factors, including scale, scope, duration attribution, and intent. 
Ultimately, the President has the authority to determine what kinds of 
acts in cyberspace constitute an act of war. As noted by previous 
witnesses, an event would not need to be deemed an act of war to 
warrant a response, and cyber events do not necessarily require a 
response via cyberspace.
    LTG Nakasone. How do you define a cyber-attack? The Department of 
Defense defines cyberspace attacks as ``cyberspace actions that create 
various direct denial effects in cyberspace (i.e., degradation, 
disruption, or destruction) and manipulation that leads to denial that 
is hidden or that manifests in the physical domains.'' What constitutes 
an act of war in the cyber realm? Our elected leaders, informed by 
senior political, military, and legal advisors, decide what constitutes 
an act of war. Ultimately, it is highly situation dependent and 
determined on a case-by-case basis by our Nation's leaders.
    Maj. Gen. Weggeman. Defining a ``cyber-attack'' or an ``act of 
war'' in cyberspace is a challenging endeavor and one that requires the 
highest attention. While this is an essential task, it is strictly a 
policy discussion that should occur and be decided at the National-
level.
    It is not within my scope of responsibility to define what 
constitutes a ``cyber-attack'' or an ``act of war'' in cyberspace. My 
role is to ensure cyber superiority from an ``attack'' and present 
ready and capable cyber capabilities and forces to our commanders and 
national leadership.
    MajGen Reynolds. In the broadest of terms, I believe an act of war 
in cyberspace includes actions in or through cyberspace by a nation-
state or entity/organization capable of fighting a war or conducting 
hostilities that produce effects comparable to those effects resulting 
from a kinetic attack. However a broad consensus has not yet been 
reached on what actions are sufficiently severe to cross that threshold 
and constitute an act of war in the cyber domain.
    There are some forms of cyber activity that I believe do not 
constitute an act of war as described above, such as cyber-espionage 
and, to some extent, even sabotage. Several instances of these 
activities by nation-states and non-state entities have been disclosed 
and discussed in the public domain recently. While these activities may 
have been aggressive and disruptive, I do not believe any have crossed 
the threshold for being considered an act of war.
    A cyber-attack is described by the Department of Defense as 
``cyberspace actions that create various direct denial effects in 
cyberspace (i.e., degradation, disruption, or destruction) and 
manipulation that leads to denial that is hidden or that manifests in 
the physical domains.'' A cyber-attack, if severe enough, could be 
viewed as an act of war as discussed above. Cyber-attacks or activity 
may be governed by the same aspects of the law of armed conflict that 
apply to traditional kinetic attacks in certain circumstances, such as 
when the cyber activity is likely to produce similar results. Again, 
however, there remains a lack of consensus over when an action in 
cyberspace is sufficiently severe to cross that threshold, and each 
event requires consideration on a case-by-case basis.
    In conjunction with the threshold question, I believe there is an 
imperative to continue developing normative behavior in the cyber 
domain and clearly state what is and is not acceptable. Secretary 
Mattis said as much during his confirmation hearing, noting the 
importance of making clear to adversaries what cyber activities we 
absolutely will not tolerate in order to avoid having somebody 
``stumble into a situation'' and force an unintended conflict.

    3. Senator Blumenthal. VADM Lytle, VADM Gilday, LTG Nakasone, Maj. 
Gen. Weggeman, and MajGen Reynolds, earlier this month we heard a great 
deal from former military and intelligence leadership about the need to 
ensure our cyber capabilities are both more defensive and resilient. Do 
you agree? What are you doing to improve your capabilities?
    VADM Lytle. We agree. The Services are working diligently to 
improve cyber survivability of our weapons systems. In response to the 
FY16 NDAA, section 1647, we are undertaking cyber vulnerability 
assessments and follow-on risk mitigation engineering plans for our 
weapons systems. We are using a tiered approach in order to 
methodically work through these systems based on criticality. 
Additionally, to increase the cyber survivability of future weapons 
systems, the Joint Staff also began implementing the Cyber 
Survivability Endorsement (CSE). In Dec 2014, the Joint Staff 
incorporated CSE in the Joint Requirements Manual. In June 2015, the 
Joint Requirements Oversight Council (JROC) directed CSE in a JROC 
memorandum. In January 2017, the Joint Staff provided a JROC-endorsed 
implementation guide. The Joint Staff has reviewed 43 weapon systems 
for the inclusion of cyber survivability requirements from the Services 
as of 20 July 2017. These include a wide spectrum of programs like the 
control system for the next-generation Global Positioning System ground 
station and the MQ-25 refueling drone. This required the acquisition 
community to incorporate cybersecurity elements into the design of 
weapon systems much earlier in the development process.
    VADM Gilday. From my perspective, our networks and supporting 
infrastructure are part of a warfighting platform and need to as 
defensible and resilient as any weapons system. While they were 
originally designed for reliability and convenience, we need to shift 
the design priority to cybersecurity and mission assurance as the 
drivers for networks and information environment development. 
Improvements are evident through the Navy Cyber Situational Awareness 
(NCSA) and Sharkcage acquisition programs and increased funding that 
provides Defensive Cyber Operations (DCO) forces the ability to: (1) 
detect adversary activities and analyze cyber-attacks against Maritime 
Cyber Key Terrain (M-CKT) via a protected, out-of-band enclave, and (2) 
integrate all-source intelligence and Navy data to assess adversary 
capabilities. It also provides DCO forces the ability to deliver 
operational commander cyber situational awareness at all layers of the 
IT infrastructure and combines blue, red, and white cyber common 
operational pictures (COP) into an integrated Cyber COP at Fleet Cyber 
Command (FCC) and the Numbered Fleet Maritime Operation Centers (MOC). 
Additionally, continued efforts by the acquisition community to 
transition our operating system baseline to a current generation of 
software infrastructure will greatly enhance our ability to be ready 
for today's cyber threats. We must be able to stay within one 
generation of currency to be effective in defending our networks. 
Further, the Navy is exploring the means to provision services via 
cloud computing and cloud-based services to enhance security while 
simultaneously reducing infrastructure costs. As I discussed during my 
testimony, the Navy continues to support the spirit and intent of the 
Joint Information Environment (JIE), including incorporating JIE 
technical standards into the acquisition of the Navy Enterprise 
Networks as those standards are defined. Lastly, the Navy is 
transitioning along with the rest of DOD to the Risk Management 
Framework, which is drawn from a solid basis using National Institute 
of Standards and Technology practices.
    LTG Nakasone. I agree that we need to ensure our cyber capabilities 
are more defensive and resilient. We are addressing this through a 
layered defense-in-depth approach that integrates the actions taken by 
cybersecurity personnel and the employment of emerging capabilities and 
modernized hardware. This approach spans the top layer internet access 
point all the way to the end user. For example, the Army is connecting 
all networks through the Joint Regional Security Stack (JRSS), which 
will provide better, more consistent security, by reducing the number 
of access points into our network. The Army is also working to 
standardize our endpoint (computer device) security solution across 
Army networks. In addition, we are fielding a new endpoint management 
capability that will allow administrators and defenders to better view 
the networks, and mitigate or remediate vulnerabilities. Army Cyber 
Command is also building a ``Big Data Platform'' replete with data and 
analytics to allow better visualization of information and to promote 
faster, unified action. Finally, in 2013 the Secretary of the Army 
established an Army insider threat program, and the Army's user 
activity monitoring (UAM) capability achieved full operational 
capability, monitoring user behavior at fixed sites on the Army's Joint 
Worldwide Intelligence Communication System (JWICS) network. In 2017, 
the Army G-3/5/7 assigned Army's UAM mission to Army Cyber Command. The 
Command has established a UAM pilot program on the Secret Internet 
Protocol Router Network (SIPRNet) and is working to achieve system-wide 
coverage.
    Maj. Gen. Weggeman. Yes, mission assurance, the ability to preserve 
or ``fight through'' is essential. We absolutely must ensure our cyber 
capabilities are more defensive and resilient. Going a step further, we 
must ensure all of our Department of Defense capabilities are defensive 
and resilient. Our number one priority remains defending our networks, 
weapon systems, and key mission systems, and I don't foresee that 
priority changing anytime soon.
    The Air Force is aggressively improving our resiliency in 
cyberspace. Major efforts include evolving towards the Enterprise 
Information Technology as a Service (EITaaS) approach, maturing and 
resourcing our SAF/CIO-piloted Cyber Squadron Initiative and inherent 
Mission Defense Teams (MDTs), and finally the development and fielding 
of the Air Force Materiel Command's Cyber Resiliency of Weapons Systems 
(CROWS) Office capabilities. These endeavors deliver a coherent 
approach to cyber security, cyber defense, weapon system resiliency, 
and the critical ``every airmen a sentry'' cyber hygiene culture across 
our Air Force. Our ultimate success hinges on a strong partnership and 
support from our military commanders and industry partners.
    MajGen Reynolds. Yes, I agree. The Marine Corps views the MCEN as a 
warfighting platform, which we must aggressively defend from intrusion, 
exploitation, and attack. Cyberspace operations favor the attacker, and 
our operational dependencies require us to conduct a formidable, 
continuous defense. Real-world defensive cyberspace operations have 
informed and sharpened our ability to detect and defend threats on the 
MCEN.
    Our priorities for improving our defenses this year include actions 
to flatten the Marine Corps network and improve our ability to sense 
the environment, harden the network through increased endpoint 
security, mitigate vulnerabilities inherent to Programs of Record 
(PORs) and decrease incident response time. To do this, we are 
aggressively seeking to consolidate legacy domains, implement a comply 
to connect capability and the WIN 10-operating system, and collapse 
regional service desks to an enterprise service desk. Each of these 
priorities are described briefly below.
    Network Access Control, Compliance, and Remediation (NACCR). NACCR 
provides defense in depth by positively identifying devices that 
attempt to connect to our networks, ensuring the device is compliant 
with the latest set of security updates, and, if non-compliant, NACCR 
initiates quarantine and remediation actions.
    Enterprise Service Desk. We are transitioning eight regional 
service desks into a central, standardized Enterprise Service Desk 
(ESD) in Kansas City, Missouri. The ESD will be under the operational 
control of MARFORCYBER. Users' requests for IT support and incident 
response, once centrally managed, will provide valuable insights into 
trends on the network. Long term benefits will include supporting a top 
down governance structure, increased efficiency in supporting the 
warfighter, and providing a holistic view of the network that informs 
and complements defensive actions on the MCEN.
    Domain Consolidation. In order to flatten, harden, and secure the 
network, we must have full visibility of all networked assets. We are 
undertaking efforts to bring remaining disparate legacy networks into a 
homogenous and secure network. Legacy networks contribute to the Marine 
Corps' cyber footprint and unnecessarily increase attack surfaces for 
adversaries. This deliberate effort for domain consolidation will 
provide much needed standardization and increase the cybersecurity 
posture of the MCEN.
    Windows 10. The Marine Corps is transitioning its Microsoft Windows 
end user devices to the Windows 10 (WIN 10) operating system (OS). WIN 
10 OS will improve the Marine Corps' cybersecurity posture, lower the 
cost of information technology (IT), and standardize the Marine Corps' 
IT operating environment. The WIN 10 OS has numerous embedded security 
features that earlier Windows OS's lack. These features include 
protection such as encrypting hard drive data while powered off or 
preventing the execution of unknown system commands.
    We consider our networks and information technology infrastructure 
to be an integral part of a warfighting platform which must be as 
defensible and resilient as any weapons system. The MCEN was not 
originally designed around cyber security. However, as we progress with 
the consolidation of legacy domains and the implementation of the Joint 
Information Environment (JIE) our focus for information networks has 
evolved from one of reliability and availability to integrated 
cybersecurity and mission assurance. We continue to work on the 
integration of open source intelligence, counter-intelligence, human 
intelligence, geospatial intelligence and signals intelligence 
collection with all-source intelligence analysis to provide improved 
indications and warning (I&W) on adversary cyberspace activities on or 
against Marine Corps networks and networked technology. Additionally, 
we have prioritized the development of cyberspace situational awareness 
capabilities and the integration of big data analytics to inform 
planning and execution of full spectrum cyberspace operations.
    This year the Marine Corps continued its initial investment in 
specialized tools for defensive cyberspace operations. The Deployable 
Mission Support System (DMSS) hardware and software tools comprise the 
weapons system CPTs use to meet any mission they may be assigned, from 
readiness and compliance visits to incident response or Quick Reaction 
Force missions. This year, we championed an ability to conduct split 
based operations with the DMSS, enabling the CPT lead to forward deploy 
a small element and push information back to a home station ``war 
room'' for remote analysis and remediation. This initiative and concept 
of employment will reduce deployed time and costs and increase our 
ability to collaborate more freely with other CPTs or across the 
mission force.

    4. Senator Blumenthal. VADM Lytle, VADM Gilday, LTG Nakasone, Maj. 
Gen. Weggeman, and MajGen Reynolds, what do you see as the biggest 
cyber threats to DOD? How are you countering them?
    VADM Lytle. The biggest cyber threats to DOD are state and non-
state actors -most notably Russia, China, Iran, North Korea, and ISIS--
who plan to conduct disruptive and destructive cyber attacks on the 
networks of our critical infrastructure and steal U.S. intellectual 
property to undercut our technical and military advantage. To counter 
these escalating threats, the DOD has put in place a formal strategy 
and developed improved cyber capabilities. This includes the creation 
of ready cyber forces capable of conducting cyberspace operations and 
defending the DOD Information Network. These cyber forces are also 
prepared to defend the U.S. Homeland and U.S. vital interests from 
disruptive or destructive cyber attacks of significant consequence. 
Additionally, DOD is developing and maintaining a series of viable 
cyber options to shape conflict environments and control conflict 
escalation. Finally, DOD is working to shore up international alliances 
and weave compelling deterrence frameworks against shared threats, in 
order to increase security and global stability.
    VADM Gilday. The greatest cyber threats to DOD networks are Nation 
State-Sponsored Advanced Persistent Threats (APTs). Nation states, 
specifically Russia, China, Iran and North Korea represent the greatest 
threat to DOD networks as they provide dedicated resources, 
infrastructure, and technological sophistication toward offensive cyber 
operations over long periods of time. Nation states likewise often seek 
to establish a sustained discrete presence on our networks for 
information gathering purposes. Non-State Cyber Actors, such as ISIS, 
are the next greatest threat. These organizations also have resources 
dedicated to offensive cyber operations although they lack the 
infrastructure and technical capacity that a nation state can provide. 
A third tier of threats center on hacktivists and organized crime. 
Although threats to the DOD network are not limited solely to threat 
actors, potential vulnerabilities within the DOD workforce are also 
exploitable. Insider threats and poor cyber hygiene provide potential 
avenues that adversaries can use to gain access to both secure and 
unsecure networks. Unencrypted emails used to share sensitive files, 
for example, may be utilized to access or identify pathways across 
domains increasing the risk to multiple systems. State sponsored APTs 
leveraging this type of information could exploit and move laterally 
across our networks, and then potentially hide and collect sensitive 
information while remaining undetected. As described earlier, ensuring 
a defensible and resilient network is one critical component. This 
includes the Joint Information Environment, Navy Cyber Situational 
Awareness (NCSA) and Sharkcage acquisition programs, and Risk 
Management Framework. Partnership across the DOD, as well as 
interagency and with industry and academia provides valuable threat 
data and keeps us on the leading edge of tactics, techniques and 
procedures. Lastly, investing in our people, through recruiting, 
training and retaining the best workforce provides an asymmetric 
advantage.
    LTG Nakasone. Russia, China, North Korea, and Iran pose the 
greatest cyber threats to the Army. These actors are well-resourced, 
focused on improving their cyber capabilities, and are expected to 
continue along this trend into the future. Another significant concern 
is the risk posed by insider threats. Non-state cyber actors, including 
hacktivists and cyber criminals, currently pose a lesser threat to the 
Army. Each of these threats are arrayed against the large, segregated, 
and diverse Army network at multiple echelons. Given this, we are 
working to counter threats by standardizing capabilities across our 
defense-in-depth. The Army is migrating the outer defensive 
infrastructure to the Joint Regional Security Stack (JRSS). The JRSS 
will provide better, more consistent security, and decrease the attack 
surface by reducing the number of access points into our network. The 
Army is also working to standardize our endpoint (computer device) 
security solution (Host Based Security System) across Army networks. In 
addition, the Army is fielding a new endpoint management capability 
that will allow administrators and defenders to better view the 
networks and mitigate or remediate vulnerabilities. Augmenting and 
connecting the layers of this layered defense, ARCYBER is building a 
``Big Data Platform'' (BDP) which supports data retention and analytics 
to allow better visualization of risk across the network. The BDP will 
integrate multiple discrete data sources and provide commanders better 
situational awareness. To counter insider threats the Army established 
user activity monitoring (UAM) capability in 2013 and it has achieved 
full operational capability, monitoring user behavior at fixed sites on 
the Army's Joint Worldwide Intelligence Communication System (JWICS) 
network. In 2017, the Army assigned the Army's UAM mission to Army 
Cyber Command and a pilot program has been established on the Secret 
Internet Protocol Router Network (SIPRNet) that is working to achieve 
system-wide coverage. Finally, supplementing our defensive 
capabilities, the Army is engaged in developing a range of offensive 
cyberspace capabilities and options for senior policy makers to 
consider. Such operations and capabilities would only be employed based 
upon available authorities and the approval of the appropriate decision 
makers.
    Maj. Gen. Weggeman. Us, and our ability to quickly and decisively 
mitigate known cyber vulnerabilities across our enterprise: networks, 
data centers, weapon systems, acquisitions systems, cloud services, 
etc. We are actively countering this threat through the use of the 
Automated Remediation and Asset Discovery tool, data analytics as a 
service, and the establishment of the Cyber Readiness of Weapon Systems 
(CROWs) office.
    MajGen Reynolds. Russia, China, North Korea, and Iran pose the 
greatest cyber threats to the Marine Corps and the MCEN. These nation-
state actors are well-resourced, have advanced cyber capabilities, and 
are expected to continue along this trend into the future. In addition, 
they are unconstrained by laws or regulations to conduct unfettered 
cyberspace operations against both private industry and other sovereign 
nations. Another significant concern is the risk posed by insider 
threats to the MCEN. Lesser threats to the Marine Corps include non-
state cyber actors, including hacktivists and cyber criminals.

    5. Senator Blumenthal. VADM Lytle, VADM Gilday, LTG Nakasone, Maj. 
Gen. Weggeman, and MajGen Reynolds, what role do you see the private 
sector playing in enhancing our cyber security? What additional actions 
are needed to ensure stronger public-private partnership?
    VADM Lytle. The private sector can enhance the cybersecurity of the 
DOD with its innovative, best-of-breed cybersecurity technologies that 
enable DOD to better defend its networks and platform information 
technology. It is important to remember that the Defense Industrial 
Base (DIB) develops much of our advanced military technology. The DIB 
and its private sector partners, in cooperation with the U.S. 
Government, must protect those technologies throughout the development 
cycle. The President's Cybersecurity Executive Order 13800 directed 
DOD, DHS, and FBI, in conjunction with the DNI, to report on the 
cybersecurity risks in the DIB and the risk to military technology 
through the DIB. Though still in draft, the report will provide some 
concrete recommendations to the President to increase the cybersecurity 
of DOD information in the DIB.
    VADM Gilday. The 2015 DOD Cyber Strategy, points out that over 
ninety percent of all of the networks and infrastructure in cyberspace 
is privately owned and operated. We rely on the private sector to 
``build [our] networks, provide cybersecurity services, and research 
develop advanced capabilities.'' Due to its size and exposure in 
comparison to DOD, the private sector experiences a much wider attack 
surface than DOD, but they are facing many of the same adversaries, 
using the same methods. Many aspects of the private sector are 
resourced, incentivized and agile enough to procure the latest, most 
advanced capabilities, maintain peak cybersecurity posture. Continuing 
to foster trusted relationships with the private sector can facilitate 
information sharing, making the DOD more aware of emerging threats and 
technologies and services. Additionally, such a partnership benefits 
our private sector in helping them better prepare for adversaries who 
seek to exploit their infrastructure and intellectual property. 
Continuing to evolve acquisition to keep pace with technological 
advancement would provide us the means to procure and deploy 
technologies, identified though this information sharing, on DOD 
networks.
    LTG Nakasone. The private sector is critical to Army and DOD cyber 
security efforts. Notwithstanding a handful of unique challenges within 
the DOD, the cyber security challenge equally affects public and 
private space, which affirms the critical nature of developing and 
expanding public-private partnership. DOD processes must be flexible 
and adaptable in order to leverage the extensive innovation that occurs 
in the private sector. The Army has leveraged, and continues to 
leverage, its Other Transaction Authority (OTA) through organizations 
such as the Consortium for Command, Control, and Communications in 
Cyberspace (C5), and the Army Defense Innovation Unit Experimental 
(DIUx). The OTA has proven valuable to enabling the rapid solicitation, 
evaluation, and procurement of technology from a wide range of private 
industry partners. Beyond the OTA-based acquisition-centric 
partnership, it is equally important that government science and 
technology organizations partner and collaborate with the private 
sector to optimize early stage technology development. University 
Affiliated Research Centers (UARC) and the Federally Funded Research 
and Development Centers (FFRDC) provide a critical role in facilitating 
our partnerships with the private sector. Additionally, beyond cyber 
security solutions, it is imperative that warfighting systems provided 
to the DOD by the private sector come with the highest possible degree 
of security. The DOD's ability to have confidence in supply chain 
integrity and awareness of threats to the private sector--which could 
have downstream effects on DOD systems--is limited. It is worth 
exploring additional incentives to encourage the private sector to 
deliver systems with embedded enhanced cyber security measures. 
Stronger public-private partnerships will be achieved by improving how 
we develop and link our gaps and requirements to the private sector 
under the current structural requirements for DOD acquisition, and we 
must exercise these processes frequently and aggressively to maintain 
momentum.
    Maj. Gen. Weggeman. To enhance our cyber security, a whole of 
society approach is required. Leveraging the private sector is the only 
way we can tackle the scope and scale of security and defense 
requirements. To do so, we need an agile acquisitions process that 
supports and enables innovation and rapid acquisition or consumption 
``as a service'' approaches. The traditional acquisition model works 
when you are talking about ACAT-I programs like the Joint Strike 
Fighter and the Long Range Strategic Bomber, but the traditional 
acquisition model simply doesn't work for cyberspace capabilities. The 
current industrial age process is ill-suited to deliver the required 
outcomes in an information warfare era.
    In the past few years, Congress has provided the DOD additional 
acquisition authorities to better leverage the private sector. We need 
to take an in depth look at which echelon these authorities should 
reside to ensure we take full advantage of a DOD and private-sector 
partnership.
    MajGen Reynolds. The private sector is vital to enhancing the 
nation's cyber security posture. It is infeasible for one entity, be it 
public or private, to adequately provide for the Active defense of our 
nation's cyberspace. As cyberspace is inherently a shared resource 
between the public and private sectors, so must the responsibility to 
provide for cyber security.
    The DOD, and each Service individually, has a mission to secure, 
operate, and defend the DOD Information Network. In order to execute 
this continuing mission, the DOD is reliant on the use of commercial 
systems. There must be a shared responsibility for creating innovative 
technologies with security as a foundation. This must be coupled with a 
deliberate approach to supply chain risk management to ensure the 
introduction of these new technologies only improves, not detracts 
from, our cybersecurity posture. It must also be fed new ideas, 
tactics, services, and products by scholars and entrepreneurs alike.
    Continuing partnership with start-ups in innovative technologies 
and encouraging the private sector to build security in from the start 
is already integral to our successful defense, and will be so for the 
foreseeable future. Efforts such as the DIUx are instrumental in 
ensuring DOD requirements are met with a variety of potential 
solutions. Continued and increased engagement with the nation's best 
academic minds to solve our tough challenges and provide the framework 
for future innovation is also vital. In the same manner, frequent and 
increased support from Federally Funded Research and Development 
Centers is required to continue to secure the ever-changing landscape 
of cyberspace.
    The private sector's role in enhancing our cyber security is not 
singular, nor is the public sector role. Currently, there are de facto 
public-private partnerships between law enforcement organizations and 
major providers of services and products our nation uses in the conduct 
of daily business. These interactions, while beneficial, have not been 
codified to the point where we can accurately state what the roles and 
responsibilities are of either the public or private sector. Greater 
discourse with the public and subsequent direction from our elected 
officials and policy makers is required to define the authorities that 
allow us to execute our missions under the rule of law.

    6. Senator Blumenthal. VADM Lytle, VADM Gilday, LTG Nakasone, Maj. 
Gen. Weggeman, and MajGen Reynolds, there are 16 sectors of critical 
infrastructure. DOD has primary responsibility for one -the defense 
industrial base. The defense industrial base is well represented in CT 
-from Sikorsky to UTC to EB and beyond. As our adversaries continue to 
pose serious cyber threats to our country, I am particularly worried 
about the risk of exfiltration from the defense industrial base. The 
companies that develop America's premier technology and weapon systems 
that power our military must be ever vigilant in protecting their 
networks. While we maintain an edge over our adversaries for now, some 
are not far behind. We must ensure that adversaries are not able to 
catchup because of exfiltration -where adversaries steal and repurpose 
developmental and design plans and secrets from companies to build or 
improve their own aircraft, ships, and vehicles. The defense industrial 
base is well represented in CT. How are you working with the defense 
industrial base to prevent and protect against exfiltration of industry 
data on our most advanced weapon systems? Which are most vulnerable to 
being targeted?
    VADM Lytle. Under DOD CIO direction, and through the Defense Cyber 
Crime (DC3), DOD strives to protect its information in the Defense 
Industrial Base (DIB) through both mandatory contractual stipulations 
that require these companies to adhere to a high level of cybersecurity 
as well as voluntary information sharing programs on threats.
    VADM Gilday. As the Navy component, we support U.S. Cyber Command's 
mission to, if directed by the president and secretary of defense, 
provide capabilities to defend our nation's critical infrastructure 
networks. While Fleet Cyber Command units are not directly assigned to 
protect and defend defense contractor unclassified/proprietary networks 
and systems, we do support DISA's DOD Information Networks (DODIN) 
readiness and security inspections of defense contractor's classified 
systems. Our support includes reviewing the results of inspections of 
those classified systems and the defense contractor's adherence to DOD 
Information Assurance policies, procedures and directives. Should DISA 
find negative results during an inspection and that contractor is doing 
work that supports the U.S. Navy, Fleet Cyber Command will provide an 
operational assessment of the impact of disconnecting a contractor's 
classified system and remediating the network. As a mission partner 
with DISA, Fleet Cyber Command supports holding defense contractors to 
a very high standard in Information Assurance compliance for classified 
systems.
    LTG Nakasone. The Army is implementing a comprehensive approach to 
minimize the exposure of our advanced technologies to cyber threats 
while that information is in the possession of the defense industrial 
base (DIB). The Army's focus, in concert with the Department of Defense 
(DOD), has been on implementing mandatory reporting under Defense 
Federal Acquisition Regulation Supplement (DFARS) clause 252-204-7012 
of cyber incidents that affect a covered contractor information system 
or covered defense information on that system. Also, the Army is 
implementing National Institute of Standards and Technologies (NIST) 
Special Publication 800-171 for safeguarding DOD information on DOD 
contractor networks. Further, the Army is actively participating in the 
DOD's DIB Cybersecurity voluntary information sharing program, which is 
available for all cleared defense contractors. The Army can provide 
further information on vulnerabilities to data and systems in a 
classified setting.
    Maj. Gen. Weggeman. Our adversaries are taking the path of least 
resistance, attacking DIB subcontractors, vice primes, in order to 
quickly eliminate the technological advantage our nation currently 
enjoys.
    Using voluntary and mandatory reporting requirements, the 
Department partners with DIB sector stakeholders to maintain a robust 
cybersecurity and information assurance program to protect sensitive 
defense information and protect DOD networks and system. However, the 
onus of protecting proprietary data should fall directly on the company 
itself. The DOD lacks the funding, manpower, and resources to fully 
secure and defend the DIB.
    Industry is incentivized by their financial bottom line, and until 
there is a large enough incentive (either legally binding or hindering 
their ability to earn future contracts) for them to increase their 
cybersecurity posture, the behavior of these companies will likely not 
change.
    MajGen Reynolds. The DOD Cyber Crime Center, or DC3, is the 
operational focal point for the Defense Industrial Base Cybersecurity 
Program.
    Any vulnerable data system, including those part of the defense 
industrial base, are vulnerable to enticing opportunities for 
disruption, manipulation, or destruction from both state and non-state 
actors.
    The 2015 DOD Cyber Strategy summarizes how DOD supports agencies 
like the Department of Homeland Security and the Federal Bureau of 
Investigation to share information and coordinate across a range of 
cyber activities. Across the DOD we must work with the private sector 
to help secure defense industrial base trade data, and be prepared to 
assist other agencies in hardening U.S. networks and data against 
cyberattacks and cyber espionage.
    We work to secure and defend the MCEN and the Programs of Record 
(POR) and weapons systems connected to it. We identify and coordinate 
to mitigate vulnerabilities of advanced weapons systems when found.

    7. Senator Blumenthal. VADM Lytle, VADM Gilday, LTG Nakasone, Maj. 
Gen. Weggeman, and MajGen Reynolds, what are you doing to ensure 
additional protection for these defense programs? What role should 
Congress play?
    VADM Lytle. The Defense Federal Acquisition Regulation (DFAR) 
252.204-7008 was modified in late 2016 to require Defense Industrial 
Base (DIB) companies to implement the cybersecurity controls outlined 
in the National Institute of Standards and Technology (NIST) Special 
Publication 800-171, Protecting Controlled Unclassified Information 
(CUI) in Nonfederal Information Systems and Organizations. That 
publication sets the minimum cybersecurity standards to be met by DIB 
companies in protecting the DOD's sensitive Controlled Unclassified 
Information and is required on all new DOD contracts. Congress may 
consider supporting Defense Federal Acquisition Regulation 252.204-7008 
and similar rules that mandate greater cybersecurity for defense 
programs and extend this regulation to all federal contractors.
    VADM Gilday. I believe we can best support these programs through 
information sharing and accountability. The DOD's DIB Cybersecurity 
Program administered by DOD CIO establishes a collaborative cyber 
threat information sharing environment that informs the DIB about 
adversary tactics, techniques and procedures and assists with 
mitigation strategies. In addition, DOD encourages industry to adopt 
the NIST Framework for Improving Critical Infrastructure Cybersecurity 
framework as a methodology for managing cybersecurity risk. We support 
DISA's DOD Information Networks (DODIN) readiness and security 
inspections of defense contractor's classified systems. Our support 
includes reviewing the results of inspections of those classified 
systems and the defense contractor's adherence to DOD Information 
Assurance policies, procedures and directives. Should DISA find 
negative results during an inspection and that contractor is doing work 
that supports the U.S. Navy, Fleet Cyber Command will provide an 
operational assessment of the impact of disconnecting a contractor's 
classified system and remediating the network. As a mission partner 
with DISA, Fleet Cyber Command supports holding defense contractors to 
a very high standard in Information Assurance compliance for classified 
systems. One of the most important steps for improving the overall 
cybersecurity posture is for the private sector, particularly those 
within the defense industrial base, to prioritize the networks and data 
that they must protect and to invest in improving their own 
cybersecurity. Any support Congress can provide that enables 
information sharing between the U.S. government and the private sector 
will make us stronger and safer.
    LTG Nakasone. The Army continues to partner with the Department of 
Defense (DOD), prime contractors and subcontractors to promote the 
successful implementation of Defense Federal Acquisition Regulation 
Supplement (DFARS) provisions that aim to safeguard covered defense 
information and ensure contractor reporting of cyber incidents, at all 
levels of the supply chain. The Army is also supporting OSD's Joint 
Acquisition Protection and Exploitation Cell (JAPEC) initiative, which 
integrates and coordinates analyses of unclassified Controlled 
Technical Information (CTI) losses. This initiative enables increased 
efforts across the DOD to proactively mitigate future losses. It also 
provides expertise to assist program managers' efforts to protect CTI 
resident within the Defense Industrial Base and across the DOD 
enterprise. Congressional support within the cyber realm has benefitted 
the Army as we operate in this dynamic space. The authorities and 
funding provided to date have been key in manning, training, and 
equipping the force, and in safeguarding covered defense information 
and improving contractor reporting of cyber incidents. As we fully 
integrate these authorities we will not hesitate to reach back and work 
together to fine tune them, nor will we hesitate to begin the dialogue 
with Congress to address newly found challenges.
    Maj. Gen. Weggeman. DOD has a range of activities that include both 
regulatory and voluntary programs to improve the collective 
cybersecurity of the Department and the Defense Industrial Base, to 
include securing DOD's information systems and networks; codifying 
cybersecurity responsibilities and procedures for the acquisition 
workforce in defense acquisition policy; implementing contractual 
safeguarding and reporting requirements through the Defense Federal 
Acquisition Regulation Supplement (DFARS); sharing cyber threat 
information through DOD's voluntary DIB Cybersecurity Program; and 
leveraging security standards such as those identified in National 
Institute of Standards and Technology (NIST) Special Publication 800-
171 ``Protecting Controlled Unclassified Information in Nonfederal 
Information Systems and Organizations''
    However, the onus of protecting proprietary data should fall 
directly on the company itself. The DOD lacks the funding, manpower, 
and resources to fully secure and defend the DIB. Industry is 
incentivized by their financial bottom line, and until there is a large 
enough incentive (either legally binding or hindering their ability to 
earn future contracts) for them to increase their cybersecurity 
posture, the behavior of these companies will likely not change.
    MajGen Reynolds. Like the Internet itself, many of our Programs of 
Record and warfighting systems were not built with security in mind. To 
combat these vulnerabilities, we are reviewing each one to determine 
how we can improve security. We have also conducted a review of all 
vulnerable end of life hardware and software on the network and 
developed expedited strategies to upgrade, consolidate or remove 
systems that cannot be adequately hardened. The Marine Corps Risk and 
Readiness Review Board (MCRRRB) is a threat informed, risk based 
framework used to identify, prioritize, and address vulnerabilities. 
This consists of a twice-a-month working group that culminates in a 
board that is briefed at the GO level. Projects that focus on auditing, 
analysis and tracking of cyber events and anomalous activity have been 
developed and implemented to improve our situational awareness of 
system status and cyber monitoring capabilities. Programs that test and 
audit our defensive posture are continuously reviewed for relevance and 
improvement to address the changing cyber threat environment and 
support the intelligence operations cycle on a shortened timeline. 
Cyber is a dynamic, competitive environment, and we are continually 
responding to the increasing capability and capacity of our 
adversaries. Congressional support within the cyber realm will continue 
to be necessary in order to ensure our Nation is protected against our 
adversaries across departments and private industry. Moving forward, 
predictable funding is key in manning training, and equipping the Cyber 
Mission Force teams and the demand to continually refresh and improve 
network technologies.
                               recruiting
    8. Senator Blumenthal. VADM Lytle, VADM Gilday, LTG Nakasone, Maj. 
Gen. Weggeman, and MajGen Reynolds, there is an ever increasing need 
for a properly trained, experienced cyber personnel, both in DOD and in 
the civilian workforce. DOD seems to be having difficulty in recruiting 
servicemembers with cyber and computer expertise that meet physical 
standards. Are you concerned that there is a shortfall in the cyber 
workforce? Do you think certain positions are harder to recruit for 
than others?
    VADM Lytle. The Department of Defense considers retention of 
critical talent a high priority, and this includes the highly-technical 
skillset found in our Cyber Workforce. All of the Services are 
implementing and are continuing to build programs to retain cyber 
talent, while also actively watching for indications of emerging 
retention issues. The Joint Force is focused on building training 
programs and strategies to grow talent, leverage Reserve Component 
expertise, and retain necessary numbers of seasoned cyber operators to 
meet the growing demands in cyberspace. Notably, one third of the Cyber 
Mission Force is comprised of government civilians, who are recruited 
on the basis of cyber and computer expertise and without regard for 
physical standards. Those positions with specific market demand face 
greater recruiting challenges. Therefore, in order to ensure best 
practices for cyber recruiting, management, promotion, and retention 
are shared across the DOD, the Principal Cyber Advisor is leading an 
ongoing forum with the Joint Staff, Services, Service Cyber Components, 
U.S. Cyber Command, DOD Chief Information Officer, and other key 
stakeholders to ensure maximum dissemination of lessons learned across 
the Department.
    VADM Gilday. The Navy currently does not have issues with 
recruiting or retaining military cyber personnel, and the first tranche 
of fully trained Cyber personnel will be eligible for separation in the 
next 12-24 months. The Navy is currently offering reenlistment bonuses 
and anticipates a Special Duty Assignment Pay authorization in FY-18 
specifically for Interactive On-Net Operators. The Navy is working 
diligently to continue to grow a competent, educated and effective 
Cyber workforce from within but many Cyber positions require experience 
and years of formal education that is very difficult to fill with 
military members, necessitating filling these positions with civilians. 
The Navy has worked a plan and identified specific work roles, within 
the Cyber Mission Force, that would be beneficial if civilianized. The 
current government pay scale makes it extremely difficult to compete 
with industry and hire the personnel required to fully man our Cyber 
workforce with the talent needed. Cyber Tool Developers (programmers) 
have been the hardest positions to fill due to their high demand within 
all services, agencies and industry. DOD provides programs allowing 
recruitment and retention incentives but these programs are typically 
not funded and the processes are cumbersome.
    LTG Nakasone. Military Cyber Talent: We are not currently 
experiencing difficulty in recruiting service-members with cyber and 
computer expertise who meet physical standards. The Army has not had 
difficulty in meeting its military recruitment numbers for cyberspace 
personnel. However, we often miss out on identifying highly technical 
talent early in the recruitment and development process. If recruited, 
soldiers are put on the traditional military training track before 
their talent is recognized. We must do a better job in recognizing 
talent early-on in the recruiting process. Civilian Cyber Talent: I am 
concerned, however, about the shortfall in the combined civilian and 
military cyber workforce. As emerging threats to our data and security 
systems increase, the demand signal for an experienced cyber workforce 
has never been greater. The reality is that we must compete for talent 
from the same pools of personnel being recruited by the top private 
sector companies outside of the defense mission. In both the civilian 
and military cyber workforce we do find varying degrees of difficulty 
in recruiting select skillsets for our cyber forces. The hardest 
positions to recruit are interactive on-net operators, exploit 
analysts, and software engineers. Software engineers are the primary 
catalyst for enabling cyber missions conducted by the operators and 
exploit analysists, so we must develop innovative ways to recruit these 
highly talented individuals into the Army. Also, individuals with 
skillsets associated with reverse engineering represent the smallest 
portion of the current cyber workforce and are therefore challenging to 
recruit. We view expanded recruiting efforts and partnerships with 
leading universities and the private sector as essential to building a 
successful pipeline for the future.
    Maj. Gen. Weggeman. With the growing threat in cyberspace, it is 
imperative that our nation, as a whole, matures its cyber workforce. I 
would say I am more concerned with a shortfall in our overall national 
cyber workforce. The skills we look for in the Air Force are also 
highly sought-after throughout the United States Government and the 
private-sector.
    High-end software developers/coders are extremely competitive given 
private sector demand and compensation.
    MajGen Reynolds. Demands for a skilled cyberspace workforce have 
outpaced supply, creating a very competitive environment. One of the 
key requirements to grow and maintain an effective CMF is our ability 
to hire and retain the highest quality cyberspace professionals.
    In workforce management, we are being challenged by policy issues 
as well as the increasing demand for workers with cyber experience in 
industry and government. Private industry remains an attractive 
prospect for our cyber personnel with salaries and incentives we cannot 
compete with. Once implemented, the Cyber Excepted Service (CES) 
civilian personnel system described in the NDAA FY2016, section 1107 
will enhance the Department's cyber defense and offensive mission 
effectiveness.
    The recruitment of recently retired or separated service members 
that are cleared and fully trained has become substantially more 
difficult after the expiration of policy suspending the180-day cooling 
off period required before taking a government position under the 
National Defense Authorization Act of Fiscal Year 2017, typically 
leading candidates to seek jobs in the private sector.
    Recently, the Office of Personnel Management (OPM) approved an 
increase in recruitment and retention incentives from 25 percent to 50 
percent for MARFORCYBER Headquarters, MCCYWG, and MCCOG. OPM and DOD 
worked with MARFORCYBER to better understand our hiring concerns and 
issues related to losing highly trained cyber talent to private 
industry. MARFORCYBER and NSA are the only two organizations in DOD 
currently with this authority.
    On the uniformed side, we are successfully leveraging our Reserve 
forces to help close manpower gaps. This capability has given us a 
tremendous boost, with Reservists agreeing to come on orders for 
anywhere from one to three years.
    To assist in our ability to retain our cyber talent, we are moving 
forward with the creation of a cyberspace occupational field. We have 
learned a great deal in the past several years about the training, 
clearance, and experience requirements across the cyber mission force. 
We know that in order to be effective, we must retain a professional 
cadre of cyberspace warriors who are skilled in critical work roles, 
and we know that many of our marines desire to remain part of the cyber 
work force.

    9. Senator Blumenthal. VADM Lytle, VADM Gilday, LTG Nakasone, Maj. 
Gen. Weggeman, and MajGen Reynolds, what are your suggestions for 
growing the cyber force? How can Congress assist?
    VADM Lytle. We appreciate Congressional efforts in passing section 
1107 (Cyber Excepted Service Program) of the FY16 NDAA to improve our 
ability to tackle manpower issues. Further, each Service is working 
their unique cyber manpower challenges as part of their man, train and 
equip responsibilities. The Services have learned and adapted over the 
past four years, instituting a number of personnel policy changes to 
ensure the success of the Cyber Mission Force and its associated cyber 
tactical headquarters. As many of the actions we have taken to fix our 
recruitment, training, and retention issues have just begun, we are 
closely evaluating progress and will adjust as needed to grow the cyber 
force we require.
    VADM Gilday. The Navy has taken aggressive measures to hire and 
retain the cyber talent needed to operate and win in this threat 
environment under current pay scales. However, as the Department of the 
Navy identifies the revised missions and associated force structure 
needed to reach a 355 ship Navy, the Navy will need to identify the 
cyber manpower and capability requirements required to fully support 
it. Additionally, the Navy will need to recognize the appropriate 
military and civilian workforce mix as it matures to identify the 
proper pay scales needed to most effectively support the mission. The 
Navy will need to identify education and training requirements and 
adequately plan for and implement the developmental programs needed to 
ensure our personnel are technically and operationally proficient. 
Congress can generally support this transition by ensuring the 
expansion of cyber capabilities, educational/training opportunities, 
and operational effectiveness through investments outlined in the 
President's Budget.
    LTG Nakasone. There is increasing competition between the DOD and 
the private sector to recruit, train, and develop talent, and it is 
critical that the DOD leverage the unparalleled impact of its mission 
to recruit this talent. As we continue to build a successful cyber 
workforce, we seek to adopt the best practices from the private sector 
that are successfully recruiting top talent. Successfully growing the 
cyber workforce requires improving how we conduct outreach to technical 
talent, providing cutting edge training methodology that adapts quickly 
to mission requirements, and implementing proven retention strategies 
to keep our top talent. Army Cyber Command is currently exploring pilot 
programs to address each of these areas in an effort to create an 
environment that recruits and retains high caliber personnel. 
Congressional support to date has been a key enabler in the cyber 
domain. Specifically, section 509 of the National Defense Authorization 
Act (NDAA) for Fiscal Year (FY) 2017 authorized a pilot program for the 
Services to direct commission to cyber positions, and section 502 of 
the NDAA for FY14 allowed the Services to grant up to three years of 
constructive credit to Active component officers with cyberspace 
related experience or advanced education. We are confident this will 
enhance the Army's ability to attract and more appropriately compensate 
individuals with unique cyber skill sets and experience. As we 
implement these authorities and analyze the results, we will work 
closely with Congress to determine their effectiveness. Further, the 
implementation of the Cyber Excepted Service (CES), authorized by 
section 1599f of title 10, United States Code, will assist in 
recruiting and retaining quality civilian cyber professionals. CES will 
allow DOD to pursue market-based pay initiatives to foster competitive 
compensation for the recruitment and retention of quality talent. This 
flexibility supports the design of incentives and special pay rates 
that are necessary to target unique mission locations (e.g., rural or 
foreign areas), and specialized skills, education, or certification 
requirements. Finally, Congress also provided the DOD with authorities 
to assist in the hiring and development of cyber personnel. For 
example, the direct hire authority in section 1106 of the NDAA for FY17 
allows us to fill vacancies faster without application of veteran 
preference and by eliminating competitive examining procedures; section 
1104 provides for public-private talent exchanges; and section 1103 
expands civilian training authorities, allowing us to provide more 
educational and training opportunities to that component of our 
workforce. Once the implementation of CES is complete, we will be able 
to better identify areas where Congress can assist.
    Maj. Gen. Weggeman. The Air Force is currently undermanned relative 
to the totality of the missions the nation expects us to execute. With 
that said, cyber is a high-demand, low-density field where the demand 
is only going to increase. You don't have to look far to see cyberspace 
in the national and global conversation. Our nation is actively under 
attack in/from/thru cyber from a multitude of adversaries today. My 
focus for the future of the cyber force is to deliver a coherent, 
integrated workforce laser-focused on lethality in the information 
warfare domain supporting our service's missions as our nation's 
sentinels for Air and Space.
    Congress can assist by providing budget stability to ensure timely 
and adequate resources for critical capabilities essential for cyber 
force readiness across all mission areas.
    MajGen Reynolds. On the civilian side, policy that exempted 
cyberspace positions during the recent hiring freeze was helpful in 
supporting our civilian workforce growth. However, the recruitment of 
recently retired or separated servicemembers that are cleared and fully 
trained has become substantially more difficult after the expiration of 
policy suspending the 180-day cooling off period required before taking 
a government position, typically leading candidates to seek jobs in the 
private sector.
    In order to grow the uniformed Cyber Mission Force long term, we 
need to grow civilian cyber education across our population. Today's 
generation of marines join with a superb knowledge of information 
technology compared to the older generation however, they still lack 
the understanding needed to operate within the Cyber Mission Force. 
Incorporating cybersecurity, networking, and computer languages into 
curriculum starting at a younger age will give the Services a pool of 
highly skilled candidates to recruit. Those who choose not to serve 
within the military will benefit the country as a whole.
    Additionally, Congress can apportion for a targeted loan 
forgiveness program for graduates of one of the National Center of 
Academic Excellence in Cyber Operations or Center of Academic 
Excellence in Cybersecurity who join any of the Services. These 
graduates would fill our officer corps with the expertise needed to 
operate in this difficult domain.

    10. Senator Blumenthal. Maj. Gen. Weggeman, Admiral Rogers 
specifically mentioned the Air Force is not where it needs to be 
regarding cyber recruitment and retention when he testified before this 
committee earlier this month. Admiral Rogers noted that he has 
discussed this issue with General Goldfein who acknowledged the 
problem. Why is this? What are you doing to improve? How are you 
working with CYBERCOM to address the issue?
    Maj. Gen. Weggeman. Across the Air Force, I have yet to see any 
data that indicates we currently have a recruiting or retention issue. 
Although, we have not seen any significant signs for concern, we must 
remain vigilant and stay in-tune to our airmen's personal and 
professional development needs and balance them against the operational 
mission needs of our service.
    As the Commander of Air Forces Cyber, we have focused intensely on 
improving our human capital management within our Cyber Mission Force 
(CMF) teams. Since 2015, we have seen a consistent reduction in 
attrition out of CMF. In August 2016, I implemented an attrition policy 
which required commanders to obtain my approval prior to removing a 
member from a CMF team. We have also increased our reutilization by 
instituting a back-to-back CMF tour policy. We are taking a 
conscientious and deliberate approach to our force management to ensure 
we have cyber-minded airmen who can effectively integrate cyberspace 
capabilities and effects at the strategic, operational, and tactical 
levels.
    My current 24 AF command responsibilities do not extend to service 
recruiting and retention policies/practices. These are HQ Air Force 
functions (SAC-CIO A6/A1). CYBERCOM has no role in these service title 
10 organization, train, and equip functions.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
